No. _______

IN THE

Supreme Court of the United States

d
REIYN KEOHANE ,

Petitioner,

—v.—

FLORIDA DEPARTMENT

OF

CORRECTIONS SECRETARY,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Ardith Bronson
DLA PIPER LLP (US)
200 South Biscayne Blvd.
Suite 2500
Miami, FL 33131
Leslie Cooper
James D. Esseks
ACLU FOUNDATION
125 Broad Street, 18th Floor
New York, New York 10004

Daniel B. Tilley
Counsel of Record
ACLU FOUNDATION OF FLORIDA
4343 W. Flagler St., Suite 400
Miami, FL 33134
(786) 363-2714
dtilley@aclufl.org
David D. Cole
ACLU FOUNDATION
915 15th St. NW
Washington, DC 20005

Attorneys for Petitioner

QUESTION PRESENTED
Petitioner Reiyn Keohane is a Florida prisoner
who challenged the denial of medically necessary care
for gender dysphoria under then-applicable Florida
Department of Corrections (FDC) policies. Following
a trial, she obtained an injunction from the district
court mandating the care. The FDC prevailed on
appeal but then unilaterally applied a new,
unchallenged policy to Ms. Keohane and granted her
the relief she had requested, rendering Ms. Keohane’s
challenge to the prior policies moot. Ms. Keohane
sought vacatur on the ground that the FDC, as
prevailing party, had unilaterally rendered her case
moot, but the court of appeals denied the motion
without explanation.
The question presented is whether, pursuant to
United States v. Munsingwear, Inc., 340 U.S. 36
(1950), the court of appeals’ judgment should be
vacated where the FDC, after prevailing in the court
of appeals, unilaterally rendered the case moot,
thereby depriving Petitioner of an opportunity to seek
this Court’s review of the merits of the court of
appeals’ judgment.

i

PARTIES TO THE PROCEEDING
Petitioner is Reiyn Keohane, a prisoner in the
custody of the Florida Department of Corrections.
Respondent is the Secretary of the Florida
Department of Corrections.
STATEMENT OF RELATED PROCEEDINGS
U.S. Court of Appeals for the Eleventh Circuit:
Keohane v. Fla. Dep’t of Corr. Sec'y, No. 1814096 (11th Cir. Mar. 11, 2020) (reversing
district-court opinion)
Keohane v. Fla. Dep’t of Corr. Sec'y, No. 1814096 (11th Cir. Dec. 3, 2020) (denying
rehearing en banc)
Keohane v. Fla. Dep’t of Corr. Sec'y, No. 1814096 (11th Cir. Apr. 5, 2021) (denying motion
to recall mandate and vacate prior opinion)
U.S. District Court for the Northern District of
Florida:
Keohane v. Jones, No. 4:16-cv-511 (N.D. Fla.
Aug. 22, 2018) (order on the merits)

ii

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
STATEMENT OF RELATED PROCEEDINGS ........ ii
TABLE OF AUTHORITIES ....................................... v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 2
JURISDICTION.......................................................... 2
CONSTITUTIONAL AND OTHER ISSUES
INVOLVED ................................................................. 2
STATEMENT OF THE CASE .................................... 3
REASONS FOR GRANTING THE PETITION ......... 6
I.

THE FDC RENDERED MS. KEOHANE’S
CASE MOOT WHEN, AFTER THE COURT
OF APPEALS RULED IN ITS FAVOR,
IT VOLUNTARILY AND FOR THE FIRST
TIME APPLIED ITS NEW POLICY TO HER
AND ALLOWED HER TO RECEIVE
HORMONE THERAPY AND TO ACCESS
FEMALE CLOTHING AND GROOMING
STANDARDS ................................................... 9

II. BECAUSE THE CASE IS MOOT,
THE DECISION BELOW SHOULD BE
VACATED UNDER MUNSINGWEAR ......... 11
CONCLUSION.......................................................... 13

iii

APPENDIX
Appendix A, Court of appeals opinion,
Mar. 11, 2020 ............................................................ 1a
Appendix B, Court of appeals order denying en banc
review, Dec. 3, 2020 ................................................ 87a
Appendix C, Court of appeals mandate,
Dec. 11, 2021 ......................................................... 128a
Appendix D, Court of appeals order denying motion
to recall mandate and vacate prior opinion,
Apr. 5, 2021 ........................................................... 129a
Appendix E, District court order vacating judgement,
Dec. 17, 2020 ......................................................... 130a
Appendix F, Motion to recall mandate and vacate
prior opinion (with attachments: (1) Declaration of
Reiyn Keohane; (2) FDC Procedure Number
403.012), Mar. 9, 2021 ......................................... 132a
Appendix G, FDC Response to motion to recall
mandate and vacate prior opinion,
Mar. 26, 2021 ........................................................ 159a
Appendix H, Reply in support of motion to recall
mandate and vacate prior opinion,
Mar. 29, 2021 ........................................................ 164a

iv

TABLE OF AUTHORITIES
CASES
Alabama State Conf. of Nat’l Ass’n for Advancement
of Colored People v. Alabama, 806 F. App’x 975
(11th Cir. 2020) ............................................... 12, 13
Arizonans for Off. Eng. v. Arizona,
520 U.S. 43 (1997)............................................... 7, 9
Azar v. Garza,
138 S. Ct. 1790 (2018)..................................... 6, 7, 9
Brewer v. Swinson,
837 F.2d 802 (8th Cir. 1988) ............................ 8, 11
Burke v. Barnes,
479 U.S. 361 (1987)................................................. 7
Camreta v. Greene,
563 U.S. 692 (2011)........................................... 7, 13
Clarke v. United States,
915 F.2d 699 (D.C. Cir. 1990) ................................. 7
Duke Power Co. v. Greenwood Cty.,
299 U.S. 259 (1936)................................................. 7
Great W. Sugar Co. v. Nelson,
442 U.S. 92 (1979)................................................... 7
Hand v. Desantis,
946 F.3d 1272 (11th Cir. 2020) ............................ 11
IAL Aircraft Holding, Inc. v. FAA,
216 F.3d 1304 (11th Cir. 2000) .............................. 8
In re United States,
927 F.2d 626 (D.C. Cir. 1991) ................................. 7
Karcher v. May,
484 U.S. 72 (1987)................................................... 7
v

Lewis v. Cont’l Bank Corp.,
494 U.S. 472 (1990)............................................... 10
Trump v. Hawaii,
138 S. Ct. 377 (2017)............................................... 7
Trump v. Int’l Refugee Assistance,
138 S. Ct. 353 (2017)............................................... 7
U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18 (1994)..................................... 7, 8, 9, 11
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950).......................................... passim
United States v. Schaffer,
240 F.3d 35 (D.C. Cir. 2001) ............................. 8, 11
OTHER AUTHORITIES
Wright, Miller & Cooper, Federal Practice and
Procedure § 3533.10 at 435 (1984) ......................... 8

vi

PETITION FOR A WRIT OF CERTIORARI
This lawsuit involves an action under 42 U.S.C.
§ 1983 alleging violations of Reiyn Keohane’s Eighth
Amendment rights. In 2016, Ms. Keohane, a
transgender woman imprisoned by the Florida
Department of Corrections (FDC), challenged thenapplicable FDC policies that denied her access to
medically necessary treatment for gender dysphoria.
The challenged policies barred the initiation of
hormone therapy and denied transgender women
access to female clothing and grooming standards
essential to socially transitioning in accordance with
treatment for gender dysphoria. Ms. Keohane
prevailed at the district court, which issued an
injunction against enforcement of the challenged
policies, and directed the FDC to provide her with
hormone therapy and access to female clothing and
grooming standards. A divided panel of the Eleventh
Circuit reversed and vacated the district court’s order.
Ms. Keohane’s request for en banc review was
subsequently denied.
After prevailing in the court of appeals, the
FDC unilaterally and for the first time applied a
distinct policy to Ms. Keohane, pursuant to which
FDC doctors determined that she should be granted
hormone therapy and access to female clothing and
grooming standards. This change in policy rendered
her challenge to the prior policies moot. As a result of
the FDC’s unilateral actions, there is no longer a live
controversy between the parties with respect to the
policies originally applied to Ms. Keohane. Ms.
Keohane therefore sought vacatur of the court of
appeals’ decision, because the FDC had unilaterally
deprived her of an opportunity to seek this Court’s
review of the merits of the court of appeals’ judgment.
1

The court of appeals denied that request without
explanation. This Court should accordingly grant
certiorari, vacate the court of appeals’ decision under
United States v. Munsingwear, Inc., 340 U.S. 36
(1950), and remand.
OPINIONS BELOW
The court of appeals’ opinion reversing the
district court (Pet. App. 1a) is reported at 952 F.3d
1257. The court of appeals’ decision denying en banc
review (Pet. App. 87a) is reported at 981 F.3d 994. The
court of appeals’ decision denying Petitioner’s motion
for vacatur (Pet. App. 129a) is unreported.
The district court’s opinion following trial is
reported at 328 F.Supp.3d 1288.
JURISDICTION
The opinion reversing the district court was
entered on March 11, 2020. The court of appeals
denied en banc review on December 3, 2020. The court
of appeals denied Petitioner’s motion for vacatur on
April 5, 2021. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND OTHER ISSUES
INVOLVED
The Eighth Amendment provides: Excessive
bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.

2

STATEMENT OF THE CASE
Reiyn Keohane brought suit in the U.S. District
Court for the Northern District of Florida, alleging
that the Florida Department of Corrections (FDC)
violated her Eighth Amendment rights. Keohane v.
Jones, 328 F. Supp. 3d 1288, 1291–93 (N.D. Fla. 2018).
She challenged FDC policies that (1) banned all
treatment for gender dysphoria that individuals were
not already receiving prior to entering into custody
(the “freeze-frame” policy), including hormone
therapy, and (2) prohibited prisoners with gender
dysphoria from accessing the clothing and grooming
standards appropriate to their gender identity,
preventing them from socially transitioning in
accordance with accepted standards of care for the
treatment of gender dysphoria. Id. at 1296–97.
Pursuant to these policies, the FDC denied Ms.
Keohane hormone therapy and access to female
clothing and grooming standards for two years. Ms.
Keohane filed a complaint challenging these policies
and requesting that the district court issue an
injunction directing the FDC to provide her hormone
therapy and access to female clothing and grooming
standards. Id. at 1291–93. After her complaint was
filed, the FDC agreed to provide hormone therapy but
continued to deny her access to female clothing and
grooming standards. See id. at 1292–93.
After a bench trial, the district court granted
the injunction that Ms. Keohane requested. Id. at
1318–19. The court held that the FDC’s initial refusal
to provide hormone therapy and its continued refusal
to permit social transition under the policies applied
to Ms. Keohane constituted deliberate indifference to
a serious medical need in violation of the Eighth

3

Amendment. Id. at 1302–18. 1 It ordered the FDC to
continue providing hormone therapy and to permit
Ms. Keohane to access female clothing and grooming
standards. Id. at 1318–19.
The FDC appealed, and on March 11, 2020, the
Eleventh Circuit reversed and vacated the district
court’s order. Keohane v. Fla. Dep’t of Corrections
Sec’y, 952 F.3d 1257 (11th Cir. 2020). The court of
appeals found that Ms. Keohane’s challenge to the
FDC’s freeze-frame policy and its initial failure to
provide hormone therapy was moot. The court of
appeals also held that the FDC’s policy denying her
access to female clothing and grooming standards did
not violate the Eighth Amendment. Ms. Keohane
petitioned for rehearing en banc, which was denied on
December 3, 2020.
Keohane v. Fla. Dep’t of
Corrections Sec’y, 981 F.3d 994 (11th Cir. 2020). The
mandate issued on December 11, 2020. Pet. App.
128a. The district court vacated the injunction on
December 17, 2020. Pet. App. 130a.
After the court of appeals reversed the district
court’s order, the FDC unilaterally applied its new
policy regarding the treatment of transgender
prisoners to Ms. Keohane for the first time. Pet. App.
141a–144a. The new policy, adopted by the FDC in
2017, removed the freeze-frame policy; established
two “teams” (the Gender Dysphoria Review Team and
Multidisciplinary Services Team) to decide on and
The FDC had begun providing Ms. Keohane hormone therapy
after she filed suit, but the district court held that the hormonetherapy issue was not moot because the FDC had not met its
burden of showing that the challenged conduct could not
reasonably be expected to recur. Keohane v. Jones, 328 F. Supp.
3d at 1297–1300.
1

4

implement, on a case-by-case basis, the proper
treatment of transgender prisoners; and permits
prisoners to access female clothing and grooming
standards if recommended by those teams. Pet. App.
144a–158a. However, Ms. Keohane had been told she
would not be evaluated under the new policy while her
litigation was pending. Pet. App. 141a–142a ¶ 3.
But once the FDC prevailed in the court of
appeals, it abandoned its reliance on the policies
challenged in this litigation and instead applied its
new system to Ms. Keohane for the first time. After
the court of appeals’ decision, the Multidisciplinary
Services Team informed Ms. Keohane that the
treatment she had been denied under the FDC’s prior
policies but was receiving pursuant to the district
court’s injunction would continue to be provided even
though the court of appeals reversed the district
court’s order. Pet. App. 142a–144a ¶¶ 4–8.
Thus, the FDC is now voluntarily providing Ms.
Keohane with hormone therapy and access to female
clothing and grooming standards, pursuant to its new
policy. Pet. App. 142a-144a ¶¶ 4–8. She has a written
pass from the FDC indicating that she is allowed to
maintain long hair, wear female clothing, and order
female canteen items. Pet. App. 142a-144a ¶ 5. And
she continues to be provided hormones daily by
nursing staff. Pet. App. 144a ¶ 8.
Once the FDC unilaterally abandoned the
policies this litigation challenged, and granted Ms.
Keohane appropriate treatment under the new policy,
this litigation became moot. Ms. Keohane therefore
asked the Eleventh Circuit to recall the mandate and
vacate its prior decision as moot. Pet. App. 132a. In
response, the FDC opposed vacatur, arguing that it

5

would like to leave in place doctrinal determinations
made by the court of appeals that it believes will
benefit it in future potential litigation. Pet. App. 159a.
On April 5, 2021, the court appeals denied without
comment the motion to vacate. Pet. App. 129a.
REASONS FOR GRANTING THE PETITION
The FDC’s voluntary decision to apply its new
policy to Ms. Keohane and provide her the relief she
requested after it prevailed in the court of appeals has
rendered Ms. Keohane’s case moot. She is therefore
prevented from asking this Court to grant certiorari to
review the adverse ruling of the court of appeals. In
this circumstance, where a prevailing party has
unilaterally rendered a dispute moot, the proper
disposition is to vacate the opinion that cannot be
appealed. For this reason, Ms. Keohane requests that
this Court grant certiorari, vacate the court of appeals’
opinion, and remand. 2

A finding of cert-worthiness is not a prerequisite to vacatur in
these circumstances. See, e.g., Azar v. Garza, 138 S. Ct. 1790
(2018) (per curiam) (vacating judgment on an issue of first
impression in the court of appeals without discussing whether
certiorari would have been warranted); Stephen M. Shapiro et
al., Supreme Court Practice § 5.13, at 357–58, 968 n.33 (10th ed.
2013). Petitioner notes, however, that the court of appeals’
decision is demonstrably incorrect: when the majority opinion
states that the FDC’s retained expert said the care wasn’t
“medically necessary,” the majority fails to note that the expert
was not applying the Eighth Amendment’s standard, but his own
idiosyncratic definition, in which “medically necessary” refers
only to physical-health needs and not mental-health needs. The
Eighth Amendment makes no such distinction. See Petition for
Rehearing En Banc, No. 18-14096 (11th Cir. Apr. 15, 2020).
2

6

When an appeal becomes moot “while on its
way” to this Court, this Court’s “established practice”
is to “vacate the judgment below and remand with a
direction to dismiss.” United States v. Munsingwear,
Inc., 340 U.S. 36, 39 & n.2 (1950); see also, e.g., Azar
v. Garza, 138 S. Ct. 1790, 1792 (2018) (per curiam);
Trump v. Hawaii, 138 S. Ct. 377 (2017) (mem.);
Trump v. Int’l Refugee Assistance, 138 S. Ct. 353
(2017) (mem.); Karcher v. May, 484 U.S. 72, 82 (1987);
Burke v. Barnes, 479 U.S. 361, 365 (1987); Duke Power
Co. v. Greenwood Cty., 299 U.S. 259, 267 (1936) (per
curiam). This Court has followed that approach in
“countless cases,” Great W. Sugar Co. v. Nelson, 442
U.S. 92, 93 (1979) (per curiam), and it is the “normal”
procedure in the event of mootness through no fault of
the losing party, Camreta v. Greene, 563 U.S. 692, 713
(2011).
The rule providing for vacatur serves important
purposes: “A party who seeks review of the merits of
an adverse ruling, but is frustrated by the vagaries of
circumstance” or the “unilateral action of the party
who prevailed below,” “ought not in fairness be forced
to acquiesce in the judgment.” U.S. Bancorp Mortg.
Co. v. Bonner Mall P’ship, 513 U.S. 18, 25 (1994).
“Vacatur ‘clears the path for future relitigation’ by
eliminating a judgment the loser was stopped from
opposing on direct review.” Arizonans for Off. Eng. v.
Arizona, 520 U.S. 43, 71 (1997) (citation omitted).
It is generally appropriate for the court of
appeals itself to vacate its judgment when it learns of
events that rendered the case moot during the time
available to seek certiorari. In re United States, 927
F.2d 626, 627 (D.C. Cir. 1991); see also Clarke v.
United States, 915 F.2d 699, 706 (D.C. Cir. 1990)
(quoting Wright, Miller & Cooper, Federal Practice
7

and Procedure § 3533.10 at 435 (1984)). Thus, vacatur
is appropriate when an appeal becomes moot after an
appellate panel has issued a published opinion, but
before the appeal can be litigated to completion. See
United States v. Schaffer, 240 F.3d 35, 38 (D.C. Cir.
2001) (en banc) (per curiam); Brewer v. Swinson, 837
F.2d 802, 806 (8th Cir. 1988) (recalling the mandate
and vacating its own judgment when the case became
moot after the court issued its mandate but before the
time available to seek certiorari review expired); see
also IAL Aircraft Holding, Inc. v. FAA, 216 F.3d 1304,
1306 n.2 (11th Cir. 2000) (“Even after a case becomes
moot . . . , courts of appeals always have jurisdiction
to determine mootness and recall their mandates.”).
Here, however, the court of appeals rejected a motion
to vacate its opinion—without even offering an
explanation. Pet. App. 129a.
Vacatur under Munsingwear is appropriate
when the party seeking vacatur is not responsible for
causing the case to become moot and vacating the
lower court decision serves the doctrine’s equitable
purposes. See, e.g., U.S. Bancorp Mort’g Co., 513 U.S.
at 24–25. As explained further below, this case easily
meets both requirements. The dispute became moot
through unilateral actions of the FDC and not through
any action of Ms. Keohane. And principles of equity
favor vacating the court of appeals’ opinion because
that opinion has preclusive effects on Ms. Keohane,
but the FDC has deprived Ms. Keohane of any chance
to seek Supreme Court review of it. Accordingly, the
Court should grant certiorari, vacate the decision
below, and remand for vacatur under Munsingwear.

8

I.

THE FDC RENDERED MS. KEOHANE’S
CASE MOOT WHEN, AFTER THE COURT
OF APPEALS RULED IN ITS FAVOR, IT
VOLUNTARILY AND FOR THE FIRST
TIME APPLIED ITS NEW POLICY TO
HER AND ALLOWED HER TO RECEIVE
HORMONE THERAPY AND TO ACCESS
FEMALE CLOTHING AND GROOMING
STANDARDS.

Although vacatur is fundamentally an
“equitable remedy,” U.S. Bancorp Mortg. Co., 513 U.S.
at 25, it is “clear[ly]” appropriate “when mootness
occurs through . . . the ‘unilateral action of the party
who prevailed in the lower court,’” Garza, 138 S. Ct.
at 1792 (quoting Arizonans for Off. Eng., 520 U.S. at
71-72). As this Court has remarked, “‘[i]t would
certainly be a strange doctrine that would permit a
[party] to obtain a favorable judgment, take voluntary
action that moots the dispute, and then retain the
benefit of the judgment.’” Id. (quoting Arizonans for
Off. Eng., 520 U.S. at 75).
That is precisely what would happen absent
vacatur in this case. After it prevailed in the court of
appeals, the FDC unilaterally decided to apply its new
policy to Ms. Keohane and provide the treatment she
had been denied under the FDC’s prior policies but
was receiving pursuant to the district court’s
injunction. Pet. App. 141a–144a. The court of
appeals’ ruling in the FDC’s favor was entered on
March 11, 2020. Pet. App. 1a. In May 2020, the
Multidisciplinary Services Team informed Ms.
Keohane that she would nonetheless continue to
receive hormone therapy and access to female clothing
and grooming standards, under the new policy that
the FDC had previously refused to apply to her. Pet.
9

App. 142a ¶ 4. In June 2020, Ms. Keohane was
provided a written pass indicating that she is
permitted to access female clothing, grooming
standards, and canteen items. Pet. App. 142a–143a ¶
5. The FDC has continued to provide her with
hormone therapy and access to female clothing and
grooming standards under the new policy. Pet. App.
142a–144a ¶¶ 4–8. Because the FDC abandoned its
reliance on the old policy after it prevailed, there is no
longer any actual dispute between the parties.
When Ms. Keohane moved for vacatur in the
court of appeals, the FDC maintained that the case
was not moot, but gave no reasons for why it believed
it was not moot. Instead, it merely asserted an
interest in preserving its doctrinal victory in the court.
Pet. App. 159a–163a. But that abstract interest does
not create a live case or controversy. The case remains
live only if Ms. Keohane has “a ‘specific live grievance’
against the application of the [FDC policy] to [her],
and not just an ‘“abstract disagreemen[t]”’ over the
constitutionality of such application,” Lewis v. Cont’l
Bank Corp., 494 U.S. 472, 479 (1990). She does not. 3
Under these circumstances,
between the parties is moot.

the

dispute

The FDC did not contend that the voluntary-cessation exception
to mootness applies. The fact that the FDC itself did not even
raise the possibility underscores that it has no intention of
reverting to the prior policy challenged here. Pet. App. 160a (FDC
response to motion to vacate) (“As FDC told the Court at oral
argument, it was not rolling back the treatment offered to
Keohane and it was adopting a new policy relating to the
treatment of gender dysphoria.”).

3

10

II.

BECAUSE THE CASE IS MOOT, THE
DECISION
BELOW
SHOULD
BE
VACATED UNDER MUNSINGWEAR.

Once it learned that the case was moot, the
court of appeals should have vacated its prior decision.
See, e.g., Schaffer, 240 F.3d 35; Brewer, 837 F.2d 802.
Because it erroneously refused to do so, Ms. Keohane
has no alternative but to seek that remedy here.
Munsingwear requires vacatur. Ms. Keohane
“ought not in fairness be forced to acquiesce in the
judgment” by the “unilateral action of the party who
prevailed below.” U.S. Bancorp Mortg. Co., 513 U.S.
at 25. The court of appeals’ opinion was a final
adjudication of the merits of Ms. Keohane’s challenge
to the now abandoned policies, and, thus, in the
Eleventh Circuit, has res judicata effect on the parties.
Cf. Hand v. Desantis, 946 F.3d 1272, 1275 n.5 (11th
Cir. 2020) (denying motion to vacate prior stay order
because it lacks “a final adjudication of the merits of
the appeal and therefore it has no res judicata effect”)
(quotations omitted).
Moreover, Ms. Keohane has an ongoing interest
in the issues resolved by the court of appeals because
her treatment going forward remains dependent on
the judgment of the GDRT and the MDST, the two
entities the FDC has created to address the needs of
transgender prisoners. While those teams have for the
time being granted Ms. Keohane access to hormone
therapy and female clothing and grooming standards,
their decisions are subject to regular reevaluation and
revision, Pet. App. 147a–148a, so there is a real
possibility that in the future she will be denied
adequate care under the FDC’s new policy. The FDC

11

said as much in its response to the motion for vacatur,
explaining that the new policy:
makes plain that medical and mental
health treatment and services are
individualized and provided based on
identified
medical
needs.
These
individual needs can change over time,
and FDC’s Procedure allows the treating
health care professional to exercise his or
her medical judgment in accommodating
these fluctuating needs
Pet. App. 160a.
The new policy creating the GDRT and MDST,
however, is not the subject of this lawsuit. Thus, while
this case, challenging the now-abandoned policies, is
moot, Ms. Keohane may well be in an adverse position
with the FDC in the future under the new policy. She
should not be prejudiced by the court of appeals’
decision on the abandoned policies simply because the
FDC unilaterally rendered that dispute moot after
prevailing in the court of appeals. It is inequitable to
leave the court of appeals’ decision in place—with its
res judicata effect on Ms. Keohane—when she is
unable to seek review in this Court. 4
4 Some have interpreted this Court’s standard for vacatur of a
lower court’s order under Munsingwear to also include
consideration of the impact on non-parties. See, e.g., Alabama
State Conf. of Nat’l Ass’n for Advancement of Colored People v.
Alabama, 806 F. App’x 975, 976 (11th Cir. 2020) (Branch, J.,
concurring in part and dissenting in part) (in dissent,
maintaining that a prior opinion should have been vacated
because (1) “not vacating the panel opinion would spawn
immense legal consequences for [non-party] Florida, [non-party]
Georgia, and [Defendant] Alabama”; (2) Alabama had been
prevented from obtaining en banc review or filing a petition for

12

CONCLUSION
The petition for writ of certiorari should be
granted, the decision denying vacatur should be
vacated, and the matter should be remanded to the
court of appeals with instructions to vacate its
judgment on the merits.
Respectfully submitted,
Ardith Bronson
DLA Piper LLP (US)
200 South Biscayne Blvd.
Suite 2500
Miami, FL 33131
Leslie Cooper
James D. Esseks
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Daniel B. Tilley
Counsel of Record
ACLU FOUNDATION OF FLORIDA
4343 W. Flagler St., Suite 400
Miami, FL 33134
(786) 363-2714
DTilley@aclufl.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th St. NW
Washington, DC 20005

Date: May 3, 2021

writ of certiorari; and (3) “the constitutional ruling in this case—
abrogation of state sovereign immunity—is certainly a legally
consequential decision”); id. (describing Camreta, 563 U.S. 692,
as “noting that vacatur of the Ninth Circuit’s constitutional
rulings was warranted because a ‘constitutional ruling in a
qualified immunity case is a legally consequential decision’”). To
the extent that this Court’s precedents support consideration of
the impact of the decision on non-parties, that factor also weighs
heavily in favor of vacatur, because the decision below is a
constitutional decision with potential consequence for all
transgender prisoners in the Eleventh Circuit.

13

APPENDIX

APPENDIX A
UNITED STATE COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
____
REIYN KEOHANE
Plaintiff-Appellee,
v.
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY,
Defendant-Appellant.
_____
18-14096
_____
On appeal from the United States District Court
for the Northern District of Florida
in No. 4:16-cv-00511-MW-CAS
[Date Issued: March 11, 2020]
OPINION
NEWSOM, Circuit Judge:
This appeal requires us to decide whether the
Florida Department of Corrections violated the
Eighth Amendment’s prohibition on cruel and
unusual punishment in its treatment of a transgender
inmate’s gender dysphoria. Specifically, we must
determine whether the FDC acted with deliberate
indifference to Reiyn Keohane’s serious medical need
when it (1) enforced a since- repealed policy that
1a

strictly limited transgender inmates to the particular
medical treatments they were receiving when taken
into custody, (2) delayed providing hormone therapy
to Keohane for two years pursuant to that policy, and
(3) refused Keohane’s “social transitioning” requests—
in particular, to wear long hair, makeup, and female
undergarments. We must also determine whether the
FDC’s post-suit decisions to rescind what the parties
have called its “freeze-frame” policy and to prescribe
Keohane hormone therapy moot this appeal with
respect to the first two issues.
Keohane brought this action under 42 U.S.C. §
1983 alleging violations of her Eighth Amendment
rights and seeking (as relevant here) declaratory and
injunctive relief. The district court entered a threepart order (1) declaring the FDC’s former freeze-frame
policy unconstitutional and permanently enjoining
the FDC from “reenacting and enforcing” it, (2)
requiring the FDC to continue to provide Keohane
with hormone therapy “so long as it is not medically
contraindicated,” and (3) directing the FDC to permit
Keohane “to socially transition by allowing her access
to female clothing and grooming standards.” Keohane
v. Jones, 328 F. Supp. 3d 1288, 1319 (N.D. Fla. 2018).
We hold that Keohane’s challenges to the prior
freeze-frame policy and the FDC’s initial denial of
hormone therapy are moot in light of the FDC’s
subsequent repeal and replacement of the policy and
its provision of hormone treatment. We reject on the
merits Keohane’s claim that the FDC violated the
Eighth Amendment by refusing to accommodate her
social-transitioning requests.

2a

I
A
Reiyn Keohane is an FDC inmate currently
serving a 15-year sentence for attempted murder.
Keohane was born male, but she began to identify as
female sometime during her preadolescent years.
Beginning at age 14—and up until the time she was
incarcerated at 19—Keohane wore women’s clothing,
makeup, and hairstyles. At 16, she was formally
diagnosed with gender dysphoria—which, in general
terms, “refers to the distress that may accompany the
incongruence between one’s experienced or expressed
gender and one’s assigned gender.” American
Psychiatric Ass’n, Diagnostic and Statistical Manual
of Mental Disorders 451 (5th ed. 2013). About six
weeks before her arrest, Keohane began hormone
therapy under the care of a pediatric endocrinologist.
Following her arrest, Keohane was initially
housed at the Lee County Jail, where she says her
request to continue hormone therapy was
immediately denied. When, several months later, in
July 2014, Keohane was transferred to an FDC prison
in south Florida, she asked to resume her hormonetherapy treatment because, as she explained to prison
officials in a written grievance, “[w]ithout it [she]
consider[ed] self-harm and suicide every single day.”
She made similar requests (accompanied by similar
threats of self-harm) during the ensuing two years, all
of which were either disregarded or rejected. 1
Keohane alleges—and the FDC doesn’t dispute—that
It is undisputed that, throughout the course of her
incarceration, Keohane has consistently been provided mentalhealth counseling for her gender dysphoria.

1

3a

her hormone-therapy requests were denied pursuant
to a policy specifying that “[i]nmates who have
undergone treatment for [gender dysphoria] will be
maintained only at the level of change that existed at
the time they were received by the Department.”
Under this “freeze-frame” policy, the care of inmates
suffering from gender dysphoria was determined not
by their current, individualized medical needs, but
rather by the treatment they were (or weren’t)
receiving at the time of their incarceration.
In December 2014, Keohane’s grievances began
to include requests relating to “social transitioning”—
that is, the ability to live consistently with one’s
gender identity, including by dressing and grooming
accordingly. In particular, Keohane expressed a desire
to wear female undergarments and makeup, and to
grow out her hair in a long, feminine style—as the
district court described it, “to possess and wear the
same bras, panties, hairstyles, and makeup items
permitted in [the FDC’s] female facilities.” The FDC
refused Keohane’s social-transitioning requests on the
grounds that they violated prison policy—which
required male inmates to wear “[u]nder shorts” and to
“have their hair cut short to medium uniform length
at all times with no part of the ear or collar covered,”
Fla. Admin. Code r. 33- 602.101(2), (4)—and that they
posed a security risk. Specifically, the FDC was
concerned that an inmate wearing makeup and female
undergarments would inevitably become a target in
an all-male prison, thereby endangering not only the
inmate but also the prison employees who would have
to step in to protect her. Additionally, the FDC
concluded that there are clear advantages to
maintaining uniformity in a prison setting, including
the ability to more readily detect contraband.
4a

During this protracted request-denial cycle,
Keohane made multiple attempts to self-harm. In
October 2014, Keohane tried to hang herself. In
January 2015, she tried to castrate herself. And in
April 2017, she tried to kill herself twice more.
B
Having exhausted her efforts to obtain relief
within the prison system, Keohane filed a single-count
complaint in the United States District Court for the
Northern District of Florida alleging that the FDC’s
denial of her hormone-therapy and socialtransitioning
requests
violated
the
Eighth
Amendment. As relevant here, Keohane sought three
forms of relief: (1) a declaration that the FDC was
acting with deliberate indifference to her gender
dysphoria, a serious medical need; (2) a permanent
injunction ordering the FDC to provide her with
hormone
therapy
and
social-transitioning
accommodations, including “access to female clothing
and grooming standards”; and (3) a permanent
injunction prohibiting the FDC from enforcing its
freeze-frame policy.
Not long after Keohane filed suit, the FDC
altered its behavior in two material respects. First,
just two weeks after the complaint was filed, the FDC
referred Keohane to an outside endocrinologist who
immediately prescribed her hormone therapy. Second,
about six weeks after that, the FDC formally repealed
its freeze-frame policy and replaced it with a policy
that calls for individualized assessment and
treatment of inmates who claim to be suffering from
gender dysphoria and related conditions. With the
lone exception of a sports bra to help with her
hormone-related breast enlargement, however, the
5a

FDC has continued to refuse Keohane’s socialtransitioning requests.
Keohane’s case proceeded to a bench trial.
Helpfully, the parties agreed— and still do—both that
Keohane’s gender dysphoria constitutes a “serious
medical need” for deliberate-indifference purposes
and that hormone therapy is medically necessary to
treat that need. Most notably, Keohane’s FDC
treatment team— which comprised her psychologist,
her mental-health counselor, and a psychiatric
physician assistant—supported the determination
that hormone therapy is medically necessary. And
since initially acceding to Keohane’s request for
hormone therapy in September 2016, the FDC has
consistently provided it and has repeatedly
represented (both at trial and on appeal) that it will
continue to do so “as long as [her] treatment team
believes the hormones are medically necessary to
treat her gender dysphoria.” Br. of Appellant at 7–8
(citing testimony).
The parties and medical professionals
disagreed, however—and still do— about the medical
necessity of Keohane’s social-transitioning-related
requests to dress and groom herself as a woman. For
his part, Keohane’s retained medical expert testified
(1) that allowing an individual to present consistently
with her gender identity is one “of the medically
necessary components for the treatment of gender
dysphoria,” (2) that it would be “medically and
logically inconsistent” and “potentially harmful” to
provide Keohane hormone therapy while denying her
the ability to socially transition, and (3) that forcing
one to live in conformity with a gender with which she
doesn’t identify “would likely” cause her to engage in
self- harm.
6a

By contrast, the members of Keohane’s
treatment team, who had supported the provision of
hormone therapy, denied that social transitioning is
medically necessary to treat Keohane’s gender
dysphoria—as did a staff psychiatrist with the FDC’s
medical vendor Wexford, the FDC’s chief clinical
officer, and the FDC’s retained expert. According to
the treatment team, Keohane’s current regimen—
hormone therapy and mental-health counseling,
together with other accommodations, including the
use of female pronouns (“she,” “her,” etc.), safer
housing accommodations, and private shower
facilities—is sufficient to treat her gender dysphoria.
The treatment team also explained that requiring
Keohane to comply with the FDC’s clothing and
grooming policies does not place her at a substantial
risk of self-harm or severe psychological pain. The
FDC’s retained expert acknowledged that the sorts of
social-transitioning-related accommodations that
Keohane sought may be “psychologically pleasing” to
her, but he too rejected the suggestion that they are
medically necessary. Finally, FDC witnesses
testified—as FDC personnel had explained from the
beginning—that
granting
Keohane’s
socialtransitioning requests would pose unacceptable
security risks. Notably, though, despite the FDC’s
steadfast refusal to accommodate Keohane’s socialtransitioning requests, it has repeatedly stated—since
this suit was filed, anyway—that “if [those] requests
are deemed medically necessary, they will be
fulfilled,” and that it will take additional security
measures as needed. Br. of Appellant at 9.
Following trial, the district court issued an
opinion in Keohane’s favor. The court rejected the
FDC’s contention that Keohane’s claims relating to
7a

the former freeze-frame policy and its initial refusal to
provide hormone therapy were moot— concluding, in
particular, that the FDC’s “voluntary cessation” of the
challenged conduct was insufficient to render those
claims nonjusticiable. On the merits, the district court
held (1) that the FDC’s former freeze-frame policy was
an unconstitutional “blanket ban on medically
necessary care,” (2) that the FDC’s earlier denial of
hormone therapy—which the district court thought
resulted from “bigotry and ignorance”—evinced
“deliberate indifference to [Keohane’s] serious medical
need in violation of the Eighth Amendment,” and (3)
that allowing Keohane to clothe and groom herself as
a woman is medically necessary to treat her gender
dysphoria and that the FDC’s ongoing denial of her
social-transitioning requests likewise violates the
Eighth Amendment. To effectuate its judgment, the
court entered a three-part order (1) declaring the
FDC’s former freeze-frame policy unconstitutional
and “permanently enjoin[ing]” the FDC from
“reenacting and enforcing” it, (2) requiring the FDC to
continue to “provide Ms. Keohane with hormone
therapy so long as it is not medically contraindicated,”
and (3) directing the FDC to “permit Ms. Keohane to
socially transition by allowing her access to female
clothing and grooming standards.” 2
2 We review the district court’s mootness determination,
including its voluntary-cessation analysis, de novo, and any
related findings of fact for clear error. Troiano v. Supervisor of
Elections, 382 F.3d 1276, 1282 (11th Cir. 2004). On the merits,
“[a]lthough we review the district court’s entry of a permanent
injunction for an abuse of discretion, the district court’s
underlying legal conclusion—that there was an Eighth
Amendment violation warranting equitable relief—is reviewed
de novo.” Thomas v. Bryant, 614 F.3d 1288, 1303 (11th Cir. 2010).
“Subsidiary issues of fact are reviewed for clear error.” Id. For

8a

*

*

*

The FDC’s appeal presents the following issues
for our consideration: (1) Did the FDC’s former freezeframe policy manifest deliberate indifference to
Keohane’s serious medical need and thereby violate
the Eighth Amendment’s prohibition against cruel
and unusual punishment, and relatedly, is Keohane’s
challenge to that policy—and requested injunction
against its enforcement—now moot in light of its
repeal and replacement? (2) Did the FDC’s refusal to
provide Keohane with hormone therapy during the
first two years of her incarceration violate the Eighth
Amendment, and again, is Keohane’s challenge to that
refusal— and requested injunction—now moot in light
of the FDC’s decision to allow the treatment? And (3)
does the FDC’s ongoing refusal to provide Keohane
with social-transitioning accommodations—including
the ability to wear long hair, makeup, and female
undergarments—violate the Eighth Amendment? 3
(much) more on these standards of review as they apply to the
merits of Keohane’s Eighth Amendment claim, see infra at 27–
28, 28 n.8.
3 We can dispense at the outset with the FDC’s contention that
the district court’s injunction violates the Prison Litigation
Reform Act. The PLRA requires injunctive relief to be “narrowly
drawn,” to “extend[] no further than necessary to correct the
violation of the [f]ederal right,” and to be “the least intrusive
means necessary to correct the violation of the [f]ederal right.” 18
U.S.C. § 3626(a)(1)(A). The FDC asserts that the district court
ran afoul of the PLRA by decreeing what the FDC calls a “blanket
policy” allowing transgender female inmates in male facilities
access to the privileges afforded to inmates in female prisons. In
short, we just don’t see it. By its terms, the district court’s order
directs the FDC to provide a particular course of treatment to
Keohane specifically. See, e.g., Keohane, 328 F. Supp. 3d at 1318–
19 (“Defendant must provide Ms. Keohane with hormone therapy

9a

II
The Eighth Amendment prohibits the
“inflict[ion]” of “cruel and unusual punishments.” U.S.
Const. amend VIII. Under the Amendment, the
“[f]ederal and state governments . . . have a
constitutional obligation to provide minimally
adequate medical care to those whom they are
punishing by incarceration.” Harris v. Thigpen, 941
F.2d 1495, 1504 (11th Cir. 1991). As particularly
relevant here, the Supreme Court has held that prison
officials violate the bar on cruel and unusual
punishments when they display “deliberate
indifference to serious medical needs of prisoners.”
Estelle v. Gamble, 429 U.S. 97, 104 (1976).
A deliberate-indifference claim entails both an
objective and a subjective component. Brown v.
Johnson, 387 F.3d 1344, 1351 (11th Cir. 2004). First,
the inmate must establish “an objectively serious
medical need”—that is, “one that has been diagnosed
by a physician as mandating treatment or one that is
so obvious that even a lay person would easily
recognize the necessity for a doctor’s attention”—that,
“if left unattended, poses a substantial risk of serious
harm.” Id. (alteration adopted) (quotation omitted).
Second, the inmate must prove that prison officials
acted with deliberate indifference to that need by
showing (1) that they had “subjective knowledge of a
risk of serious harm” and (2) that they “disregard[ed]”
that risk (3) by conduct that was “more than mere
negligence.” Id.

….”; “To treat Ms. Keohane’s gender dysphoria, Defendant must
permit Ms. Keohane to socially transition ….”).

10a

Here, as already noted, there’s no debate about
the objective component. The FDC admits—and the
parties thus agree—that Keohane’s gender dysphoria
constitutes a “serious medical need.” Rather, the
dispute hinges on the subjective component.
Specifically, the parties disagree—at least in part—
over whether the particular types of treatment that
Keohane has requested are medically necessary, such
that any course of care that doesn’t include them
would be constitutionally inadequate.
A prisoner bringing a deliberate-indifference
claim has a steep hill to climb. We have held, for
instance, that the Constitution doesn’t require that
the medical care provided to prisoners be “perfect, the
best obtainable, or even very good.” Harris, 941 F.2d
at 1510 (quotation omitted). Rather, “[m]edical
treatment violates the [E]ighth [A]mendment only
when it is so grossly incompetent, inadequate, or
excessive as to shock the conscience or to be
intolerable to fundamental fairness.” Id. at 1505
(quotation omitted). We have also emphasized—as
have our sister circuits—that “a simple difference in
medical opinion between the prison’s medical staff
and the inmate as to the latter’s diagnosis or course of
treatment [fails to] support a claim of cruel and
unusual punishment.” Id.; accord, e.g., Lamb v.
Norwood, 899 F.3d 1159, 1162 (10th Cir. 2018) (“We
have consistently held that prison officials do not act
with deliberate indifference when they provide
medical treatment even if it is subpar or different from
what the inmate wants.”); Kosilek v. Spencer, 774 F.3d
63, 82 (1st Cir. 2014) (en banc) (“[The Eighth
Amendment] does not impose upon prison
administrators a duty to provide care that is ideal, or
of the prisoner’s choosing.”).
11a

Against that backdrop, we consider whether the
FDC violated the Eighth Amendment (1) by adopting
and previously enforcing the since-repealed freezeframe policy, (2) by initially declining to provide
Keohane with hormone therapy, and (3) by continuing
to refuse Keohane’s social-transitioning-related
requests to dress and groom herself according to
female standards.
A
First, the former freeze-frame policy. Keohane
contends that it constituted “deliberate indifference to
[a] serious medical need[],” Estelle, 429 U.S. at 104, in
that it amounted to a per se rejection of any treatment
that an inmate hadn’t received prior to her
incarceration, without regard to (or any exception for)
medical necessity. The district court agreed and
permanently enjoined the FDC from “reenacting and
enforcing” its former policy. Were we free to reach the
merits, we would almost certainly agree, as well. As
already explained, the FDC has repeatedly conceded
that Keohane’s gender dysphoria constitutes a
“serious medical need.” It seems to us that responding
to an inmate’s acknowledged medical need with what
amounts to a shoulder-shrugging refusal even to
consider whether a particular course of treatment is
appropriate is the very definition of “deliberate
indifference”—anti-medicine, if you will. Cf. Webster’s
Second New International Dictionary 1527 (1944)
(defining “medicine” as “[t]he science and art dealing
with the prevention, cure, or alleviation of disease”).
Unsurprisingly to us, other courts considering similar
policies erecting blanket bans on gender-dysphoria
treatments—without
exception
for
medical
necessity—have held that they evince deliberate
indifference to prisoners’ medical needs in violation of
12a

the Eighth Amendment. See, e.g., Fields v. Smith, 653
F.3d 550, 559 (7th Cir. 2011); see also Hicklin v.
Precynthe, No. 4:16-CV-01357-NCC, 2018 WL 806764,
at *11 (E.D. Mo. Feb. 9, 2018); Soneeya v. Spencer, 851
F. Supp. 2d 228, 247 (D. Mass. 2012).
We conclude, though, that we are not free to
reach the merits. Because the FDC has formally
rescinded its freeze-frame policy and replaced it with
a new one that properly attends to inmates’
individualized medical needs, we hold that Keohane’s
challenge to the old policy is moot. There is, quite
simply, no longer any freeze-frame policy to
challenge—nothing to enjoin, as the district court
purported to do.
Mootness arises when an issue presented in a
case is “no longer ‘live’ or the parties lack a legally
cognizable interest in the outcome.” Powell v.
McCormack, 395 U.S. 486, 496 (1969). In particular,
we have held that a case must be dismissed as moot
“[i]f events that occur subsequent to the filing of a
lawsuit . . . deprive the court of the ability to give the
plaintiff . . . meaningful relief.” Al Najjar v. Ashcroft,
273 F.3d 1330, 1336 (11th Cir. 2001). “[D]ismissal is
required because mootness is jurisdictional,” in that a
moot case no longer presents a live “Case[]” or
“Controvers[y]” within the meaning of Article III of
the Constitution. Id. at 1335–36.
Here, because the FDC repealed its freezeframe policy following the onset of litigation—
approximately two months after Keohane filed suit—
we must determine whether the “voluntary cessation”
exception to the mootness doctrine applies. Pursuant
to that exception, a defendant’s “voluntary cessation
of allegedly illegal conduct does not moot a case.”
13a

United States v. Concentrated Phosphate Exp. Ass’n,
393 U.S. 199, 203 (1968). For reasons we will explain,
we hold that the exception does not apply here, and
that Keohane’s challenge to the since- rescinded
freeze-frame policy is moot.
The basis for the voluntary-cessation exception
is the commonsense concern that a defendant might
willingly change its behavior in the hope of avoiding a
lawsuit but then, having done so, “return to [its] old
ways.” Id. (quotation omitted). So when a defendant
contends that a plaintiff’s claim has become moot as a
result of the defendant’s own independent decision to
cease some disputed action, it usually “bears the . . .
burden of showing that it is absolutely clear the
allegedly wrongful behavior could not reasonably be
expected to recur.” Doe v. Wooten, 747 F. 3d 1317, 1322
(11th Cir. 2014) (quoting Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 190
(2000)). Importantly here, though, we have explained
that “governmental entities and officials have . . .
considerably more leeway than private parties in the
presumption that they are unlikely to resume illegal
activities.” Flanigan’s Enters., Inc. of Ga. v. City of
Sandy Springs, 868 F.3d 1248, 1256 (11th Cir. 2017)
(en banc) (quoting Coral Springs St. Sys., Inc. v. City
of Sunrise, 371 F.3d 1320, 1328–29 (11th Cir. 2004)).
The reason, we have said, is that government actors
are more likely than private defendants “to honor a
professed commitment to changed ways.” Troiano v.
Supervisor of Elections, 382 F.3d 1276, 1283 (11th Cir.
2004) (quotation omitted); see also, e.g., Nat’l Ass’n of
Bds. of Pharmacy v. Bd. of Regents of the Univ. Sys. of
Ga., 633 F.3d 1297, 1310 (11th Cir. 2011) (“Hence, ‘the
Supreme Court has held almost uniformly that
voluntary cessation by a government defendant moots
14a

the claim.’” (alterations adopted) (quoting Beta
Upsilon Chi Upsilon Chapter v. Machen, 586 F.3d 908,
917 (11th Cir. 2009))).
That is especially true when, as here, a
government defendant has formally rescinded a
challenged statute, ordinance, rule, or policy. As the
en banc Court emphasized in Flanigan’s, “the repeal
of a challenged statute”—or other similar
pronouncement—is ordinarily “one of those events
that makes it absolutely clear that the allegedly
wrongful behavior . . . could not reasonably be
expected to recur.” 868 F.3d at 1256 (quoting Harrell
v. The Fla. Bar, 608 F.3d 1241, 1265– 66 (11th Cir.
2010)). 4 “As a result, once the repeal of [a policy] has
caused our jurisdiction to be questioned, the plaintiff
bears the burden of presenting affirmative evidence
that [her] challenge is no longer moot.” Id. (alterations
adopted) (quotation omitted). “The key inquiry” is
whether the plaintiff has shown a “reasonable
expectation”—or, as we phrased it elsewhere, a
Notably, in so stating, the Flanigan’s Court was merely
reiterating the conclusions of an earlier en banc decision, which
itself was merely repeating the conclusions of earlier circuit
decisions. See, e.g., Flanigan’s, 868 F.3d at 1259 (“This Court and
the Supreme Court have repeatedly held that the repeal or
amendment of an allegedly unconstitutional statute moots legal
challenges to the legitimacy of the repealed legislation. A
superseding statute or regulation moots a case . . . to the extent
that it removes challenged features of the prior law. If the repeal
is such that the allegedly unconstitutional portions of the
[challenged] ordinance no longer exist, the appeal is rendered
moot because any decision we would render would clearly
constitute an impermissible advisory opinion.” (citations and
internal quotation marks omitted) (quoting Tanner Advert. Grp.,
L.L.C. v. Fayette Cty., Ga., 451 F.3d 777, 789–90 (11th Cir. 2006)
(en banc))).

4

15a

“substantial likelihood”—that the government
defendant “will reverse course and reenact” the
repealed rule. Id.; Beta Upsilon Chi Upsilon Chapter,
586 F.3d at 917 (quotation omitted).
In Flanigan’s, we explained that, in
determining whether a plaintiff has shouldered its
burden, a reviewing court should look to “three broad
factors”— although we hastened to add that “these
factors should not be viewed as exclusive nor should
any single factor be viewed as dispositive,” and that,
in any event, “a mootness finding should follow when
the totality of [the] circumstances persuades the court
that there is no reasonable expectation that the
government entity will reenact” the challenged policy.
868 F.3d at 1257. “First, we ask whether the change
in conduct resulted from substantial deliberation or is
merely an attempt to manipulate our jurisdiction.” Id.
In this connection, “we will examine the timing of the
repeal, the procedures used in enacting it, and any
explanations independent of this litigation which may
have motivated it.” Id. “Second, we ask whether the
government’s decision to terminate the challenged
conduct was ‘unambiguous’”— which, in turn, entails
an inquiry into whether the government’s policy shift
is fairly viewed as being “permanent and complete.”
Id. (quotation omitted). Finally, “we ask whether the
government has consistently maintained its
commitment to the new policy.” Id.; accord, e.g., Doe,
747 F.3d at 1322–23 (articulating the same three
factors).
Applying these factors here, we come to the
same conclusion that we reached in Flanigan’s:
“[T]here is no substantial evidence indicating a
reasonable likelihood that” the defendant—here, the
FDC—“will reenact the challenged provision”—here,
16a

the freeze-frame policy—“which it has now repealed.”
868 F.3d at 1260. With respect to the first factor, the
district court concluded that the FDC’s decision to
rescind its freeze-frame policy “was an attempt to
manipulate jurisdiction—certainly not the result of
substantial deliberation.” Keohane, 328 F. Supp. 3d at
1300. To echo a sentiment expressed in Flanigan’s,
“[w]e are not unsympathetic to this argument.” 868
F.3d at 1260. We don’t doubt for a minute that the
FDC’s about-face just two months after Keohane filed
suit was motivated, at least in part, by a desire to rid
itself of this litigation. Even so, as we took care to
clarify in Flanigan’s, the timing of a government
defendant’s decision to repeal a challenged policy
shouldn’t be overemphasized. Id. at 1259 (“[T]he
timing of repealing legislation should not be
dispositive of our inquiry into whether there is a
reasonable expectation of reenactment.”); id. (“[T]he
timing of repealing legislation should not control the
mootness inquiry.”). 5 Moreover—and contrary to the
dissent’s suggestion—the fact that “the FDC still
hasn’t admitted that its practices violated the
Constitution,” see Dissenting Op. at 51, has little, if
anything, to do with the substantial-deliberation
factor, or with the voluntary-cessation analysis at all,
for that matter, see Flanigan’s, 868 F.3d at 1262
(noting that “even at en banc oral argument” the
government defendant there had “declined to concede
that [its ordinance] was unconstitutional” but
clarifying that “[w]hether the [government] defended
the [o]rdinance and/or continue[d] to believe it was
constitutional” had little bearing on the mootness
The dissent fails to heed the en banc Court’s warning against
overstating timing considerations. See, e.g., Dissenting Op. at 44,
45, 48, 50, 56.
5

17a

analysis). Finally, and in any event, even if we were to
give Keohane the substantial-deliberation factor, it is
but one among several, and here the remaining
considerations tip the scale decisively in the other
direction.
What we said in Flanigan’s about the second
factor applies here too: The FDC’s formal repeal of the
freeze-frame policy “is plainly an unambiguous
termination.” Id. at 1261. Just like the government
defendant there, the FDC “has not merely declined to
enforce the [freeze-frame policy] against” Keohane in
particular—so as, in effect, to give her a personalized
exemption. Id. Rather, “it has removed the challenged
portion” of the policy “in its entirety.” Id. Indeed, the
FDC has gone a step farther by replacing the old
freeze-frame policy with a new protocol that provides
for individualized evaluation. And as the FDC
explained at oral argument, it would have to do some
serious hoop-jumping to rescind the current,
individual-assessment policy and reenact the former
freeze-frame policy even if it wanted to do so. See Oral
Argument at 4:23 (explaining the protracted
administrative process that accompanies a formal
policy change). Moreover—and again, just as in
Flanigan’s—the FDC has repeatedly “assured this
Court . . . that it has no intention of reenacting” the
freeze-frame policy. 868 F.3d at 1261–62; see also Br.
of Appellant at 48–49; Oral Argument at 4:15, 4:55,
5:10, 5:15. “We have previously relied on such
representations,” and there is no evidence or history
that would cause us to doubt them here. Flanigan’s,
868 F.3d at 1262. 6
Cf. Burns v. Windsor Ins. Co., 31 F.3d 1092, 1095 (11th Cir.
1994) (“Every lawyer is an officer of the court. And . . . he always

6

18a

Finally, as to the third factor, we conclude that
the FDC has “consistently maintained” and applied its
new individualized-assessment policy. Id. at 1257.
There is certainly no “pattern” of broken promises
here of the sort that has concerned us in the past. See,
e.g., Doe, 747 F.3d at 1324. To the contrary, the FDC
rescinded the freeze-frame policy in October 2016,
immediately replaced it with a new policy that
provides for personalized evaluation, and (so far as we
can tell) hasn’t looked back. In an effort to turn the
consistent-application factor to her advantage,
Keohane has asserted (and the dissent repeats, see
Dissenting Op. at 51) that one inmate was denied
hormone-therapy treatment pursuant to the freezeframe policy even after its formal repeal. Tellingly,
though, not even the district court found that lone
instance probative, saying that it would be “hard
pressed to find that evidence of one mistake in
applying old policies—or, perhaps, one rogue doctor
acting contrary to protocol—[was] sufficient” to
demonstrate inconsistency. Keohane, 328 F. Supp. 3d
at 1299.
At the end of the day, we’re less concerned with
the subjective question whether the initial reason for
the government’s decision was sincere than with the
objective question whether there is any “substantial
evidence indicating a reasonable likelihood that the
[FDC] will reenact the challenged [freeze-frame
policy] which it has now repealed” and replaced.
Flanigan’s, 868 F.3d at 1260. Evidence that the FDC
realized and corrected its mistake a little late in the
has a duty of candor to the tribunal.”); Model Rules of Prof’l
Conduct r. 3.3 (Am. Bar Ass’n 1983) (“Candor Toward the
Tribunal”).

19a

game in no way suggests that it would revert back to
its old ways absent the injunction. All of the evidence,
in fact, is squarely to the contrary. Cf. Henslee v.
Union Planters Nat. Bank & Trust Co., 335 U.S. 595,
600 (1949) (Frankfurter, J., dissenting) (“Wisdom too
often never comes, and so one ought not to reject it
merely because it comes late.”). Accordingly, we hold
that Keohane’s challenge to the FDC’s former freezeframe policy is moot.
B
Second, hormone therapy. Keohane contends
that the FDC’s initial refusal to provide her with
hormone-therapy treatment violated the Eighth
Amendment. The district court agreed and entered an
injunction (separate from the one prohibiting the
reenactment of the freeze-frame policy) requiring the
FDC to “provide Ms. Keohane with hormone therapy
so long as it is not medically contraindicated.”
Keohane, 328 F. Supp. 3d at 1318.
On the merits, the question might be a close
one. The record seems to indicate that the FDC knew
that denying Keohane hormone therapy threatened a
serious risk of self-harm—the grievances that she
filed with prison officials expressly and repeatedly
linked the two. And given the circumstances, it’s
possible that the FDC disregarded that risk “by
conduct that [was] more than mere negligence.”
Brown, 387 F.3d at 1351.
Once again, though, we find that we cannot
reach the merits because we conclude that Keohane’s
hormone-therapy-related
challenge
is
moot.
Approximately two weeks after Keohane filed suit—
and even before it formally repealed the freeze-frame
policy—the FDC referred her to an endocrinologist
20a

who prescribed her hormone therapy, and she has
been receiving hormone-therapy treatment ever since.
Accordingly, the FDC contends that there is no longer
any
live
controversy
concerning
Keohane’s
entitlement to hormone therapy.
As before, the mootness inquiry hinges on the
application of the voluntary- cessation exception. And
as already explained, under that exception
“governmental entities and officials have . . .
considerably more leeway than private parties in the
presumption that they are unlikely to resume illegal
activities.” Flanigan’s, 868 F.3d at 1256 (quoting
Coral Springs, 371 F.3d at 1328–29). And even though
here we consider the FDC’s freestanding
determination to provide Keohane hormone therapy—
independent of its later repeal of the freeze-frame
policy, which the district court enjoined separately—
the governing principles remain basically the same.
As we summarized in Flanigan’s, “even where the
intervening governmental action does not rise to the
level of a full legislative repeal . . . ‘a challenge to a
government policy that has been unambiguously
terminated will be moot in the absence of some
reasonable basis to believe that the policy will be
reinstated if the suit is terminated.’” Id. at 1256
(emphasis added) (quoting Troiano, 382 F.3d at 1285).
We find no “reasonable basis” to believe that,
following a dismissal, the FDC would revert to
refusing hormone therapy to Keohane. As with its
repeal of the freeze-frame policy, we recognize that the
timing of the FDC’s decision to provide Keohane with
hormone treatment—here, a mere two weeks after she
filed suit—may well suggest a desire to eliminate
potential liability. It seems scarcely debatable that the
FDC hoped that by acceding to Keohane’s request it
21a

could avoid litigation. But again, we have clarified
that
timing
considerations
shouldn’t
be
overemphasized in the voluntary-cessation analysis
and, in any event, that alleged jurisdictionmanipulation is only one among several nonexhaustive factors that inform the inquiry. See id. at
1257–59. The remaining factors demonstrate that
Keohane’s hormone-therapy challenge, like her
freeze-frame challenge, is indeed moot. Most notably,
we are satisfied both (1) that the FDC’s “decision to
terminate the challenged conduct”—here, its reversal
of its initial denial of hormone therapy—was
“unambiguous” in the sense that it was “both
permanent and complete,” and (2) that the FDC “has
consistently maintained its commitment” to
Keohane’s new course of treatment. Id. at 1257
(quotation omitted). The FDC has given us concrete
assurances—in both word and deed—that it will
continue to provide Keohane’s hormone therapy. Not
only has the FDC rescinded the freeze- frame policy
pursuant to which it refused Keohane’s early requests
for hormone treatment, but its own doctors have
concluded—and testified under oath—that Keohane’s
hormone therapy is medically necessary.
And
consistent with that view, since initially granting
Keohane’s request in September 2016, the FDC has
faithfully provided her with hormone-therapy
treatment and has repeatedly represented to us that
it will continue to do so. 7
The decision on which the district court
principally relied in rejecting the FDC’s mootness
argument, Doe v. Wooten, actually provides a useful
contrast here. There, an inmate filed suit alleging that
7

See supra n.6.

22a

two prison officials had acted with deliberate
indifference to his serious need for protection after he
assisted the Bureau of Prisons in an investigation of
one of its own employees. 747 F.3d at 1321.
Specifically, the officials promised the inmate that
they would protect him and transfer him to a lowersecurity prison in exchange for his cooperation. Id. at
1320. Although he was briefly moved to a lowersecurity facility as promised, he was then, over the
course of several years, repeatedly transferred to
other high- security prisons where he was exposed as
an informant and severely assaulted. Id. at 1320–21.
After years of litigation and more questionable
transfers, the BOP suddenly changed course and
moved the inmate to a lower-security facility just days
before the trial was set to begin—and then contended
that the inmate’s challenge was moot. Id. at 1321. We
held that the BOP had failed to establish the
unlikelihood of a recurrence for four basic reasons: (1)
the BOP’s ultimate transfer of the inmate to a lowersecurity prison so soon before trial strongly suggested
that its motivation was solely to manipulate
jurisdiction; (2) the BOP had a “pattern” of breaking
its transfer-related promises; (3) the “mere fact” that
the BOP was (at that moment, anyway) giving the
inmate what he wanted wasn’t enough to overcome its
history of recurring misbehavior, and (4) the BOP
“never said” that it wouldn’t transfer the inmate back
to a high-security prison. Id. at 1323–25.
As already noted, the Doe Court’s first reason—
that the timing indicated a desire to dispose of a
lawsuit—may well apply here, too. But the other
reasons are inapplicable—or more accurately,
belied—in this case. There is no “pattern” of broken
promises here; since acceding to Keohane’s hormone23a

therapy request in September 2016, the FDC has
consistently provided her the treatment. And more
than the “mere fact” that Keohane is currently being
given hormone therapy, we have reasonable
assurance that the FDC won’t revert back to its
previous posture; whereas in Doe the BOP had “never
said” that it wouldn’t backslide, the FDC has
repeatedly represented that it will continue to provide
Keohane with hormone therapy so long as her team
“believes the hormones are medically necessary to
treat her gender dysphoria.” Br. of Appellant at 7–8.
In short, we conclude that there is no
“reasonable basis” to believe that, if Keohane’s
hormone-therapy claim is dismissed, the FDC will
reverse course and refuse to provide the treatment.
Accordingly, we hold that Keohane’s hormonetherapy-related claim is moot.
C
Lastly, social transitioning. Keohane asserts
that the FDC is continuing to violate the Eighth
Amendment by denying her requested socialtransitioning- related accommodations—specifically,
to grow out her hair, use makeup, and wear female
undergarments. Unlike
Keohane’s
arguments
concerning the freeze-frame policy and hormone
therapy,
her
social-transitioning
claim
unquestionably presents a live controversy, inasmuch
as the FDC (for the most part, anyway) continues, to
this day, to refuse her requests. Accordingly, we
proceed to consider Keohane’s social-transitioningbased challenge on the merits. In so doing, we review
de novo the district court’s ultimate determination
“that there was an Eighth Amendment violation
warranting equitable relief,” and we review for clear
24a

error any “[s]ubsidiary issues of fact.” Thomas v.
Bryant, 614 F.3d 1288, 1303 (11th Cir. 2010). 8
We pause here to respond briefly (or perhaps not so briefly) to
the dissent’s extended critique of the standards of review that we
apply. The dissent accuses us—vigorously and repeatedly— of
ignoring the observation in Thomas that “[a] prison official’s
deliberate indifference is a question of fact which we review for
clear error.” 614 F.3d at 1312. We’ve done no such thing. As we
trust the text demonstrates, we haven’t endeavored to re-find any
historical facts—e.g., what happened, who knew what, how did
they respond? See, e.g., Farmer v. Brennan, 511 U.S. 825, 842
(1994) (“Whether a prison official had the requisite knowledge of
a substantial risk is a question of fact subject to demonstration
in the usual ways ….”); Goebert v. Lee County, 510 F.3d 1312,
1327 (11th Cir. 2007) (“Disregard of the risk is also a question of
fact that can be shown by standard methods.”). Instead, we’ve
simply done what Thomas commands us to do, and what the
dissent itself recognizes we must do—apply “de novo review. . .to
the district court’s ultimate conclusion whether the objective and
subjective elements of a deliberate- indifference claim state an
Eighth Amendment violation.” Dissenting Op. at 60.
8

The dissent seems to think that the clear-error
standard’s application in a deliberate- indifference case somehow
supersedes and supplants the foundational rule that we, as an
appellate court, must review de novo a district court’s ultimate
determination whether an Eighth Amendment violation has
occurred. On the dissent’s understanding, the de novo standard’s
sole office is to ensure that the district court puts “checkmarks”
in the right boxes, and then doesn’t make a truly boneheaded,
asinine mistake:
[I]f the district court, despite checkmarks in both
the objective and subjective boxes, still concluded
that there was no Eighth Amendment violation,
we would lend no deference to this error. We
would review it de novo, and would no doubt
reverse. And if the district court, despite holding
that one of the elements was not met, still
concluded that there was an Eighth Amendment
violation, we would do the same. We would
review this error de novo, and no doubt reverse.

25a

That is the ultimate conclusion that we review de
novo.
Id. at 61–62. This mindless, mechanical box-checking
assessment cannot possibly be what we’ve meant when we have
repeatedly held that de novo review applies to the district court’s
determination whether “there was an Eighth Amendment
violation warranting equitable relief.” Thomas, 614 F.3d at 1303.
Contrary to the dissent’s suggestion, meaningful
appellate review of a district court’s ultimate constitutional
holding follows straightaway from Supreme Court precedent
prescribing de novo review of other application-of-law-to-fact
questions—including those arising under the Eighth
Amendment. See United States v. Bajakajian, 524 U.S. 321, 336–
37 & n.10 (1998) (excessiveness of a fine); see also, e.g., Cooper
Indus., Inc. v. Leatherman Tool Grp., Inc., 532 U.S. 424, 435–36
(2001) (punitive-damages award); Ornelas v. United States, 517
U.S. 690, 699 (1996) (probable cause and reasonable suspicion).
District courts are undoubtedly better situated than appellate
courts to make findings of historical fact, and their
determinations with respect to those facts are accordingly
entitled to deference. But what the Eighth Amendment means—
and requires in a given case—is an issue squarely within the core
competency of appellate courts. And to be clear, it’s no answer to
say, as the dissent does—citing Justice Scalia’s solo dissent in
Ornelas—that some issues underlying a deliberate-indifference
claim may be “fact-specific and not easy to generalize.”
Dissenting Op. at 70 n.13. The Supreme Court recognized as
much regarding the “mixed questions” in Ornelas, Bajakajian,
and Cooper—and yet applied de novo review anyway. Just so
here. See generally Kosilek v. Spencer, 774 F.3d 63, 68–69, 84–85
(1st Cir. 2014) (en banc) (rejecting the very same arguments
being offered by the dissent in this case and holding that de novo,
rather than clear-error, review governed a district court’s
ultimate determination that the Eighth Amendment required
prison authorities to accommodate a transgender inmate’s
medical-treatment requests).
Now, having said all that, we hasten to add that nothing
here rides on the applicable standard of review. Even if the
deferential clear-error standard did apply (as the dissent
suggests) in such a way as to render essentially meaningless the

26a

Recall that a deliberate-indifference claim
entails both an objective and a subjective component.
As we have explained, the objective component is
clearly satisfied here—all agree that Keohane’s
gender dysphoria constitutes a “serious medical need”
within the meaning of Eighth Amendment precedent.
Brown, 387 F.3d at 1351. The dispute here centers on
the subjective component, which requires the plaintiff
to show that prison officials (1) had actual “knowledge
of a risk of serious harm” and (2) “disregard[ed]” that
risk (3) by conduct that was “more than mere
negligence.” Id.
Although the parties vigorously debate whether
the actual-knowledge prong is satisfied here, we
needn’t resolve that issue, because even assuming
that FDC officials knew that Keohane was at risk of
serious harm—thus satisfying the subjective prong’s
first factor—there is no basis for concluding that by
denying her social-transitioning requests they
disregarded that risk “by conduct that [was] more
than mere negligence” and thereby violated the
Eighth Amendment. That is so for two reasons.
First, as already explained, unlike with respect
to hormone therapy, the testifying medical
professionals were—and remain—divided over
whether social transitioning is medically necessary to
de novo review that applies to the district court’s ultimate
determination whether an Eighth Amendment violation has
occurred, we would have little trouble formulating the required
“firm conviction that a mistake ha[d] been committed.” Silva v.
Pro Transp., Inc., 898 F.3d 1335, 1339 (11th Cir. 2018) (quotation
omitted). For reasons explained in text, the district court’s
determination—that the FDC “disregard[ed]” a risk of serious
harm “by conduct that [was] more than mere negligence,” Brown,
387 F.3d at 1351—was not just erroneous, but clearly so.

27a

Keohane’s gender-dysphoria treatment. Keohane’s
retained expert testified that it is. By contrast, the
members of Keohane’s medical-treatment team,
Wexford’s staff psychiatrist, the FDC’s chief clinical
officer, and the FDC’s retained expert all testified that
it isn’t. The closest any of those witnesses got—not
nearly close enough, it seems to us—was the FDC’s
expert’s acknowledgment that social-transitioning,
while not strictly medically necessary, would be
“psychologically pleasing” to Keohane. Cf. Harris, 941
F.2d at 1511 n.24 (“[N]othing in the Eighth
Amendment . . . requires that [inmates] be housed in
a manner [that is] most pleasing to them.” (quotation
omitted)). 9 Keohane’s medical-treatment team further
concluded that requiring Keohane to comply with the
FDC’s policies regarding hair and grooming standards
doesn’t put her at a substantial risk of self-harm or
severe psychological pain.
At worst, then, this is a situation where medical
professionals disagree as to the proper course of
treatment for Keohane’s gender dysphoria, and it’s
well established that “a simple difference in medical
We needn’t dwell on the point, but we emphatically reject the
dissent’s suggestion that the Eighth Amendment requires the
government—which is to say taxpayers—to fund any medical
treatment that is “psychologically pleasing” to an incarcerated
inmate. See Dissenting Op. at 82–85. Necessity, not pleasure, is
the constitutional standard—and no amount of massaging can
make those two things the same. And to be clear, it hardly
renders the dissent’s would-be standard more “sensible” to note
that “gender dysphoria is . . . a psychological illness.” Id. at 82.
By the very same logic, the dissent would presumably conclude
that the Eighth Amendment requires the provision of any
treatment that is “physically pleasing”—not necessary, but
pleasing—to address an inmate’s physical illness. The
possibilities are endless.
9

28a

opinion between the prison’s medical staff and the
inmate as to the latter’s diagnosis or course of
treatment [cannot] support a claim of cruel and
unusual punishment.” Id. at 1505; Waldrop v. Evans,
871 F.2d 1030, 1033 (11th Cir. 1989); accord, e.g.,
Lamb, 899 F.3d at 1163 (holding that “disagreement
alone” does not constitute deliberate indifference);
Kosilek, 774 F.3d at 90 (“The law is clear that where
two alternative courses of medical treatment exist,
and both alleviate negative effects within the
boundaries of modern medicine, it is not the place of
our court to second guess medical judgments or to
require that the DOC adopt the more compassionate
of two adequate options.” (quotation omitted)). 10 Put
simply, when the medical community can’t agree on
To be clear, because the district court awarded only prospective
injunctive relief—as relevant here, in the form of an order
directing the FDC to begin providing Keohane socialtransitioning
accommodations—the
deliberate-indifference
question must “be determined in light of the prison authorities’
current attitudes and conduct,” i.e., “their attitudes and conduct
at the time suit is brought and persisting thereafter.” Farmer, 511
U.S. at 845 (emphasis added) (quoting Helling v. McKinney, 509
U.S. 25, 36 (1993)). It is irrelevant, therefore, that there was once
a time— years ago now—when the FDC was refusing Keohane
both hormone therapy and social- transitioning accommodations.
As matters stood at the time the parties’ witnesses testified
before and during trial, and at the time the district court issued
its injunction, Keohane was—and as things stand today, still is—
receiving both mental-health counseling and hormone therapy,
and is enjoying the use of female pronouns, safer housing
accommodations, and private shower facilities. See Kosilek, 774
F.3d at 91 (“The subjective element of an Eighth Amendment
claim for injunctive relief requires not only that [the plaintiff]
show that the treatment she received was constitutionally
inadequate, but also that the DOC was—and continues to be—
deliberately indifferent to her serious risk of harm.” (emphasis
added)).
10

29a

the appropriate course of care, there is simply no legal
basis for concluding that the treatment provided is “so
grossly incompetent, inadequate, or excessive as to
shock the conscience or to be intolerable to
fundamental fairness.” Harris, 941 F.2d at 1505
(quotation omitted). Here, therefore, implementing
the course of treatment recommended by Keohane’s
FDC medical team, and seconded by a number of other
medical professionals, isn’t “so unconscionable as to
fall below society’s minimum standards of decency”—
and thus violative of the Eighth Amendment—merely
because it conflicts with the opinion of Keohane’s
retained expert. Kosilek, 774 F.3d at 96. 11
The several decisions concluding that prison officials acted
with deliberate indifference to a transgender inmate’s serious
medical need are distinguishable in three important ways. First,
in each of those cases there appeared to be general (and
consistent) consensus among the inmate’s medical providers that
a particular treatment was medically necessary. See, e.g.,
Soneeya, 851 F. Supp. 2d at 250 (inmate’s providers consistently
recommended feminization). As explained in text, that’s not the
case with respect to Keohane’s social-transitioning requests;
indeed, the district court’s own finding—that before Keohane
filed suit her treatment team couldn’t reach a consensus about
the medical necessity of her social-transitioning requests—
actually undermines its deliberate-indifference conclusion.
Second, in those cases the prison officials denied treatment based
on a blanket policy without exception for medical necessity. See,
e.g., id. at 249–50. Here, while that was once the case, the FDC
has since rescinded its freeze-frame policy and has clarified that
it will make exceptions for social-transitioning-related requests
if deemed medically necessary. Third, in those cases it was clear
that the current course of treatment was insufficient because the
gender-dysphoria symptoms persisted or even worsened. See,
e.g., id. at 250; see also Hicklin, 2018 WL 806764, at *11–13.
Here, to the contrary, the evidence indicates that Keohane’s
symptoms improved after she was prescribed hormone therapy,
which she continues to receive.
11

30a

Second, the FDC denied Keohane’s socialtransitioning-related requests, at least in part, on the
ground that they presented serious security
concerns— including, most obviously, that an inmate
dressed and groomed as a female would inevitably
become a target for abuse in an all-male prison. “When
evaluating medical care and deliberate indifference,
security considerations inherent in the functioning of
a penological institution must be given significant
weight.” Id. at 83; see also Helling v. McKinney, 509
U.S. 25, 37 (1993) (“The inquiry into [the subjective]
factor also would be an appropriate vehicle to consider
arguments regarding the realities of prison
administration.”); Evans v. Dugger, 908 F.2d 801, 806
(11th Cir. 1990) (“[P]rison officials operate[] under a
mandate to provide for [physical and medical] needs
while simultaneously assuring the safety and security
of [inmates].”). As the Supreme Court has long
recognized, “[p]rison administrators . . . should be
accorded wide-ranging deference in the adoption and
execution of policies and practices that in their
judgment are needed to preserve internal order and
discipline and to maintain institutional security.” Bell
v. Wolfish, 441 U.S. 520, 547 (1979). Accordingly, even
an outright “denial of care may not amount to an
Eighth Amendment violation if that decision is based
in legitimate concerns regarding prisoner safety and
institutional security.” Kosilek, 774 F.3d at 83. 12 That
To the extent that the dissent suggests that “denying
treatment for non-medical reasons”— including for reasons of
institutional security—always and everywhere “arises to
subjective deliberate indifference,” Dissenting Op. at 72, we
disagree. The lone case that the dissent cites for that
proposition—McElligott v. Foley, 182 F.3d 1248 (11th Cir.
1999)—had nothing to do with prison security. And we think it
inconceivable that the Eighth Amendment could be read to

12

31a

is all the more true where, as here, the inmate has not
been refused care entirely, but has instead been given
a meaningful course of treatment that includes many
(if not all) of the components that she originally
sought. 13
The First Circuit’s en banc decision in Kosilek
v. Spencer is especially instructive here. There, as
here, a transgender inmate who was suffering from
gender dysphoria—and who had attempted both to
castrate herself and to commit suicide—alleged that
the treatment she was receiving in prison violated the
Eighth Amendment. 774 F.3d at 68–69. There, as
here, the inmate was getting some, but not all, of the
treatment she wanted; in particular, while the prison
was providing her with mental-health counseling,
hormone therapy, and gender-appropriate clothing, it
had persistently refused her requests for sexdisable prison administrators from refusing an inmate’s
treatment request on the ground that it would threaten safety
and security.
The district court declined even to address the security issue—
calling it a “red herring”—on the ground that the FDC had
entered into a pretrial stipulation that it would accommodate
Keohane’s social-transitioning requests if they were deemed
medically necessary. On appeal, Keohane likewise asserts that
the stipulation “begins and ends the discussion of security in this
case.” The point, seemingly, is that if the FDC has promised to
meet Keohane’s social- transitioning demands if necessary,
prison security must not be as serious an issue as the FDC
contends. What this argument ignores is that the FDC’s
stipulation expressly clarified that even if it did become
necessary to accommodate Keohane’s requests, “additional
security measures [would be] taken” as needed. So, far from
admitting that Keohane’s social-transitioning requests present
no meaningful security concerns, the FDC has simply said that if
it became necessary to do so, it would address the newly
presented security issues in new and different ways.
13

32a

reassignment surgery. Id. at 69–70. There, as here,
the testifying medical professionals disagreed about
whether a constitutionally adequate course of
treatment required the prison to grant the inmate’s
remaining request. Id. at 74–79. There, as here, prison
officials had raised security-related concerns about
accommodating the inmate’s demand. Id. at 79–81.
And finally, there, as here, the district court had
“issued an extensive opinion” concluding (1) that the
inmate’s gender dysphoria constituted a “serious
medical need,” (2) that “the only adequate way to
treat” her condition was by granting all of her
requests—including, there, for sex-reassignment
surgery—and (3) that the prison officials’ “stated
security concerns were merely pretextual.” Id. at 81.
The First Circuit framed the question before it
in terms that apply equally here: “[W]e are faced with
the question whether the [prison’s] choice of a
particular medical treatment is constitutionally
inadequate, such that the district court acts within its
power to issue an injunction requiring provision of an
alternative treatment—a treatment which would give
rise to new concerns related to safety and prison
security.” Id. at 68. Notwithstanding the
“extensive[ness]”
of
the
district
court’s
determinations, the First Circuit reversed. In so
doing, the en banc court emphasized that “[t]he law is
clear that where two alternative courses of medical
treatment exist, and both alleviate negative effects
within the boundaries of modern medicine, it is not
the place of [a reviewing] court to second guess
medical judgments or to require that [prison officials]
adopt the more compassionate of two adequate
options.” Id. at 90 (quotation omitted). The First
Circuit also stressed the “wide-ranging deference” to
33a

which prison administrators are entitled when
making safety and security assessments. Id. at 83, 92
(quotation omitted). Concluding, the court held (1)
that prison authorities “ha[d] chosen to provide a form
of care that offer[ed] direct treatment” for the inmate’s
gender dysphoria and (2) that they had “done so in
light of the fact that provision of” the inmate’s
preferred treatment “would create new and additional
security concerns— concerns that do not presently
arise from its current treatment regimen.” Id. at 96.
Kosilek is closely (if not quite exactly) on point
here. The FDC has given Keohane some, but not all,
of what she wants—although it has denied her socialtransitioning requests (at least as they pertain to
clothing and grooming), it has provided mental-health
counseling, hormone therapy, the use of female
pronouns, safer housing accommodations, and private
shower facilities. And like the prison officials in
Kosilek, the FDC has struck that balance both because
Keohane’s treatment team has determined that her
current regimen is sufficient to treat her gender
dysphoria and because it has rationally concluded
that her social- transitioning requests—to dress and
groom herself as a woman—would present significant
security concerns in an all-male prison. 14
14 Rather than Kosilek, the dissent embraces the Ninth Circuit’s
recent decision in Edmo v. Corizon, Inc., 935 F.3d 757, 767 (9th
Cir. 2019), which held that a state prisoner suffering from gender
dysphoria was constitutionally entitled to state-funded sexreassignment surgery. See Dissenting Op. at 90 (“The Ninth
Circuit got it right ….”). In ruling the way it did, though, the
Ninth Circuit emphasized that the state there had “not so much
as allude[d] to” any of the sorts of security concerns that the FDC
has raised here. Edmo, 935 F.3d at 794 (“Our approach mirrors
the First Circuit’s [in Kosilek], but the important factual
differences between cases yield different outcomes. Notably, the

34a

Bottom line: In light of the disagreement among
the testifying professionals about the medical
necessity of social transitioning to Keohane’s
treatment and the “wide-ranging deference” that we
pay to prison administrators’ determinations about
institutional safety and security, Bell, 441 U.S. at 547,
we simply cannot say that the FDC consciously
disregarded a risk of serious harm by conduct that was
“more than mere negligence” and thereby violated the
Eighth Amendment, Brown, 387 F.3d at 1351. Rather,
it seems to us that the FDC chose a meaningful course
of treatment to address Keohane’s gender-dysphoria
symptoms—treatment that, while perhaps different
from (and less than) what Keohane preferred, is
sufficient to clear the low deliberate-indifference bar.
For better or worse, prisoners aren’t constitutionally
entitled to their preferred treatment plan or to
medical care that is great, “or even very good.” Harris,
941 F.2d at 1510; see also Lamb, 899 F.3d at 1162
(“[P]rison officials do not act with deliberate
indifference when they provide medical treatment
even if it is subpar or different from what the inmate
wants.”). So long as the care provided isn’t “so grossly
incompetent, inadequate, or excessive as to shock the
conscience or to be intolerable to fundamental
fairness,” then the Eighth Amendment is satisfied.
Rogers v. Evans, 792 F.2d 1052, 1058 (11th Cir. 1986);
Harris, 941 F.2d at 1505. We are confident that the
care here passes constitutional muster. 15
security concerns in Kosilek, which the First Circuit afforded
‘wide- ranging deference,’ are completely absent here. The State
does not so much as allude to them.” (citation omitted)).
15 A brief word about the dissent’s repeated refrain (echoing the
district court) that Keohane’s treatment team was
“incompetent.” See Dissenting Op. at 79–81, 84, 90; see also

35a

*

*

*

One final word: This is a case that stirs emotions. And
understandably so— the question whether and to
what extent Florida prison officials must
accommodate Keohane’s gender dysphoria is a
sensitive one, on both sides of the “v.” Our dissenting
colleague’s opinion is passionate and heartfelt, as is
evident from its rhetoric. He accuses us, among other
things,
of
“usurp[ing]”
(and
alternatively
“commandeer[ing]” and “annexing”) the district
court’s role (Dissenting Op. at 41, 53, 86),
“rearrang[ing] the record” to suit our own desires (id.
at 41), strategically “ignoring” bad facts while focusing
on those we “like[] better” (id. at 53), “pluck[ing]”
favorable tidbits from cases (id. at 54), and—the coup
de grâce— “shak[ing] the magic 8-ball until it gives
us” a result we want (id. at 92). Needless to say—and

Keohane, 328 F. Supp. 3d at 1307, 1316. The nub of the dissent’s
critique seems to be that “no member of Keohane’s treatment
team had ever treated” someone in Keohane’s precise situation—
i.e., “a pre-transition patient with gender dysphoria”—and that
the team members hadn’t been trained specifically in the “World
Professional Association for Transgender Health” standards.
Dissenting Op. at 79. Respectfully, the dissent sets the
constitutional bar entirely too high. To repeat what we’ve just
said—because it bears repeating—the medical care provided to
prisoners needn’t be “perfect, the best obtainable, or even very
good.” Harris, 941 F.2d at 1510 (quotation omitted). In the same
vein, we have held that “[m]inimally adequate care usually
requires minimally competent physicians.” Id. at 1509.
Keohane’s treatment might not have been “perfect,” but it wasn’t
conscience-shocking either, and her treatment-team members
might not have had specialties (or particularized experience) in
caring for “pre-transition patient[s] with gender dysphoria,” but
they were (at the very least) “minimally competent.”

36a

with all due respect—we don’t think that we’ve done
any of those things.
Make no mistake, we too have sympathy for Ms.
Keohane, and we too regret her predicament. But our
first obligation—our oath—is to get the law right. See
28 U.S.C. § 453. And our best understanding of the
law is that—for better or worse—it simply does not
entitle Ms. Keohane to additional relief. Our
dissenting colleague, of course, sees things differently.
But let us pause briefly to consider the implications of
his position:
•

First, on his view, the Constitution should be
read to require prison officials to provide every
convicted inmate—at taxpayer expense—with
any treatment that is “psychologically
pleasing.” See Dissenting Op. at 82–85. That
cannot possibly be the law.

•

Second, on his view, the Constitution should be
read to require prison officials to provide every
convicted
inmate—again,
at
taxpayer
expense— with doctors who have particularized
experience (perhaps even a specialty) in dealing
with his or her precise condition, no matter how
rare. See Dissenting Op. at 79–81. Again—
inconceivable.

•

Finally, on his view, the Constitution should be
read to prohibit prison authorities from making
a prophylactic judgment that housing a
transitioning woman—wearing long hair,
female undergarments, and makeup—in a
men’s prison simply poses too grave a threat to
institutional security. See Dissenting Op. at
74–79. We just don’t think so.
37a

This is a difficult case—no doubt. While we
respect our dissenting colleague’s fervor, we find
ourselves constrained to disagree with his
conclusions, which, we think, would precipitate
sweeping changes in the law of prison administration.
III
For the foregoing reasons, we hold that
Keohane’s challenges to the FDC’s former freezeframe policy and its initial failure to provide her with
hormone therapy are moot, and we reject on the
merits her claim that the FDC violated the Eighth
Amendment by refusing to accommodate her socialtransitioning-related requests.
We VACATE the district court’s order,
DISMISS AS MOOT in part, and REVERSE in part.

38a

WILSON, Circuit Judge, dissenting:
The majority has usurped the role of the district
court. In a painstaking, 61- page order, the district
judge made detailed factual findings, concluding from
them that Keohane’s claims were not moot and that
the FDC was liable for deliberate indifference. We
must review those findings with great deference,
disregarding them only if clearly erroneous. But the
majority does not apply ordinary clear- error review,
as we might in a sentencing case or an employment
dispute. Instead, the majority steps into the district
court’s shoes to reweigh the facts, reassess credibility
determinations, and rearrange the record to reach a
different result. See Mach. Rental Inc. v. Herpel (In re
Multiponics, Inc.), 622 F.2d 709, 723 (5th Cir. 1980)
(“Merely because a reviewing Court on the same
evidence may have reached a different result will not
justify setting a finding aside.”). 1
That is not our role. The clearly erroneous
standard is weighty for a reason: It reflects the
“unchallenged superiority of the district court’s
factfinding ability” and its capacity “to judge . . . the
credibility of the witnesses.” Salve Regina Coll. v.
Russell, 499 U.S. 225, 233 (1991). We cannot simply
supplant the district court’s findings with our own.
And yet that is what the majority does here.
Since the district court’s findings have
substantial footing in the record, I would accept them.
And given those findings, none of Keohane’s claims
are moot, and the FDC was deliberately indifferent to
In Bonner v. City of Prichard, we adopted as binding precedent
all decisions of the former Fifth Circuit handed down before
October 1, 1981. 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).
1

39a

her gender dysphoria when it failed to provide her
with social-transitioning treatment.
One brief note before we begin: The majority
cites language from my dissent to suggest that I have
let the emotions surrounding this issue sway my
opinion. The majority quotes me correctly; I have
strong words about its analysis. But make no
mistake—any fervor in the text below stems not from
the facts of this case, but from the majority’s
misapplication of our precedent.
I.
First, mootness. Federal courts decide only
“live” controversies. See Troiano v. Supervisor of
Elections in Palm Beach Cty., Fla., 382 F.3d 1276,
1281– 82 (11th Cir. 2004). A case is no longer live, and
is thus moot, when a court can no longer grant
“meaningful relief” to the challenging party. Id. at
1282. This can happen when allegedly unlawful
conduct ceases, but a party’s “voluntary cessation of
allegedly unlawful conduct ordinarily does not suffice
to moot a case.” Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs., Inc., 528 U.S. 167, 174 (2000). This is
because the defendant might simply return to its “old
ways.” Troiano, 382 F.3d at 1283. A defendant
“claiming that its voluntary compliance moots a case”
thus bears the “formidable” and “heavy” burden of
“showing that it is absolutely clear the allegedly
wrongful behavior could not reasonably be expected to
recur.” Doe v. Wooten, 747 F.3d 1317, 1322 (11th Cir.
2014); see also Harrell v. Fla. Bar, 608 F.3d 1241, 1268
(11th Cir. 2010).
That analysis is a little different for the
government, though. Government actors are more
likely to “honor a professed commitment to changed
40a

ways” and get “more leeway than private parties in
the presumption that they are unlikely to resume
illegal activities.” See Doe, 747 F.3d at 1322; Troiano,
382 F.3d at 1283. As a result, this court has held that
when the government “unambiguously terminat[es]”
challenged conduct, we presume that the conduct will
not begin again. Doe, 747 F.3d at 1322. It has also held
that the “government actor is entitled to this
presumption only after it has shown unambiguous
termination of the complained of activity.” Id.
Our case law, however, has shifted slightly
from this framing. See Flanigan’s Enters., Inc. of Ga.
v. City of Sandy Springs, Ga., 868 F.3d 1248, 1257
(11th Cir. 2017) (en banc), cert. denied sub nom.
Davenport v. City of Sandy Springs, Ga., 584 U.S. ___,
138 S. Ct. 1326 (2018). We used to ask first whether
the government had “unambiguously terminated” its
conduct before we would apply the presumption
against recurrence; if it did, the burden would shift to
the plaintiff to prove that there was a reasonable basis
to believe that the challenged conduct would renew.
See Doe, 747 F.3d at 1322. Now we ask only “whether
the evidence leads us to a reasonable expectation that
the [government] will reverse course and reenact the
allegedly offensive [conduct]” should the court dismiss
the case. See Flanigan’s, 868 F.3d at 1256. 2 As before,
There was good reason to do away with the unambiguoustermination two-step. Our prior unambiguous-termination
analysis ran confusingly parallel to other standards for deciding
mootness after the government’s voluntary cessation. Compare
Doe, 747 F.3d at 1322–23 (holding that the unambiguoustermination test is the proper standard for deciding whether a
case is moot after the government’s voluntary cessation), with
Troiano, 382 F.3d at 1283–84 (holding that whether “there is a
substantial likelihood that the offending policy will be reinstated
if the suit is terminated” is the proper standard for deciding
2

41a

we rely on three broad and non-exclusive factors to
help us answer this question. See id. at 1257.
“First, we ask whether the change in conduct
resulted from substantial deliberation or is merely an
attempt to manipulate our jurisdiction.” Id. The
“timing” of the cessation is highly relevant to this
inquiry. See id. So are the government’s reasons for its
delayed action and change of heart. See id. at 1260;
Doe, 747 F.3d at 1323. A “defendant’s cessation before
receiving notice of a legal challenge weighs in favor of
mootness, while cessation that occurs ‘late in the
game’ will make a court more skeptical of voluntary
changes that have been made.” Harrell, 608 F.3d at
1266 (citation omitted) (internal quotation mark
omitted). Similarly, a “well-reasoned justification for
the cessation” is critical evidence “that the ceasing
party intends to hold steady in its revised (and
presumably unobjectionable) course.” Id. In contrast,
the government’s inconsistent and unsupported
position changes tend to show a lack of substantial
deliberation. See Doe, 747 F.3d at 1325–26.
whether a case is moot after the government’s voluntary
cessation). The unambiguous-termination analysis was also
redundant in two ways. For one, the first of the three factors for
determining
whether
the
government
unambiguously
terminated its conduct was, paradoxically, whether the
government unambiguously terminated its conduct. See Doe, 747
F.3d at 1322–23. For another, the three factors that went into the
unambiguous-termination analysis were the same factors that
went into the later reasonable-basis-for-recurrence analysis,
making the second step effectively redundant. See id. By
streamlining the test to focus on the broad factors we’ve typically
relied on, our en banc court eliminated this redundancy while
reaffirming that the government must still unambiguously
terminate its conduct to survive the voluntary-cessation
analysis. See Flanigan’s, 868 F.3d at 1257.

42a

“Second, we ask whether the government’s
decision to terminate the challenged conduct was
unambiguous.” Flanigan’s, 868 F.3d at 1257 (internal
quotation mark omitted). The question here is
“whether the actions that have been taken to allegedly
moot the case reflect a rejection of the challenged
conduct that is both permanent and complete.” Id. As
with the first prong, the “timing and content of the
decision” are highly relevant to whether the
government has decidedly abandoned prior conduct.
See Harrell, 608 F.3d at 1266. So is the government’s
refusal to admit that its prior position was wrong. See,
e.g., Sheely v. MRI Radiology Network, P.A., 505 F.3d
1173, 1187 (11th Cir. 2007) (holding that a case was
not moot despite voluntary cessation in part because
the government had not admitted that its conduct was
wrong); ACLU v. Fla. Bar, 999 F.2d 1486, 1494–95
(11th Cir. 1993) (same when the government had not
admitted that a prior rule was wrong). 3 As are the
The majority says that the government’s current beliefs about
the constitutionality of its action have “little, if anything” to do
with the voluntary-cessation analysis. Majority Op. at 19–20.
That is an overstatement. To be sure, Flanigan’s concluded that
the government’s current beliefs there provided “only weak
evidence, if any” that its termination was unambiguous. 868 F.3d
at 1262. Yet we did not blink this consideration out of existence
(and overrule years of precedent in the process). See Sheely, 505
F.3d at 1187; ACLU, 999 F.2d at 1494–95. Rather, we noted that
this evidence in Flanigan’s paled alongside strong evidence of
unambiguous termination, including a public repeal and a
unanimous and public adoption of a resolution supporting the
repeal. See 868 F.3d at 1262. As I explain below, we have none of
those safeguards here. See infra at 52–56. We have long known
that a party is more likely to pursue a practice it believes is
lawful than one it thinks is not. See Sheely, 505 F.3d at 1187;
ACLU, 999 F.2d at 1494–95. So the FDC’s current beliefs hold
weight in the unambiguous-termination analysis.
3

43a

government’s assurances that it will steer clear of
prior conduct. See Flanigan’s, 868 F.3d at 1261–62.
But this point is key: The government’s promises are
not a trump card. They can prove hollow under the
weight of other evidence. See Sheely, 505 F.3d at 1184
(noting that a party’s assertion “that it has no
intention of reinstating the challenged practice” does
not suffice to moot a case and is merely “one of the
factors” to consider).
“Third, we ask whether the government has
consistently maintained its commitment to the new
policy or legislative scheme.” Flanigan’s, 868 F.3d at
1257. We are also “more likely to find a reasonable
expectation of recurrence when the challenged
behavior constituted a continuing practice or was
otherwise deliberate.” Doe, 747 F.3d at 1323.
Although these factors lend helpful guidance,
they are not the be-all and end-all. When considering
government cessation, including “a full legislative
repeal of a challenged law—or an amendment to
remove portions thereof—these factors should not be
viewed as exclusive nor should any single factor be
viewed as dispositive.” Flanigan’s, 868 F.3d at 1257.
“Rather, the entirety of the relevant circumstances
should be considered and a mootness finding should
follow when the totality of those circumstances
persuades the court that there is no reasonable
expectation that the government entity will reenact
the challenged [policy].” Id. In other words, though the
formal repeal of a policy or practice often goes a long
way toward showing that the government won’t turn
heel, it is not always determinative; other facts can
call the repeal into doubt. See Doe, 747 F.3d at 1323
(noting that the cessation “analysis may vary
depending on the facts” of each case).
44a

Finally, although we consider the voluntarycessation analysis de novo, we review the factual
findings that play into this analysis for clear error.
Troiano, 382 F.3d at 1282. The FDC, as the appellant,
must prove that these findings are clearly erroneous.
See Thelma C. Raley, Inc. v. Kleppe, 867 F.2d 1326,
1328 (11th Cir. 1989). Under clear-error review, we
must defer to the district court’s factual findings and
credibility determinations, as that court “had the
advantage of observing the witnesses and evaluating
their credibility firsthand.” Hiram Walker & Sons,
Inc. v. Kirk Line, 30 F.3d 1370, 1376 (11th Cir. 1994).
The district court’s findings bind us “unless, in view of
the entire record, we are left with a definite and firm
conviction that a mistake has been committed.”
Pelphrey v. Cobb Cty., Ga., 547 F.3d 1263, 1268 (11th
Cir. 2008). A “mistake,” however, is not merely a
difference in judgment. See Multiponics, 622 F.2d at
723. As an appellate court, we cannot set aside a
finding just because we would “have reached a
different result.” Id.
A.
The district court held that the FDC failed to
show under the factors that “the allegedly wrongful
behavior could not reasonably be expected to recur.”
Doe, 747 F.3d at 1322. Its analysis rested on a
collection of careful factual findings. Since these
findings have substantial support in the record, I
accept them. And given their persuasive weight, I
conclude that there is a reasonable basis to believe
that the FDC will return to its old ways.
First up is substantial deliberation or
jurisdictional manipulation. The district court held
that the FDC retreated from the challenged conduct—
45a

both its freeze-frame policy and its refusal to treat
Keohane with hormone therapy—only to manipulate
jurisdiction. Many findings compel this result.
One is timing. As the majority concedes, the
timing of the FDC’s termination muddies the waters
around its cessation, and the timing on this point is
key. See Flanigan’s, 868 F.3d at 1257. For more than
two years, the FDC refused to treat Keohane with
hormone therapy under the freeze-frame policy. But
less than a month after Keohane filed this lawsuit, the
FDC gave her hormone therapy. And within about two
months, it repealed the freeze-frame policy.
The district court reasonably found these
fourth-quarter concessions suspect—they suggest
that the FDC only changed its ways to silence
litigation. See Doe, 747 F.3d at 1325. Its murky
motives “create[] ambiguity” about the FDC’s
commitment to its changes and about whether the
FDC will reoffend in the future. See Rich v. Sec’y, Fla.
Dep’t of Corr., 716 F.3d 525, 532 (11th Cir. 2013).
Dubious timing was not all the district court
relied on. Alongside a suspicious sequence of events,
the court also doubted the FDC’s deliberation because
the FDC took inconsistent positions throughout the
case and could not explain its prolonged delay or
sudden change of heart. See Doe, 747 F.3d at 1325–
26; Harrell, 608 F.3d at 1266.
To start, the district court found that the FDC
had flip-flopped about its policy and practices
throughout the litigation—a finding that no one
disputes. Then, after the FDC reluctantly changed its
ways, the court found that the FDC could not explain
why it had done so. The FDC provided no minutes, no
memoranda, and no testimony to show that it had
46a

thoughtfully considered its policy shifts. See Harrell,
608 F.3d at 1267 (holding that the government’s
retreat from challenged conduct did not moot a case in
part because the government failed “to disclose any
basis for its decision,” making it unclear whether the
decision was “well-reasoned and therefore likely to
endure” (internal quotation mark omitted)). The
FDC’s only explanation for its turnaround was that its
general counsel had found some “case law” on the
subject. Yet the FDC provided no support for this
justification. It did not identify what case law called
for the changes, who at the FDC compelled the
changes, or what procedures went into making the
changes. In short, the only evidence the FDC gave to
show that it had engaged in substantial deliberation
was its word that it had engaged in substantial
deliberation.
For these reasons, the district court found that
the FDC’s justification for its policy shifts was
incredible and pretextual. The court also found that
the FDC had taken inconsistent positions and had
been hasty in its decision-making. These findings led
the district court to conclude that the FDC shifted its
policy and practice for one purpose: to manipulate
jurisdiction. The majority does not claim that any of
these findings leave it with a “definite and firm
conviction” that the district court made a “mistake.”
Pelphrey, 547 F.3d at 1268. Nor could it—they have
substantial record support. See supra at 48–50. Given
these detailed findings, there is only one conclusion:
The FDC shied away from its former ways not to make
amends, but to manipulate jurisdiction.
Second is whether the FDC unambiguously
terminated its freeze-frame policy and practice of
denying Keohane hormone therapy. As before, the
47a

“timing and content” of the FDC’s reversal is crucial.
See Harrell, 608 F.3d at 1266. The district court found
the FDC’s timing suspect, its reasons dodgy, and its
process a mystery. See supra at 48–50; Harrell, 608
F.3d at 1266; Doe, 747 F.3d at 1325–26. It also found
its obstinance telling. Because even after the FDC
turned heel, it still refused to admit the error in its
ways. See Sheely, 505 F.3d at 1187. It continued to
argue that hormone therapy is not constitutionally
required for treating Keohane’s gender dysphoria—
words that contradict its actions and the “case law”
that spurred the FDC into motion. In fact, the FDC
still hasn’t admitted that its practices violated the
Constitution, and it refused to do so at oral argument.
See Oral Argument at 1:40; Sheely, 505 F.3d at 1187.
The record supports these findings. The
majority does not claim them clearly erroneous. So I
am hard pressed to see how anyone could conclude,
given these findings of fact, that the FDC’s
termination was unambiguous. Properly confined to
the district court’s findings, I conclude, as that court
did, that the FDC’s termination was hazy at best. 4
Third, then, is inconsistency. The district court
found that, even after the FDC repealed the freezeframe policy, the FDC withheld hormone therapy from
at least one other inmate under the freeze-frame
policy. 5 The court also found that, even after the FDC
In this step, the majority analyzes the repeal of the policy and
the government’s promise not to revert to it old ways. Since those
issues are relevant to my analysis of Doe and Flanigan’s, see infra
at 52–56, I will discuss them there to avoid repetition.
4

The majority claims that the district court did not find this “lone
[inconsistent application] probative” to the mootness analysis.
Majority Op. at 21–22. But the majority is incorrect. The district
court relied on this evidence to conclude that the FDC failed to

5

48a

began giving Keohane hormone therapy, the FDC
delayed in providing her hormone therapy. This delay
caused her to attempt suicide twice in three days. The
record also shows that the delays would have been
more frequent had she not vigilantly pursued her
treatment.
Like canaries in a coal mine, these deviations
warn that the FDC is not as dedicated to its new
positions as the majority would have us believe. And
these instances were not mere anomalies. They were
new applications of the FDC’s prior practices—
practices that were not mere blips, but were
“continuing” and “otherwise deliberate.” See Doe, 747
F.3d at 1323. For these reasons, the district court held
that this factor cut against the FDC. The majority, as
before, does not question the evidence that the court
relied on. Nor does it hold that the court clearly erred
in finding that the FDC delayed in providing hormone
therapy and applied the freeze-frame policy after its
repeal. Given these uncontested facts, I agree with the
district court that the last factor cuts against
mootness.
establish an unambiguous termination. See Keohane v. Jones,
328 F. Supp. 3d 1288, 1300 (N.D. Fla. 2018) (“Given [a host of
other reasons] and at least one instance of inconsistent
application of the new policy, this Court finds Defendant has
failed to establish an ‘unambiguous termination’ ….” (emphasis
added)). True, the district court said that it would be “hard
pressed to find that evidence of one mistake . . . is sufficient”
standing alone to find against the government. Id. at 1299. But
it noted that this evidence doesn’t stand alone; “this drop of
evidence only adds to the tidal wave of other circumstances
crashing down on [the FDC’s] mootness argument.” Id. So
contrary to the cropped picture the majority presents, the full
frame shows that the district court did rely on this information,
as should we.

49a

B.
If we were conducting a typical mootness
review, the district court’s unchallenged findings
would lead us to the same conclusion that the district
court reached. But rather than lend due weight to the
district court’s findings, the majority commandeers
the district court’s role, ignoring that court’s
conclusions while focusing us on the facts it likes
better. To do so, it places a heavy emphasis on the
repeal of the policy, and it takes solace in the FDC’s
oral-argument assurance that it will stay on the
straight and narrow. The majority then strictly stacks
this case up against the facts of Doe and Flanigan’s,
concluding that there is no reasonable expectation of
recurrence. That analysis is wrong for four reasons.
First, the repeal of the freeze-frame policy does
not deliver a de facto win for the government. A
repeal, to be sure, is “often” determinative of
unambiguous termination, see Doe, 747 F.3d at 1322,
but the key word is “often.” When the weight of the
other facts suggests that the government’s moves
were ambiguous, inconsistent, and made to
manipulate jurisdiction, there is reason to fear that
the government will veer from its new course. Relying
on a sea of red flags, the district court found that this
was exactly the case—that the government’s reasons
for its repeal didn’t add up, and that it was thus
unclear whether its old ways were gone for good. The
majority again does not hold that any of the court’s
findings are clearly erroneous. 6 And given these
6 In fact, the FDC even concedes that the district court’s findings
are not clearly erroneous. See Oral Argument at 13:40–14:50
(conceding in response to a question about the clearly erroneous
standard that we should “just give the judge those factual

50a

findings, the only reasonable conclusion under the
factors is that Keohane’s claims are not moot. See id.
at 1322–23.
Second, though the majority contends that this
case is a clone of Flanigan’s, it clouds key parts of the
picture. The City Council in Flanigan’s “twice voted on
the relevant remedial measures,” “put forth
persuasive explanations that [were] not dependent
upon [the] litigation,” and unanimously repealed the
policy in “open session during regularly scheduled
meetings.” 868 F.3d at 1260. The City also had a “long
history of non-enforcement,” which, “coupled with the
recent repeal, indicate[d] the commitment to [its] new
legislative scheme.” Id. at 1263 n.10.
We have none of that. We have no idea how
many times the FDC considered these policy shifts—
it didn’t tell us. We have no persuasive explanation for
its about-face—it gave us none, and it met behind
closed doors. See Harrell, 608 F.3d at 1267. And we
have no history of looking the other way— the FDC,
until this litigation, enforced these policies to their
fullest extent. Simply put, Flanigan’s was a case in
which the government publicly replaced—with good
reasoning—a rule that it never enforced. Ours is a
case in which the government privately replaced—
with no reasoning—a rule that it enforced daily.
Apples to oranges; Flanigan’s to Keohane.
Third, although the majority says that our facts
differ from the facts it plucks from Doe, this case is
closer to Doe than the majority admits. For instance,
the majority claims that, in Doe, the government had
findings” and move on to the legal merits of the deliberateindifference analysis).

51a

a “pattern” of breaking its promises to the plaintiff,
but here there is no history of broken promises.
Though we may not have explicit broken promises, we
have a substantial comparator: The FDC has
consistently defended its old policies and
inconsistently applied its new ones. Its inconsistencies
and contradictions raise the same flags as broken
promises—they cast doubt on the FDC’s shaky
commitment to its newfound path.
Finally, the majority draws a line through this
case, Doe, and Flanigan’s, because here (like
Flanigan’s and unlike Doe) the government has
assured us that it will not revert to its old ways. But
those assurances do not deserve the weight the
majority gives them. For one thing, the district court
found that the FDC never made this assurance about
the freeze-frame policy, see Keohane, 328 F. Supp. 3d
at 1300, and taking the FDC’s lawyer’s word at the
final hour over the district court’s finding again
ignores clear-error review. Equally important, the
City Council in Flanigan’s backed up its oralargument statements with actual statements: It
passed a resolution “expressly disavowing any intent
to reenact the Ordinance or any similar regulation.”
868 F.3d at 1262 (alterations accepted) (internal
quotation mark omitted). This, coupled with the City’s
“alternative reasons for the repeal” and “history of
non-enforcement,” assured us that the City would
keep its promise. See id. at 1263. The FDC, in
contrast, has offered no security to guarantee its
claims. And contrary to the majority’s view, there is
“evidence or history that would cause us to doubt them
here”: a record teeming with temperamental
positioning, clandestine decision-making, all-too52a

convenient timing, and an adamant refusal to admit
the error of its ways. See id. 7
*

*

*

The majority quips that wisdom “often never
comes, and so one ought not to reject it merely because
it comes late.” But the district court didn’t find that
wisdom had come late; it found that wisdom had never
come at all. It concluded that the FDC’s reversals were
born of desperation, not deliberation. And its holding
stood on a host of findings: that the timing of the
FDC’s concessions was suspect; that the FDC had no
explanation for its delay; that the FDC’s positions
throughout the litigation were inconsistent; that the
FDC’s decision-making was a black box; that the
FDC’s prior practices were not accidental, but
deliberate and historical; that the FDC refused to
promise that it would not re-enact the freeze- frame
policy; that the FDC still was adamant that its
practices were valid, even after it claimed to change
its ways; that the FDC delayed in providing Keohane’s
hormone therapy, even after it agreed that she needs
it; and that, on at least one occasion, the FDC applied
the repealed freeze-frame policy to bar hormone
therapy for a patient with gender dysphoria.

The majority also emphasizes the supposed hoops the FDC
would need to jump through to bring back the policy, but a review
of the oral-argument recording reveals that all it would take is a
run-of-the-mill internal review. See Oral Argument at 4:23.
Apparently, this doesn’t take awfully long, given that the FDC
changed the freeze-frame policy in just two-months’ time. So the
protection that these procedural hurdles offer is slight, if any at
all.
7

53a

As the majority does not hold that any of these
findings are clearly erroneous, they bind us. See
Pelphrey, 547 F.3d at 1268. And these findings show
that the FDC has not apologetically turned over a new
leaf, but has acted to manipulate jurisdiction. I would
affirm the district court’s holding that these claims are
not moot. 8
II.
Next, the merits of the social-transitioning
claim. The Eighth Amendment bars a prison official
from being deliberately indifferent to a serious
medical need. See Brown v. Johnson, 387 F.3d 1344,
1351 (11th Cir. 2004). A deliberate- indifference claim
thus has two components: an objectively serious
medical need, and subjective deliberate indifference to
that need. See id. We review de novo the district
court’s ultimate conclusion that there was an Eighth
Amendment violation warranting equitable relief, and
we review issues of fact supporting this conclusion for
clear error. See Common Cause/Georgia v. Billups,
554 F.3d 1340, 1349 (11th Cir. 2009).
An objectively serious medical need is “one that
has been diagnosed by a physician as mandating
treatment or one that is so obvious that even a lay
person would easily recognize the necessity for a
doctor’s attention.” Farrow v. West, 320 F.3d 1235,
1243 (11th Cir. 2003). We review the legal conclusion
As for the merits of these claims, I agree with the majority that
the FDC was deliberately indifferent to Keohane’s serious
medical need when it subjected her to the freeze-frame policy. I
would also affirm that the failure to provide hormone therapy,
despite Keohane’s undisputed need for the therapy, arises to
deliberate indifference. Because the majority does not dispute
these conclusions, I will not analyze them further.

8

54a

that a medical need is objectively serious de novo. See
Thomas v. Bryant, 614 F.3d 1288, 1307 (11th Cir.
2010). 9 Because both sides and the majority agree that
gender dysphoria is an objectively serious medical
need, only the subjective element is in dispute.
To establish subjective deliberate indifference,
a plaintiff must show “(1) subjective knowledge of a
risk of serious harm; (2) disregard of that risk; and (3)
by conduct that is more than mere negligence.” Brown,
387 F.3d at 1351. Unlike the objectively-serious-need
element,
the
subjective-deliberate-indifference
element presents a question of fact that we review for
clear error. Thomas, 614 F.3d at 1312.
The district court found that the FDC was
deliberately indifferent to Keohane’s gender
dysphoria when it refused to let her wear female
undergarments or use female grooming products. This
finding has substantial support in the record. So I’d
let it stand. And since both the subjective and
objective elements of an Eighth Amendment violation
are met, I would affirm.
The majority reaches a different result,
however, and it uses the wrong standard of review to
get there. Reviewing the subjective-deliberateindifference finding de novo during its review of the
“ultimate” Eighth Amendment violation, it concludes
that the district court was wrong to find that the last
two subparts of the deliberate-indifference element

We review any underlying fact issues—like what the medical
need is—for clear error. See Thomas, 614 F.3d at 1307.

9

55a

were met. 10 I explain below why this analysis is
incorrect and why we must affirm the district court’s
conclusion that the FDC was deliberately indifferent
to Keohane’s gender dysphoria.
A.
The majority’s first mistake comes in
articulating our standards of review. While listing the
standards, the majority agrees that we apply clearerror review to questions of fact supporting the district
court’s conclusion that a defendant violated the
Eighth Amendment. See Majority Op. at 28. It also
accepts that subjective deliberate indifference is a
question of fact that we review for clear error. See id.
at 28 n.8. And yet, despite these directives, the
majority refuses to apply clear-error review to the
district court’s finding of subjective deliberate
indifference. Instead, it insists that it retains de novo
review over this factual finding, citing the
unremarkable rule that the “ultimate determination”
whether “there was an Eighth Amendment violation
warranting equitable relief” is a legal conclusion that
we review de novo. Id. at 27–28. In other words, the
majority has somehow read Thomas to hold that, even
though the underlying finding of deliberate
indifference is a question of fact reviewed for clear
error, we (really) review that finding again de novo
when we consider the “ultimate” Eighth Amendment
violation.

The majority rightly assumes that the FDC knew that
Keohane’s gender dysphoria put her at substantial risk of selfharm, which satisfies the first subpart. See Majority Op. at 30.

10

56a

That is simply wrong. We have long reviewed a
finding of subjective deliberate indifference for clear
error. See, e.g., Thomas, 614 F.3d at 1312. We can
reverse a subjective-deliberate-indifference finding
only if left with a firm and definite conviction that the
district court made a mistake. See Pelphrey, 547 F.3d
at 1268. Our de novo review extends only to questions
of law (i.e., the objectively- serious-need element) and
to the district court’s ultimate conclusion whether the
objective and subjective elements of a deliberateindifference claim state an Eighth Amendment
violation. Precedent makes this clear.
Take Thomas—the case from which the
majority derives its de-facto-de- novo rule. There we
explained that we review de novo the district court’s
ultimate determination that there was an Eighth
Amendment violation. See Thomas, 614 F.3d at 1303.
We also explained that we review for clear error
questions of fact supporting this conclusion. Id.
Against this backdrop, we analyzed the two elements
of a deliberate-indifference claim. We first reviewed
the objectively- serious-need prong de novo,
concluding as a matter of law that the prisoner’s
medical needs were sufficiently serious under the
Eighth Amendment. See id. at 1307–13. Then we
analyzed
the
subjective-deliberate-indifference
finding. Citing Supreme Court and Eleventh Circuit
precedent,
we
held—unequivocally—that
the
subjective-deliberate-indifference element raises a
“question of fact which we review for clear error.” Id.
at 1312 (citing Farmer v. Brennan, 511 U.S. 825, 842
(1994); Goebert v. Lee Cty., 510 F.3d 1312, 1327 (11th
Cir. 2007)). And then we did just that: We reviewed
the district court’s finding of subjective deliberate
indifference for clear error, holding that we could not
57a

reverse on the subjective- deliberate-indifference
prong, because the finding was not “clearly
erroneous.” Id. at 1313–16. Finally, we summed up by
“[c]oncluding that [the plaintiff] satisfied both the
objective and subjective prongs of his Eighth
Amendment” claim, leading us to affirm the district
court’s ultimate conclusion that there was an Eighth
Amendment violation. Id. at 1317.
That is precisely how this analysis should go.
We review the objectively- serious-need element de
novo, as it is a question of law. Id. at 1307. We review
the subjective-deliberate-indifference finding for clear
error, as it is a question of fact. Id. at 1312. And then
we review the district court’s “ultimate” application of
these elements de novo. Id. at 1303. So if the district
court, despite checkmarks in both the objective and
subjective boxes, still concluded that there was no
Eighth Amendment violation, we would lend no
deference to this error. We would review it de novo,
and would no doubt reverse. And if the district court,
despite holding that one of the elements was not met,
still concluded that there was an Eighth Amendment
violation, we would do the same. We would review this
error de novo, and no doubt reverse. That is the
ultimate conclusion that we review de novo. See id. 11
But that is not how the majority analyzed this
case. If you look closely through its opinion, you won’t
Indeed, I’m curious how the majority thinks these standards
work otherwise. What is the point of initial clear-error review for
a finding of subjective deliberate indifference if we review that
finding again de novo when we review the ultimate Eighth
Amendment violation? The majority doesn’t tell us. It simply
recites these two standards, with no attempt to make sense of
how they work together, and chooses the one endowing it with a
greater level of review.
11

58a

see a single attempt to analyze whether the district
court’s subjective-deliberate-indifference finding was
clearly erroneous. To be sure, the majority pays lip
service to this standard at the end of footnote eight.
But that perfunctory paragraph is no more than a failsafe to cover itself should its de novo rule prove too
much. Even a skim through its opinion shows that the
majority has not applied clear-error review to the
district court’s finding of subjective deliberate
indifference; it has swapped the deference we typically
apply with overarching de novo review. This switch
allows it to reweigh the deliberate- indifference
evidence as it sees fit, disregarding the ample
evidence the district court relied on to make its factual
findings. Contra id. at 1312.
B.
To justify its new standard, the majority pens a
footnote treatise that reads the clear-error rule out of
Thomas. See Majority Op. at 28–29 n.8. It first opines
that Thomas’s clear-error rule applies only to
“historical facts” supporting the district court’s finding
of subjective deliberate indifference—i.e., the who,
what, when, and where facts—not the determinative
facts. It then concludes that Thomas compels it to
review the subjective-deliberate-indifference finding
de novo during its review of the ultimate Eighth
Amendment violation. And it supports these claims
with out-of-context Supreme Court precedent,
asserting that its ultimate factual review “follows
straightaway” from the Court’s application of de novo
review in cases predating Thomas. For three reasons,
these arguments fall short.

59a

First—as the majority well knows—it does not
matter what we think the prior panel should have
held under then-existing Supreme Court precedent:
All that matters is what the prior panel held. See In re
Lambrix, 776 F.3d 789, 794 (11th Cir. 2015) (“[A] prior
panel’s holding is binding on all subsequent panels
unless and until it is overruled or undermined to the
point of abrogation by the Supreme Court or by this
court sitting en banc.” (emphasis omitted)). In
Thomas, we held— with the benefit of all the Supreme
Court precedents the majority cites—that subjective
deliberate indifference is a “question of fact which we
review for clear error.” 614 F.3d at 1312. There were
no qualifiers—we did not say that clear-error review
applies to only the “historical” subparts of the district
court’s deliberate-indifference finding. Nor did we
double back to review the subjective- deliberateindifference finding de novo at the end; we did just the
opposite,
affirming
the
subjective-deliberateindifference finding because it was not clearly
erroneous. See id. at 1313–17. The majority cannot
reexamine the legal landscape the prior panel
considered to conclude that the prior panel was
wrong—such second-guessing would “undermine the
values of stability and predictability in the law that
the prior panel precedent rule promotes.” Smith v.
GTE Corp., 236 F.3d 1292, 1303 (11th Cir. 2001). For
this reason, we have “categorically reject[ed] any
exception to the prior panel precedent rule based upon
a perceived defect in the prior panel’s reasoning or
analysis as it relates to the law in existence at that
time.” Id. If the majority has a problem with Thomas’s
clear-error rule, the proper place for its concerns is in
a concurrence urging our court to consider the issue
en banc. What it cannot do is what it does here:
60a

overrule a co-equal panel and take the en banc court’s
role for itself. 12
Second, Thomas foreclosed the majority’s
academic notion that clear-error review extends only
to historical facts. As said before, Thomas’s holding
had no reservations: “A prison official’s deliberate
indifference is a question of fact which we review for
clear error.” 614 F.3d at 1312. The majority does not
explain how this rule statement applies only to
historical facts. Nor could it do so—Thomas itself
applied the rule beyond historical facts. Just pages
after Thomas set out the ultimate-de-novo-review rule
that the majority clings to, the panel applied clearerror review to all three subparts of the subjectivedeliberate-indifference element. It first held that the
record supported the district court’s finding that
prison officials were subjectively aware of a risk of
harm to the prisoner. See id. at 1313. Then it took on
the second and third prongs, holding that the “record
also supports the district court’s finding that the
Secretary of the DOC and the Warden of FSP
At any rate, the Supreme Court cases the majority cites did not
arise in the context of deliberate indifference. See Majority Op.
at 28–29 n.8 (citing cases in the excessive-fine, punitivedamages, and probable-cause contexts). Crafting a standard of
review is a context- specific inquiry, so we have no clue whether
the Supreme Court would apply clear-error or de novo review to
a deliberate-indifference finding. Thankfully, we need not read
any tea leaves— Thomas already concluded that clear error is
the right standard of review in our circuit. But the majority’s
reliance on off-point Supreme Court precedent shows that its
analysis is “less an application of existing precedent than a
prediction of what the Supreme Court will hold [should] it
choose[] to address this issue in the future.” United States v.
Greer, 440 F.3d 1267, 1275 (11th Cir. 2006). This, we have held,
the majority cannot do. See Lambrix, 776 F.3d at 794.
12

61a

recklessly disregarded the risk of psychological harm
to inmates like McKinney.” Id. at 1315. If this
application weren’t clear enough, the panel erased any
doubt when it held that “the DOC’s refusal to modify
its non-spontaneous use-of-force policy provides
support for the district court’s finding of more than
mere or even gross negligence on the part of the DOC.”
Id. And the panel confirmed that clear-error review
applies to the entire deliberate-indifference element,
holding that “an examination of his entire record
demonstrates that the district court did not commit
clear error in finding the defendants’ deliberate
indifference.” Id. at 1317. These findings are not
historical facts; they are the determinative facts that
make up a finding of subjective deliberate
indifference. See Brown, 387 F.3d at 1351. So
Thomas’s application proves that clear-error review
extends beyond the who, what, where, and when—it
extends to the entire deliberate-indifference element.
Thomas isn’t the outlier in our precedent—it’s
the norm. We have held time and again that subjective
deliberate indifference is a factual finding. See, e.g.,
Greason v. Kemp, 891 F.2d 829, 840 (11th Cir. 1990)
(holding at summary judgment that the “evidence
could support a finding that the conduct reflected a
deliberate indifference to [the prisoner’s] [E]ighth
[A]mendment right to adequate mental health care,”
and holding that whether “the conduct actually
constituted deliberate indifference . . . is a factual
question” (emphasis added in underline)); McElligott
v. Foley, 182 F.3d 1248, 1256 (11th Cir. 1999) (holding
at summary judgment that there “was sufficient
evidence to permit a jury to infer that the defendants
in this case knew of a substantial risk of harm to [the
prisoner]” and “to draw the conclusion that [the
62a

defendants] were not merely negligent” in providing
subpar care (emphasis added)). We review factual
findings like these for clear error. See, e.g., United
States v. Williams, 340 F.3d 1231, 1234 (11th Cir.
2003). We don’t dissect them with artificial labels,
defying prior precedent.
In fact, the type of review the majority presses
here echoes the sole instance where we do dissect facts
with artificial labels—our de novo review of
“constitutional facts” in First Amendment cases. In
those
cases,
the
constitutional
facts
are
determinative; they answer “why” a government actor
suppressed certain speech and whether its motives
were unconstitutional. See Am. Civil Liberties Union
of Fla., Inc. v. Miami-Dade Cty. Sch. Bd., 557 F.3d
1177, 1206 (11th Cir. 2009). We review those facts de
novo and accompanying historical facts for clear error.
See id. But this an exceedingly narrow exception—one
unique to First Amendment cases. See Flanigan’s
Enters., Inc. of Ga. v. Fulton Cty., Ga., 596 F.3d 1265,
1276 (11th Cir. 2010). We have never imported this
plenary factual review to an Eighth Amendment case.
Cf. Thomas, 614 F.3d at 1312. And yet, despite
Thomas, the majority does so now.
Third, the majority’s super-de-novo-review rule
proves unjustifiable when we consider how we review
subjective deliberate indifference after a jury trial
(rather than after a bench trial). For when a jury finds
that a defendant was deliberately indifferent, we don’t
retrace this finding de novo; we review the jury’s
finding for sufficient evidence. See Carswell v. Bay
Cty., 854 F.2d 454, 457 (11th Cir. 1988) (affirming a
jury’s finding of deliberate indifference because there
was sufficient evidence to reach that conclusion). Why
would we review subjective deliberate indifference for
63a

sufficient evidence after a jury trial, but de novo after
a bench trial? The answer is simple: We don’t. We
have never suggested in these cases that we somehow
revisit the factual finding of subjective deliberate
indifference de novo when reviewing the “ultimate”
Eighth Amendment violation. And the majority does
not point us to a single Eleventh Circuit case that does
so.
Turning to the second paragraph in its footnote,
the majority claims that there is no way that the
purportedly “mindless, mechanical box-checking” that
I described above marks the extent of our de novo
review over the ultimate Eighth Amendment
violation. See supra at 61–62. This is a mountain
made out of a molehill—of course our de novo review
has less teeth here than in most constitutional cases.
For one, the defendants here have conceded that the
objectively-serious-need element—one we review de
novo—is met, leaving us little to review on that side of
the coin. For another, our precedent has set up a clear,
two-part test for establishing an Eighth Amendment
violation, and one of those parts is a fact question,
leaving little to ultimately review de novo. See
Thomas, 614 F.3d at 1312. In other cases, like an
Equal Protection challenge or a Due Process case, our
ultimate review of the constitutional violation driving
the preliminary injunction is far more searching—the
questions there are almost entirely legal. But a
finding of subjective deliberate indifference is
different; it is heavily fact-intensive. See Greason, 891
F.2d at 837. Though we are just as equipped as the
district court to decide the legal question of whether a
medical need is objectively serious, the district court
is far better situated to analyze the subjective, stateof-mind question of a prison official’s deliberate
64a

indifference. See Salve Regina, 499 U.S. at 233 (noting
that deference is warranted when the district court is
better positioned decide the issue, as it is when
applying a fact-dependent legal standard). So our
“ultimate” de novo review, in the deliberateindifference context, is understandably more limited.
As its parting word, the majority notes that the
First Circuit, sitting en banc, rejected clear-error
review for subjective deliberate indifference,
ultimately applying the de novo review the majority
applies here. See Kosilek v. Spencer, 774 F.3d 63, 84
(1st Cir. 2014) (en banc). But that’s because the First
Circuit concluded that deliberate indifference is a
“[s]ubsidiary legal question,” not a fact question. Id.
That is, word for word, the opposite of what we held in
Thomas. See 614 F.3d at 1312. The First Circuit also
justified its de novo review of the deliberateindifference finding by citing our statement in
Thomas that the “ultimate legal conclusion of whether
prison administrators have violated the Eighth
Amendment is reviewed de novo.” 774 F.3d at 84. But,
as explained above, Thomas’s ultimate-de-novoreview rule only extends to the district court’s
application of the objective and subjective elements; it
does not empower us to rereview the subjectivedeliberate-indifference-finding de novo. See supra at
60– 62, 65–69. Finally, the Kosilek court was sitting
en banc; was not bound by prior precedent; and, so far
as Kosilek explains, did not have precedent squarely
holding that deliberate indifference is a question of
fact reviewed for clear error. We, in contrast, are not
sitting en banc; are bound by prior precedent; and do
have precedent squarely on point. See Thomas, 614

65a

F.3d at 1312. So Kosilek holds no weight in this
analysis. 13
*

*

*

In the end, “our first obligation—our oath” is to
follow the law. Majority Op. at 39 (citing 28 U.S.C. §
453). In the Eleventh Circuit, that means following
prior precedent. Thomas holds that subjective
deliberate indifference is a question of fact that we
review for clear error. We cannot refuse to apply this
holding simply because we disagree. Nor can we
reanalyze the issue for ourselves to overrule the prior
panel. If the majority has concerns about our
precedent, it should voice those concerns separately
for our en banc court. And it may have the chance to
do just that, as its disregard for our precedent has no
Another important fact: The First Circuit decided Kosilek with
a bare 3-2 majority, and the two dissenting judges strenuously
dissented from the majority’s de novo review of the subjectivedeliberate-indifference finding. Since we are not sitting en banc,
I need not explain—as the Kosilek dissenters did—why a court
might conclude that subjective deliberate indifference is a finding
best reviewed for clear error. But there are indeed reasons why a
court might do so. See 774 F.3d at 98–100 (Thompson, J.,
dissenting). As Justice Scalia noted in Ornelas v. United States,
“[l]aw clarification requires generalization, and some issues lend
themselves to generalization much more than others.” 517 U.S.
690, 703 (1996) (Scalia, J., dissenting). When the issues are factspecific and not easy to generalize, “probing appellate scrutiny
will not contribute to the clarity of legal doctrine” and deference
to the district court is warranted. Salve Regina, 499 U.S. at 233.
A subjective-deliberate-indifference inquiry is fact-specific,
motive- based, and not due for easy generalization. One could
thus say that deference to the district court is warranted, as an
appellate court cannot “hope to match the district judge’s
expertise in these areas.” Kosilek, 774 F.3d at 100. But we need
not say that—we have already made that determination. See
Thomas, 614 F.3d at 1312.
13

66a

doubt transformed this routine deliberate-indifference
case into one justifying en banc review.
C.
Having minted a new standard of review, the
majority applies it to reverse the district court at the
last deliberate-indifference step: Whether the FDC
“disregarded” a substantial risk of harm by “more
than mere negligence.” The district court found that
the FDC had for two reasons. First, the FDC denied
social transitioning because it blindly deferred to the
FDC’s clothing policy, effectively enacting a blanket
ban on social transitioning without case-specific
medical or security judgment. Second, the FDC denied
Keohane access to medical personnel competent
enough to realize that she needs to transition to avoid
severe self-harm. Reviewing de novo, the majority
replaces these findings with its own. It concludes that
the FDC denied treatment because medical
professionals disagreed with Keohane about her need
to transition and because the FDC concluded that the
security risks of the treatment were too great.
To reach that conclusion, though, our precedent
compels the majority to hold that the district court’s
findings were clearly erroneous. See Pelphrey, 547
F.3d at 1268. The majority doesn’t do so (and its
cursory footnote is no substitute for true clear-error
review). See Majority Op. at 29 n.8. In reality, the
majority takes the issue up anew, concluding that it
“simply cannot say that the FDC consciously
disregarded a risk of serious harm by conduct that was
more than mere negligence.” Majority Op. at 37
(internal quotation mark omitted).
As I explain below, that is the wrong approach.
Because both of the district court’s findings hold
67a

substantial footing in the record, we must affirm. See
Pelphrey, 547 F.3d at 1268.
1.
I’ll start with the blanket-ban finding. The
denial of medical care based on blind deference to a
blanket rule, rather than on an individualized medical
determination, violates the Eighth Amendment. See
Kosilek, 774 F.3d at 91; Roe v. Elyea, 631 F.3d 843, 862
(7th Cir. 2011); Colwell v. Bannister, 763 F.3d 1060,
1068 (9th Cir. 2014); Soneeya v. Spencer, 851 F. Supp.
2d 228, 247 (D. Mass. 2012); Brooks v. Berg, 270 F.
Supp. 2d 302, 310 (N.D.N.Y. 2003) (vacated in part on
other grounds). So does denying treatment for nonmedical reasons. McElligott, 182 F.3d at 1255. The
district court found that the FDC refused to consider
Keohane’s need for social transitioning because
treatment team members blindly deferred to prison
policy, without evaluating her specific circumstances.
That conduct arises to subjective deliberate
indifference. See Kosilek, 774 F.3d at 91; McElligott,
182 F.3d at 1255. And the record supports this finding.
For starters, one member of Keohane’s
treatment team admitted that she “never assessed
whether Ms. Keohane has a mental-health need for
longer hair or access to female undergarments
because . . . [the FDC’s] policies prohibit these things.”
She also admitted that she doesn’t think the FDC
would even permit a medical pass for social
transitioning, and so she focused Keohane’s therapy
“on coping without access to this particular
treatment.” The FDC’s regional medical director
further testified that she did not consider any medical
exceptions to the FDC’s clothing policy. And another
member of Keohane’s treatment team even conceded
68a

that the team discussed whether Keohane needed
access to female clothing, but ultimately concluded
that “it is out of our hands, that we understand, but
there’s nothing we can do.”
Perhaps more concerning, these blanket
denials didn’t start from the bottom; they came from
the top. The district court found that the FDC’s final
decisionmaker—its chief medical officer—would have
refused an exception even if treatment team members
had recommended it, solidifying the FDC’s blanket
ban on social transitioning. Indeed, the officer
testified that it would be a “hard sell” for him to grant
a medical exception for social transitioning, regardless
of the inmate’s particular needs. The district court
also found that the officer made this decision without
considering Keohane’s specific circumstances, as he
“has never decided this issue, nor has he been
presented with any medical request for any exceptions
to security policies to allow for social transitioning.” 14
Given the testimony from treatment team
members and the chief medical officer’s steadfast and
unreasoned refusal to consider social-transitioning
treatment, the record supports the district court’s
finding that the FDC categorically denied Keohane
Alongside this, the district court found that the chief medical
officer’s prejudgment was also born of “ignorance of gender
dysphoria and bigotry toward transgender individuals in
general,” further leading the court to conclude that the medical
officer’s refusal to provide treatment was categorical and not
based on medical need. The record supports this finding as well.
See Keohane, 328 F. Supp. 3d at 1306 & n.11 (noting that the
medical officer “thinks treating gender dysphoria by encouraging
the transition of gender roles ‘goes against nature’” and that the
officer admits that his religion plays into his views on
transgender people in general).

14

69a

treatment under a blanket policy, without considering
her individual circumstances. As all agree,
“responding to an inmate’s acknowledged medical
need with what amounts to a shoulder-shrugging
refusal even to consider whether a particular course of
treatment is appropriate is the very definition of
‘deliberate indifference’—anti-medicine, if you will.”
Majority Op. at 14. Since this finding is not clearly
erroneous, we must affirm it, even if we would have
found differently. See Multiponics, 622 F.2d at 723.
And yet the majority does find differently: It
crowns security king. Citing out-of-circuit precedent,
the majority holds that the FDC can shrug off
Keohane’s medical need if it decides that the security
risks of the treatment outweigh its necessity. See
Kosilek, 774 F.3d at 92. We need not get into the limits
of this rule today, 15 because that’s not what happened
here. More specifically, that’s not what the district
court found happened here. The district court did not
conclude that the FDC denied treatment because it
considered Keohane’s need for social transitioning and
decided that the security risks outweighed her need.
The court found that the FDC did not consider
necessity or security at all when denying treatment,
because prison officials blindly deferred to the FDC’s
clothing policy. Said differently, prison officials denied
treatment because of the policy, not because of their

Although there must be some limits—I would be deeply
troubled if the majority thought that a prison can withhold truly
life-saving treatment for security’s sake. See Brown v. Plata, 563
U.S. 493, 511 (2011) (“A prison that deprives prisoners of basic
sustenance, including adequate medical care, is incompatible
with the concept of human dignity and has no place in civilized
society.”).
15

70a

views on her need for the treatment or the security
risks it presents.
That situation fails even under Kosilek, the
case from which the majority draws its security
exception. Kosilek held that so “long as prison
administrators make judgments balancing security
and health concerns that are ‘within the realm of
reason and made in good faith,’ their decisions do not
amount to a violation of the Eighth Amendment.” Id.
A fair enough rule—prison administrators can of
course balance a prisoner’s need for treatment with
security concerns and fairly conclude that the risks
outweigh the need. But the prison must “balance” the
competing interests—something that the district
court found the FDC did not do. In the district court’s
view, the FDC did not balance Keohane’s medical
needs with prison security and decide that security
carried the day. Prison officials denied treatment
solely because they thought prison policy forbade
social transitioning— the strength of Keohane’s
medical need had nothing to do with it. A prison
cannot balance security over medical necessity if it
never factored medical necessity into the analysis. So
the district court’s finding that the FDC failed to
consider Keohane’s medical need when denying her
treatment precludes the FDC from claiming that
security won the day, leaving it liable for its deliberate
indifference. See id. at 91; Roe, 631 F.3d at 862;
Colwell, 763 F.3d at 1068; McElligott, 182 F.3d at
1255; Soneeya, 851 F. Supp. 2d at 247.
Worse, the FDC didn’t just fail to consider
Keohane’s medical need; it failed to consider security
too. Prison officials did not evaluate the security risks
of social transitioning and deem them too great—they
assumed that FDC policy would always forbid the
71a

treatment, and that was the end of it. Based on this
belief, treatment team members “couldn’t even fathom
requesting an exception to [the policy] even if the
inability to socially transition drives a patient to
suicide.” Nor did they elevate the issue to the chief
medical officer—the one who has the final say on
granting medical exceptions to security policy. So far
as her treatment team was concerned, “Keohane
simply can’t transition because [the FDC] does not
permit inmates housed in its male facilities access to
the clothing and grooming standards it applies to
female inmates.” A weighing of security risks had no
role in the matter.
Adding insult to injury, treatment team
members were wrong that security policy always
forbids social transitioning. Contrary to their view,
the FDC’s security representative testified that
medical staff—not security staff—has the ultimate
say in granting a medical exception to prison security
policy. The representative even listed examples of how
the FDC could accommodate social transitioning,
despite potential security risks. The FDC’s chief
medical officer affirmed this procedure, testifying that
medical (not security) makes the final call when it
comes to medical exceptions. And the FDC confirmed
this procedure yet again here, stipulating that it
would accommodate social transitioning “if having
longer hair or female undergarments or makeup were
deemed to be medically necessary for an inmate with
gender dysphoria.” 16
16 This policy makes sense. When “society takes from prisoners
the means to provide for their own needs,” prisons must provide
the “necessary medical care.” Plata, 563 U.S. at 510. If necessary
medical care creates security concerns, the prison must make
accommodations. The FDC does just that: If medical officials say

72a

In sum, then, medical staff, not security policy,
has the final say on whether security risks outweigh
medical need. Yet, in a catch-22, medical staff denied
social transitioning here because they thought that
security policy barred social transitioning. And while
the staff pointed fingers, no one evaluated whether the
security risks of social transitioning outweighed
Keohane’s specific medical need.
Which brings us to what distinguishes this case
from Kosilek. There, unlike here, the record showed
that prison officials extensively considered the
inmate’s medical need and whether the requested
treatment would create security concerns, ultimately
concluding that the need was too little and the
concerns were too great. See Kosilek, 774 F.3d at 73–
75, 79–84 (chronicling the prison’s in-depth security
balancing); id. at 95 (“[T]he [prison] testified
consistently that it believed the postoperative security
concerns surrounding Kosilek’s treatment were
significant and problematic.”). The record here shows,
by contrast, that Keohane’s medical need and the
security risks of her treatment played zero part in the
FDC’s decision to withhold social transitioning. That
decision was driven by blind deference to FDC policy,
without regard for medical need, no matter how dire
the straits.

something is medically necessary, security officials make it work.
But security officials never considered how to make social
transitioning work here, because the treatment team never tried
to seek an exception. Even though the FDC’s own policy makes
clear that security bends the knee to medicine, Keohane’s
treatment team washed its hands of the matter the moment it
concluded that FDC policy forbids social transitioning. That
arises to deliberate indifference. See Kosilek, 774 F.3d at 91.

73a

In the end, the district court said it well:
“What’s clear from the treatment team’s testimony is
that everybody knows Ms. Keohane has harmed
herself and attempted suicide, but still, nobody has
requested any exceptions to [the FDC’s] male
grooming and clothing policies to treat her gender
dysphoria.” They failed to do so not because they
balanced security risks with individual medical need,
but because they (erroneously) thought that prison
policy forbade social transitioning, regardless of the
circumstances. That situation does not fall within
Kosilek’s security exception. It is a categorical, blanket
ban on social transitioning and a level of disregard
that rises above mere negligence. See id. at 91;
Colwell, 763 F.3d at 1068; McElligott, 182 F.3d at
1255. Since this finding is well supported by the
record, we must affirm. See Pelphrey, 547 F.3d at
1268.
2.
Next is the incompetent-personnel finding. A
prison official disregards a substantial risk of harm by
more than mere negligence when the official provides
physicians who are incompetent to adequately treat a
prisoner’s serious medical need. See Ancata v. Prison
Health Servs., Inc., 769 F.2d 700, 704 (11th Cir. 1985).
The record shows that Keohane’s treatment team was
not qualified to treat her illness and thus provided
subpar care. As the district court found, no member of
Keohane’s treatment team had ever treated a pretransition patient with gender dysphoria. In fact, most
of her team members had never treated a patient with
gender dysphoria, period. Team members were not
trained in the World Professional Association for
Transgender Health (WPATH) standards—standards
that the district court (and many others) have found
74a

authoritative for treating gender dysphoria in prison.
See also Edmo v. Corizon, Inc., 935 F.3d 757, 769 (9th
Cir. 2019) (collecting cases). Keohane’s treatment
team leader conceded that she was not qualified to
decide whether Keohane needed social transitioning.
And the FDC’s chief medical officer admitted that he
“doesn’t know one way or the other if social
transitioning is helpful in treating gender dysphoria,”
even though that treatment is standard for treating
the illness.
To this adds that the FDC’s staff psychiatrist—
a psychiatrist the FDC brought in post-litigation to
say that Keohane doesn’t need social transitioning—
admitted that he lacked knowledge about the proper
standard of care for gender dysphoria, that he had
only read the parts of Keohane’s record relevant to her
psychiatric need (Keohane has never taken
psychiatric medication while in FDC custody), and
that he had never before “evaluated anyone in prison
to determine a medical need for access to clothing or
grooming standards to treat gender dysphoria.” This
led the district court to fairly conclude that his views
deserved little, if any weight.
Prison officials have a tough job, but the
Constitution requires that they be prepared to treat
the inmates they take into their custody. See Ancata,
769 F.2d at 704. The record here shows that the FDC
was ill-equipped to treat Keohane’s gender dysphoria,
which ultimately led it to withhold necessary socialtransitioning treatment. The district court was
therefore within its bounds to find that the FDC’s
incompetence arose to disregard by more than mere
negligence. And the majority’s paragraph-long
footnote replacing this detailed finding with its own
only confirms that the majority is not reviewing for
75a

clear error, as it must under our precedent. See
Thomas, 614 F.3d at 1312.
3.
Despite the district court’s findings, the
majority colors this case one of disagreement, not
disregard. The argument is this: The FDC did not
disregard a substantial risk of harm by more than
mere negligence, because “members of Keohane’s
medical-treatment team, Wexford’s staff psychiatrist,
the FDC’s chief clinical officer, and the FDC’s retained
expert” merely disagreed with Keohane and genuinely
believed that hormone therapy sufficed to treat her
gender dysphoria. The majority also taps Kosilek
again for help, claiming that there, as here, medical
officials disagreed over the right course of treatment.
This analysis is off for a few reasons. Chief
among them, and as I said before, the district court
found that the treatment team’s position on Keohane’s
need for social transitioning played zero role in its
decision to withhold treatment. Without ruling that
this finding was clearly erroneous, we cannot hold
that the district court’s ruling was incorrect. See
Pelphrey, 547 F.3d at 1268.
At any rate, the majority couldn’t hold that the
court’s findings were clearly erroneous even if it
applied the right standard. This is because there is no
genuine dispute or difference in medical opinion in
this record. Both experts agreed at trial that Keohane
should have this treatment. Team members
recognized that Keohane remained in pain despite
hormone therapy and knew that social conditioning
could help her pain. And the district court found that
the few officials who said social transitioning was
unnecessary were incompetent and incredible.
76a

Starting with the experts, Keohane’s trial
expert testified that social transitioning was
medically necessary to treat Keohane’s severe gender
dysphoria. The FDC’s trial expert also testified that
medically necessary treatment can be treatment that
is “psychologically pleasing to the patient” (sensible
enough— gender dysphoria is, of course, a
psychological illness). The expert then agreed that
letting Keohane wear female underwear and grow out
her hair would be “psychologically pleasing” to her. He
also noted that Keohane could be vulnerable to “acute
decompensation” and would have “a suicidal ideation
and crisis” if she were denied access to social
transitioning. Given that the experts agreed that this
treatment would be deeply helpful for Keohane’s
mental state (and that she would be at great risk of
self-harm without it), the court fairly found that
“[e]xperts on both sides agreed at trial that [the FDC]
should allow Ms. Keohane access to female clothing
and grooming standards to treat her gender
dysphoria.” 17

The majority thinks that I believe an inmate is always entitled
to medical care that is “psychologically pleasing.” I believe no
such thing. My view—and what the law requires—is that a
prison must provide an inmate with medical care that is
psychologically pleasing if that care is medically necessary. See
Plata, 563 U.S. at 510. Here, the FDC’s expert opined that care
that is “psychologically pleasing” can be medically necessary for
a patient with gender dysphoria. Given this testimony, the
expert’s accompanying testimony, and other medical testimony
in the case, the district court found that there was no genuine
dispute: Social transitioning is medically necessary to treat the
psychological harm flowing from Keohane’s severe gender
dysphoria. So, to be clear, it does not matter if care is pleasing to
an inmate; all that matters is whether the care is medically
necessary. For a psychological illness like gender dysphoria,
17

77a

Along with this, treatment team members
knew that Keohane remained in serious pain despite
receiving hormone therapy. They knew that she still
suffered from suicidal ideation and severe
psychological harm. They also knew the cause of this
pain: Keohane’s inability to express herself as a
woman. Keohane told them so in grievance after
grievance. She told them again at trial. And her words
weren’t her only symptoms. She also tried to kill
herself twice after a string of forced haircuts—first by
hanging herself with a sheet from her bunk, and then
by tying a pants leg around a door handle, tying the
other leg around her neck, and sitting down on the
floor to cut off the blood flow.
And that’s not all treatment officials knew.
They also knew that social transitioning is an effective
way to treat gender dysphoria. According to one team
member, “[i]t allows you to express yourself in the
gender that you feel yourself to be . . . [and i]t helps
with self-esteem, it helps with expression, [and] it
helps with . . . emotions.” Team members also knew
that an individual may need both hormone therapy
and social transitioning to adequately treat the
disease.
To be sure, there were a few prison officials who
testified that they don’t think Keohane needs social
transitioning. Putting aside the fact that this is not
why they denied her treatment, see supra at 72–79,
the district court also found them incompetent and
their views incredible. Some of these officials think
that a treatment is not medically necessary unless it
is a matter of life or death—a frighteningly incorrect
then, it makes perfect sense that medically necessary treatment
might be treatment that eases the inmate’s psychological pain.

78a

view of medical necessity. See Keohane, 328 F. Supp.
3d at 1310; Gayton v. McCoy, 593 F.3d 610, 620 (7th
Cir. 2010) (“A medical condition need not be lifethreatening to be serious; rather, it could be a
condition that would result in further significant
injury or unnecessary and wanton infliction of pain if
not treated.”). These witnesses also lack experience
with WPATH standards and gender dysphoria in
general. See supra at 79–81. And the court gave “little
if any weight” to the FDC’s staff-psychiatrist-turnedarmchair-quarterback, because he was not an expert,
was not a treating physician, had spoken with
Keohane for less than an hour, had not reviewed
Keohane’s history of self-harm, and had reviewed only
the psychiatric section of her chart (even though she
has never taken psychiatric medicine while in FDC
custody). So even if medical disagreement could have
played into the FDC’s social-transitioning ban (it did
not), there is still no credible medical testimony in this
record saying that Keohane does not need social
transitioning. As the reviewing court, we must respect
these credibility determinations, not remake them.
See Salve Regina, 499 U.S. at 233.
Which again brings us to why Kosilek does not
apply. There, unlike here, the record showed that
medical officials were genuinely and fervently divided
on the appropriateness of gender-reassignment
surgery. Several prison doctors concluded, without
reservation, that gender-reassignment surgery was
not medically necessary. One doctor even testified
that surgery was the wrong treatment for the
prisoner. Kosilek, 774 F.3d at 72. There was also a
decreased risk of self-harm, as the prisoner had not
tried to harm herself throughout her twenty-year
incarceration. Id. at 69.
79a

We have just the opposite. Keohane’s selfdestructive tendencies have only ramped up in recent
years. See supra at 52, 83. Keohane’s expert says
social transitioning is medically necessary. The FDC’s
expert testified that social transitioning would be
“psychologically pleasing” for Keohane, which, in the
expert’s view, can be a medically necessary treatment
for a psychological illness like gender dysphoria. And
everyone on Keohane’s treatment team failed to factor
Keohane’s need for the treatment into their decisions
(either because of unyielding deference to prison
policy or a warped view of medical necessity and
Keohane’s medical situation).
Given all this, the district court was within its
bounds to find that the FDC denied treatment not
because of a genuine belief that social transitioning
was unnecessary, but because of blind deference and
medical incompetence. The majority does not explain
how these findings lack record support. Nor could it,
as it is ill-suited to make the credibility
determinations that were key to this case. See Salve
Regina, 499 U.S. at 233. Yet it beats on anyway,
annexing the district court’s role to reweigh the
evidence, remake the credibility determinations, and
thus refind de novo that there was no disregard by
more than mere negligence. Contra Pelphrey, 547 F.3d
at 1268.
4.
To wrap up, the majority tries to distinguish
several cases holding that the failure to provide socialtransitioning treatment arises to deliberate
indifference. In footnote 11, it gives three reasons for
why these cases do not apply. Each reason falls flat.
80a

First, the majority says that, in those cases,
medical providers all agreed that a certain medical
treatment for gender dysphoria was medically
necessary, while here they don’t. That is both wrong
and irrelevant. It is wrong because medical providers
in those cases did not all agree that a given type of
treatment was necessary. See, e.g., Hicklin v.
Precynthe, 2018 WL 806764, at *12 (E.D. Mo. Feb. 9,
2018) (noting that the regional medical director in
that case stated that permanent hair removal was not
medically necessary). And it is irrelevant because,
again, the views of Keohane’s treatment team had no
role in its decision- making. Team members blindly
deferred to prison policy, which caused them to deny
care. As shown in the cases that the majority tries to
distinguish, that level of neglect arises to deliberate
indifference. See, e.g., Kosilek, 774 F.3d at 91;
Soneeya, 851 F. Supp. 2d at 247.
Second, the majority claims that prison officials
in those cases denied care under a blanket ban, but
here the FDC has rescinded the freeze-frame policy
and has conceded that it will grant exceptions if social
transitioning is medically necessary. This is a
misdirection. The FDC’s freeze-frame policy has
nothing to do with its general security policy requiring
all inmates to dress as their biological sex. And the
district court found that the treatment team here
denied treatment under a blanket ban. See supra at
72–79. Given the treatment team’s unwavering
deference to FDC policy and the chief medical officer’s
staunch refusal to provide social transitioning in any
circumstance, the court was right to treat Keohane’s
case as a blanket-ban case. See, e.g., Soneeya, 851 F.
Supp. 2d at 247.
81a

Third, the majority says that it was clear in
those cases that the patient’s health was declining,
but here the evidence shows that Keohane’s symptoms
improved after she received hormone therapy. That
distinction is hollow for two reasons.
One, it can be true that Keohane’s treatment
team knew that hormone therapy was helping and
also knew that she still suffered from significant
distress due to her lack of social transitioning. These
facts are not mutually exclusive— although Tylenol
dulls the pain of a gunshot wound, the patient still
needs stitches. See Ancata, 769 F.2d at 704 (“Although
the plaintiff has been provided with aspirin, this may
not constitute adequate medical care. If, ‘deliberate
indifference caused an easier and less efficacious
treatment’ to be provided, the defendants have
violated the plaintiff’s Eighth Amendment rights by
failing to provide adequate medical care.”); Soneeya,
851 F. Supp. 2d at 246–50 (holding that a blanket ban
on laser hair removal and surgery arose to deliberate
indifference even though the transgender plaintiff
was
receiving
some
treatment,
including
18
psychotherapy and hormones). So it does not matter
if Keohane’s treatment team believed that hormone
therapy was helping. That evidence does not detract
from the evidence showing that the FDC also knew
See also De’lonta v. Johnson, 708 F.3d 520, 526 (4th Cir. 2013)
(“By analogy, imagine that prison officials prescribe a painkiller
to an inmate who has suffered a serious injury from a fall, but
that the inmate’s symptoms, despite the medication, persist to
the point that he now, by all objective measure, requires
evaluation for surgery. Would prison officials then be free to deny
him consideration for surgery, immunized from constitutional
suit by the fact they were giving him a painkiller? We think
not.”).
18

82a

that Keohane was still suffering from her inability to
transition and yet did nothing more to treat her pain.
Two, the district court found that the FDC
knew that Keohane was suffering greatly because of
its refusal to provide social transitioning. See
Keohane, 328 F. Supp. 3d at 1314–15; supra at 83. The
court also discredited testimony from treatment team
officials claiming that they thought hormone therapy
was enough to treat her pain. See supra at 83–84. So
the majority is again disregarding the district court’s
finding (without engaging in meaningful clear-error
review) and placing greater weight on facts it prefers.
Contra Pelphrey, 547 F.3d at 1268.
Despite the majority’s framing, this case is very
similar to cases across the country holding that the
categorical refusal to adequately treat gender
dysphoria amounts to deliberate indifference. See,
e.g., Hicklin, 2018 WL 806764, at *11 (“Ms. Hicklin
has presented compelling evidence that Defendants’
refusal to provide her with hormone therapy after her
diagnosis is based on the Policy rather than on a
medical judgment concerning Ms. Hicklin’s specific
circumstances.”); Soneeya, 851 F. Supp. 2d at 248
(“The DOC cannot, therefore, claim that Ms. Soneeya
is receiving adequate treatment for her serious
medical needs because it has not performed an
individual medical evaluation aimed solely at
determining the appropriate treatment for her GID
under community standards of care.”).
In fact, a recent Ninth Circuit opinion
highlights the ways the majority has gone wrong. See
Edmo, 935 F.3d 757. Our sister circuit there affirmed
a district court’s holding that the failure to provide
gender-reconstruction surgery arose to deliberate
83a

indifference, and it did so on a similar posture. There,
as here, the state argued that theirs was simply a case
of dueling medical opinions. And there, as here, the
district court found that this was not so, crediting the
prisoner’s experts’ view that surgery was medically
necessary, and discrediting the state’s experts because
they lacked necessary experience.
On appeal, the Ninth Circuit took the district
court’s credibility findings as true, recognizing that,
absent clear error, “it is not our role to reevaluate
them.” Id. at 787. Given the district court’s findings,
the appellate court agreed that surgery was medically
necessary. Id. at 790. Then—again lending deference
to the district court’s findings—the appellate court
affirmed that the state was deliberately indifferent to
the prisoner’s serious medical need because the state
knew that the prisoner had engaged in substantial
self-harm due to her gender dysphoria and yet
continued to provide ineffective treatment. Id. at 793.
Finally, the court rejected the argument that, since
the state had provided at least some treatment for
gender dysphoria, it was not deliberately indifferent
to the prisoner’s medical needs. In doing so, the
appellate court recognized that the “provision of some
medical treatment, even extensive treatment over a
period of years, does not immunize officials from the
Eighth Amendment’s requirements.” Id. Because the
state did not provide medically necessary care—there,
gender-reconstruction surgery—it was liable for
deliberate indifference, even if it provided other care.
The Ninth Circuit got it right, and its analysis
leads us to the right result here. The district court
found that FDC officials deferred to a blanket policy
and were incompetent to treat Keohane’s gender
dysphoria. It also found that, for both those reasons,
84a

they denied her access to social transitioning—a
treatment that the district court found as medically
necessary to treat Keohane’s gender dysphoria. That
amounts to deliberate indifference. See Kosilek, 774
F.3d at 91; McElligott, 182 F.3d at 1255. And none of
these findings are clearly erroneous, because they rest
on a wealth of evidence, and because they necessarily
rely
on
the
district
court’s
credibility
determinations—determinations that we are not
equipped to make. See Salve Regina, 499 U.S. at 233.
As a result, I would affirm. 19
*

*

*

Our role on appeal is not to reweigh the
evidence or recreate factual findings. That is for good
reason: We did not attend the hearing; we did not hear
the testimony; we did not see the record develop. We
must therefore defer to the district court’s findings,
accepting them as true unless the record leaves us
with a firm and definite conviction that the court
made a mistake. It does not matter if, after reviewing
the record, we would have found differently. See
Multiponics, 622 F.2d at 723 (“Merely because a
reviewing Court on the same evidence may have
reached a different result will not justify setting a
The majority says that our case is more like Kosilek, and less
like Edmo, because the security concerns present in Kosilek were
not present in Edmo. See Majority Op. at 37 n.14. Yet that is
exactly what makes this case closer to Edmo than Kosilek: The
FDC did not consider security concerns here; it blindly deferred
to prison policy without considering whether security concerns
outweighed Keohane’s specific medical need. As the Ninth
Circuit recognized, the government in Kosilek considered
“significant security concerns that would arise if the prisoner
underwent [gender-reconstruction surgery].” Edmo, 935 F.3d at
794. Here, as in Edmo, the FDC did no such thing.
19

85a

finding aside.”). All that matters is that the record
supports the district court’s findings of fact. See id.
The majority ignores this standard of review
today, turning our court into a district court in the
process. It does not explain how the district court’s
findings on deliberate indifference lack support; it
simply believes that its own findings are better. That
is not the law. Because this record supports the
district court’s findings, we should affirm them, not
shake the magic 8-ball until it gives us a different
result. And on those findings, the FDC is liable for
deliberate indifference to Keohane’s gender
dysphoria. I dissent.

86a

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14096
________________________
D.C. Docket No. 4:16-cv-00511-MW-CAS
REIYN KEOHANE,
Plaintiff - Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
[Date Filed: December 3, 2020]
Before WILLIAM PRYOR, Chief Judge, WILSON,
MARTIN, JORDAN, ROSENBAUM, JILL PRYOR,
NEWSOM, BRANCH, GRANT, LUCK, LAGOA, and
BRASHER, Circuit Judges.
BY THE COURT:
A petition for rehearing having been filed and a
member of this Court in active service having
requested a poll on whether this appeal should be
reheard by the Court sitting en banc, and a majority
of the judges in active service on this Court having
87a

voted against granting rehearing en banc, it is
ORDERED that this appeal will not be reheard en
banc.
WILLIAM PRYOR, Chief Judge, joined by BRANCH,
Circuit Judge, statement respecting the denial of
rehearing en banc:
I voted with the majority not to rehear this
appeal en banc. I write separately to explain why my
dissenting colleague is wrong to assert that a grant of
en banc review is somehow objectively “demand[ed]”
or is “an obligation,” Dissenting Op. at 23, 45–46, in
this appeal or any other. No statute, precedent, rule,
or internal operating procedure imposes such an
obligation. The decision to grant en banc review is
always discretionary and disfavored.
No source of law obligates us to hear any appeal
en banc. To be sure, a statute grants us the authority
to hear appeals en banc. See 28 U.S.C. § 46(c). And a
rule elucidates some procedural aspects of en banc
review. See Fed. R. App. P. 35. We have added details
of our own. See 11th Cir. R. 35-1–35-10; Fed. R. App.
P. 35, IOP 1–9. But none of those rules requires us to
hear any appeals en banc.
Precedent points in the same direction. The
Supreme Court long ago explained that the statute
permitting en banc review “vests in the court[s of
appeals] the power to order hearings en banc.” W. Pac.
R.R. Case, 345 U.S. 247, 250 (1953). But “[i]t goes no
further. It neither forbids nor requires each active
member of a Court of Appeals to entertain each
petition for a hearing or rehearing en banc.” Id. Ten
years later, the Supreme Court reaffirmed this view:
“the rights of the litigant go no further than the right
to know the administrative machinery that will be
88a

followed and the right to suggest that the en banc
procedure be set in motion in his case.” Shenker v.
Balt. & Ohio R.R. Co., 374 U.S. 1, 5 (1963). And more
recently, the Supreme Court acknowledged yet again
that “[r]ehearing [e]n banc is a discretionary
procedure employed only to address questions of
exceptional importance or to maintain uniformity
among Circuit decisions.” Missouri v. Jenkins, 495
U.S. 33, 46 n.14 (1990) (emphasis added); see also
Bryan A. Garner et al., The Law of Judicial Precedent
§ 61, at 496 (2016) (“The decision to grant a petition
for hearing or rehearing en banc, or to initiate en banc
review on the court’s own motion, is discretionary.”);
16AA Charles A. Wright et al., Federal Practice and
Procedure § 3981.1, at 496 (5th ed. 2020)
(“Consideration en banc rests in the discretion of the
court of appeals.”). The Supreme Court has described
this process as “essentially a policy decision of judicial
administration.” Moody v. Albemarle Paper Co., 417
U.S. 622, 627 (1974).
The grant of en banc review is and should be
rare. The Federal Rules of Appellate Procedure say so:
“An en banc hearing or rehearing is not favored . . . .”
Fed. R. App. P. 35(a). Practical considerations confirm
why: “[T]he institutional cost of rehearing cases en
banc is extraordinary. . . . It is an enormous
distraction to break into [our regular] schedule and tie
up the entire court to hear one case en banc.” Bartlett
ex rel. Neuman v. Bowen, 824 F.2d 1240, 1243 (D.C.
Cir. 1987) (Edwards, J., concurring in denial of
rehearing en banc). After all, a panel of three judges
has already spent considerable resources deciding the
appeal once. For that reason, we and our sister circuits
have said again and again that the “heavy artillery” of
en banc review should be used rarely. United States v.
89a

Hogan, 986 F.2d 1364, 1369 (11th Cir. 1993); see, e.g.,
Mitts v. Bagley, 626 F.3d 366, 369–71 (6th Cir. 2010)
(Sutton, J., concurring in denial of rehearing en banc);
Kane County v. United States, 950 F.3d 1323, 1324
(10th Cir. 2020) (Phillips, J., concurring in denial of
rehearing en banc); Church of Scientology of Cal. v.
Foley, 640 F.2d 1335, 1339–42 (D.C. Cir. 1981) (en
banc) (Robinson, J., dissenting).
Because en banc review is both discretionary
and disfavored, reasonable minds can differ about
whether it is appropriate in a particular case. Indeed,
the problem of deciding whether to grant en banc
review is evergreen; a judge wrestling with the
decision decades ago remarked that sometimes “one
judge’s case of ‘exceptional importance’ is another
judge’s ‘routine or run-of-the-mill’ case.” Bartlett, 824
F.2d at 1242 (Edwards, J., concurring in denial of
rehearing en banc). Judges can reasonably disagree
about the best way to allocate our judicial resources.
And, of course, I never take any colleague’s
disagreement personally. Cf. Dissenting Op. at 24 n.1.
For the same reason, disagreements about whether to
grant rehearing do not warrant attacks on the
integrity of judges or their commitment to the rule of
law nor, good grief, on the legitimacy of this Court. See
id. at 23–24 & n.1, 28–29, 41–42, 45.
NEWSOM, Circuit Judge, joined by LUCK, Circuit
Judge, concurring in the denial of rehearing en banc:
I offer the following pre-buttal to Judge
Rosenbaum’s dissent from the denial of rehearing en
banc.
Before jumping into the merits, let me say this
by way of introduction: More often than not, any
writing’s persuasive value is inversely proportional to
90a

its use of hyperbole and invective. And so it is with
today’s dissental—which, rather than characterizing,
I’ll let speak for itself. 1 Among other things, the
dissental accuses me—as the author of the panel
opinion—of
“inaccurately
purport[ing]”
(and
alternatively “claiming”) “to apply the governing prior
precedent” in Thomas v. Bryant, 614 F.3d 1288 (11th
Cir. 2010), “reimagin[ing]” Thomas’s holding,
construing Thomas “as [I] pleased,” “pretending” that
Thomas sanctioned a standard of appellate review
that it “demonstrably did not,” “distort[ing] beyond
recognition” this Court’s prior-panel-precedent rule
and “remold[ing]” it into an “unrecognizable and
dangerous form,” and now, in this opinion, of engaging
in “distraction tactics.” Rosenbaum Dissenting Op. at
23, 24, 26, 28, 30, 32, 42, 43, 44.
And there’s so much more where that came
from. The dissental saves its most biting criticism—
and its most soaring rhetoric—for the seven judges
who voted against rehearing. All of us, the dissental
not so subtly implies, cast our votes simply because we
“agree[d] . . . with the ultimate outcome” of the panel
opinion. Id. at 24. In declining to rehear the case, the
dissental charges, we have blessed a “rogue
interpretation of the prior-precedent rule,” sanctioned
a “critical threat to the stability and predictability of
the law,” and thereby unleashed “potentially
devastating consequences.” Id. at 23, 45.

For the most part, I’ll use the term “dissental” to refer to Judge
Rosenbaum’s dissent from the denial of rehearing en banc,
thereby distinguishing it from Judge Wilson’s panel-stage
dissent. See Alex Kozinski & James Burnham, I Say Dissental,
You Say Concurral, 121 Yale L.J. Online 601 (2012).
1

91a

Strong words. Not a one of them true. Allow me
to turn down the volume and provide a little
perspective.
I
I begin with a brief factual summary.
Reiyn Keohane is a Florida inmate currently
serving a 15-year sentence for attempted murder.
Keohane was born anatomically male, but she began
to identify as female sometime during her
preadolescent years. Beginning at age 14—and up
until the time she was incarcerated at 19—Keohane
wore women’s clothing, makeup, and hairstyles. At 16,
she was formally diagnosed with gender dysphoria.
About six weeks before the arrest that eventually
landed her in prison, Keohane began hormone therapy
under the care of a pediatric endocrinologist. See
Keohane v. Fla. Dep’t of Corr. Sec’y, 952 F.3d 1257,
1262 (11th Cir. 2020).
Upon her incarceration in a Florida prison,
Keohane requested (as relevant here) two forms of
treatment. First, she sought to continue hormone
therapy. That request was initially denied for reasons
that have no real bearing on my colleague’s dissental
and that I therefore won’t belabor. See id. at 1262–63.
In short, though, not long after Keohane filed suit, the
Florida Department of Corrections reversed course
and referred Keohane to an outside endocrinologist,
who immediately prescribed her hormone therapy.
See id. at 1263. The panel majority held that the
FDC’s decision to grant Keohane’s hormone-therapy
request mooted her challenge to the initial denial of
that treatment. See id. at 1270–72. The dissental
doesn’t take issue with the panel’s mootness
determination, so for present purposes we can leave
92a

the hormone-therapy requests to the side. See
Rosenbaum Dissenting Op. at 30 n.3.
Second, and separately, Keohane requested the
ability to engage in “social transitioning”—in
particular, she asked to wear female undergarments
and makeup, and to grow out her hair in a long,
feminine style. Keohane, 952 F.3d at 1263. The FDC
refused Keohane’s social-transitioning requests on the
grounds that they violated prison policy—which
required male inmates to wear “[u]nder shorts” and to
“have their hair cut short to medium uniform length
at all times with no part of the ear or collar covered,”
Fla. Admin. Code r. 33-602.101(2), (4)—and that they
posed a security risk. Keohane, 952 F.3d at 1263. Most
notably, the FDC expressed concern that an inmate
wearing makeup and female undergarments would
inevitably become a target in an all-male prison,
thereby endangering not only the inmate but also the
prison employees who would have to step in to protect
her. Id. The FDC also (and relatedly) determined that
there were clear advantages to maintaining
uniformity in a prison setting, including the ability to
more readily detect contraband. Id.
As relevant to the concerns raised in the
dissental, the district court held that by refusing
Keohane’s social-transitioning requests, Florida
prison authorities were “deliberately indifferent” to
Keohane’s serious medical needs in violation of the
Eighth Amendment. Id. at 1264–65. Accordingly, the
court entered an injunction ordering prison officials to
“permit Ms. Keohane to socially transition by allowing
her access to female clothing and grooming
standards.” Id. at 1265. On appeal, the panel held
(again, as relevant here) that the FDC did not violate
the Eighth Amendment by refusing to accommodate
93a

Keohane’s social-transitioning-related requests, and
we therefore vacated the district court’s injunction.
See id. at 1272–80. In so doing, we reviewed de novo
the district court’s ultimate determination that there
was an Eighth Amendment violation, and we reviewed
subsidiary issues of fact for clear error. See id. at 1272
& n.8 (citing Thomas v. Bryant, 614 F.3d 1288 (11th
Cir. 2010)).
II
Next, a bit of necessary legal background: A
deliberate-indifference claim entails two components,
the latter of which entails three sub-components. See
Hoffer v. Sec’y, Fla. Dep’t of Corr., 973 F.3d 1263, 1270
(11th Cir. 2020). First, the inmate must establish “an
objectively serious medical need”—that is, “one that
has been diagnosed by a physician as mandating
treatment or one that is so obvious that even a lay
person would easily recognize the necessity for a
doctor’s attention”—that, “if left unattended, poses a
substantial risk of serious harm.” Id. (quotation
marks omitted). Second, the inmate must prove that
prison officials acted with deliberate indifference to
that need by showing (1) that they had “subjective
knowledge of a risk of serious harm” and (2) that they
“disregarded” that risk (3) by conduct that was “more
than gross negligence.” Id.
Here, there’s no debate about the first
component—everyone agrees that Keohane’s gender
dysphoria constitutes a serious medical need. Rather,
the parties’ dispute (and the dissental’s concern)
hinges on the application of—and in particular our
review of—the second component.

94a

III
Today’s dissental is predicated on an assertion
that the panel only “purport[ed] to follow,” but instead
strategically “reimagine[d],” this Court’s earlier
decision in Thomas v. Bryant, 614 F.3d 1288 (11th Cir.
2010), when we held that the de novo—rather than the
clear-error—standard of review applied to the district
court’s determination that prison officials violated the
Eighth Amendment in refusing Keohane’s socialtransitioning requests. See Rosenbaum Dissenting
Op. at 26, 29, 43. And because the panel turned its
back on Thomas, the dissental asserts, it violated this
Court’s prior-panel-precedent rule, pursuant to which
“a prior panel’s holding is binding on all subsequent
panels unless and until it is overruled or undermined
to the point of abrogation by the Supreme Court or by
this court sitting en banc.” United States v. Archer,
531 F.3d 1347, 1352 (11th Cir. 2008).
With respect, the panel didn’t “reimagine”
Thomas—let alone reimagine it “as [we] pleased.”
Rosenbaum Dissenting Op. at 26, 32. To the contrary,
and the dissental’s shade-throwing notwithstanding,
the panel followed Thomas—or, to be more precise, it
followed the breadcrumbs left in Thomas’s various
(and sometimes conflicting) passages. Because the
panel followed (rather than “flout[ed],” see id. at 23)
Thomas, it didn’t violate the prior-panel-precedent
rule. And because the panel didn’t violate the priorpanel-precedent rule, the basis for the dissental
evaporates.
In an effort to paint a picture of lawless, resultoriented judging, the dissental gives the misleading
impression that Thomas is pellucidly clear—that it
just says, over and over and over, that the entirety of
95a

an Eighth Amendment claim, from stem to stern, is
subject only to clear-error review, and that the panel,
in the face of all that clarity, willfully bulled ahead
with de novo review instead. As is so often the case,
the reality is more complicated.
It is true, as the dissental says, that Thomas
states that “[a] prison official’s deliberate indifference
is a question of fact which we review for clear error.”
614 F.3d at 1312; see also id. at 1302 (“Subsidiary
issues of fact are reviewed for clear error.”). In our
opinion, the panel candidly admitted as much. See
Keohane, 952 F.3d at 1272 n.8. But Thomas also
holds—and I’ll just quote it directly—that an
appellate court must review the ultimate
determination “that there was an Eighth Amendment
violation warranting equitable relief . . . de novo.”
Thomas, 614 F.3d at 1303.
For better or worse, then, it fell to the panel to
try to synthesize those competing directives. And for
what it’s worth—and totally unsurprisingly, I’m
sure—I think the panel got it exactly right. Let me
explain.
A
Despite all the adverbs that the dissental uses
to describe the Thomas opinion—it says, in turn, that
Thomas “expressly,” “demonstrably,” “unmistakably,”
“unambiguously,” and “repeatedly” prescribed acrossthe-board clear-error review—everyone recognizes
that some synthesis of Thomas’s mixed messages is
necessary. I recognize it. Judge Wilson’s panel dissent
recognized it. And, yes, even Judge Rosenbaum’s
dissental ultimately recognizes it. Here, it seems to
me, are the contenders:
96a

1.
The Panel Opinion. In tackling the
case, the panel took seriously Thomas’s dual
directives (1) that an appellate court must review de
novo the district court’s ultimate determination “that
there was an Eighth Amendment violation
warranting equitable relief” and (2) that “[s]ubsidiary
issues of fact are reviewed for clear error.” 614 F.3d at
1302. Accordingly, we held (1) that the clear-error
standard governs what we (echoing the Supreme
Court) called “historical facts—e.g., what happened,
who knew what, how did they respond?”—but (2) that
“what the Eighth Amendment means—and requires
in a given case—is an issue squarely within the core
competency of appellate courts” and is thus subject to
de novo review. Keohane, 952 F.3d at 1272–73 n.8. The
panel opinion therefore gives meaningful roles to both
the de novo and clear-error standards, both of which
Thomas prescribes.
2.
The Dissental’s Proposal. Today’s
dissental suggests (without quite saying) that,
perhaps, de novo review applies only to the first,
objective component of a deliberate-indifference claim:
“Thomas’s precise statements applying clear-error
review to all components of the subjective inquiry . . .
are entirely harmonious with Thomas’s statement
that de novo review applies to the overarching
question of deliberate-indifference. The overarching
standard of review is necessarily de novo because it
incorporates within it de novo review of the objective
inquiry of the deliberate-indifference analysis.”
Rosenbaum Dissenting Op. at 33 (emphasis added);
see also id. at 34 n.5 (“[De novo review] extends to the
ultimate conclusion because the ultimate conclusion
necessarily includes within it a determination based
97a

on de novo review (the objective inquiry).” (emphasis
added)).
With respect, that can’t be correct. The Thomas
opinion prescribes de novo review in two separate
places—with respect to two different issues. In one
place, it states that the constituent determination
whether the deprivations suffered by the inmate “are
objectively ‘sufficiently serious’ to satisfy the objective
prong” of the deliberate-indifference standard “is a
question of law” subject to de novo review. Thomas,
614 F.3d at 1307. In another, it states, separately, that
the district court’s ultimate determination “that there
was an Eighth Amendment violation warranting
equitable relief”—i.e., the entirety of that
determination—“is reviewed de novo.” Id. at 1302. So
de novo review unquestionably applies to more than
just the first prong of the deliberate-indifference
standard—it applies, somehow or another, to the
whole enchilada.
3.
The Panel Dissent. Which brings me to
the panel dissent’s reading of Thomas. It seemed to
appreciate that de novo review applies to the entirety
of the deliberate-indifference claim—to the ultimate
determination that the Eighth Amendment was
violated—but it left the de novo standard only a
vanishingly small role:
[I]f
the
district
court,
despite
checkmarks in both the objective and
subjective boxes, still concluded that
there was no Eighth Amendment
violation, we would lend no deference to
this error. We would review it de novo,
and would no doubt reverse. And if the
district court, despite holding that one of
98a

the elements was not met, still concluded
that there was an Eighth Amendment
violation, we would do the same. We
would review this error de novo, and no
doubt reverse. That is the ultimate
conclusion that we review de novo.
Keohane, 952 F.3d at 1288 (Wilson, J., dissenting).
With respect, that can’t be right, either. As the
panel majority explained in our opinion, it is
inconceivable that “the de novo standard’s sole office
is to ensure that the district court puts ‘checkmarks’
in the right boxes, and then doesn’t make a truly
boneheaded, asinine mistake.” Id. at 1273 n.8. 2
B
Among the available alternatives, it won’t
surprise you to learn that I think the panel’s synthesis
of Thomas’s mixed messages is clearly correct. I say so
for reasons that I have already explained and that
neither of my dissenting colleagues has even engaged,
let alone rebutted.

The dissental suggests that the panel “g[ave] itself permission
to reimagine what Thomas held because it conclude[d] that what
Thomas expressly said ‘cannot possibly be what we’ve meant.’”
Rosenbaum Dissenting Op. at 26 (quoting Keohane, 952 F.3d at
1273 n.8). No. What the panel said in the passage that the
dissental snatch-quotes is that the panel dissent’s “checkmark”
interpretation of de novo review “cannot possibly be what we’ve
meant when we have repeatedly held that de novo review applies
to the district court’s determination whether ‘there was an
Eighth Amendment violation warranting equitable relief.’”
Keohane, 952 F.3d at 1273 n.8 (quoting Thomas, 614 F.3d at
1303).
2

99a

1
First, the panel’s interpretation gives
meaningful roles to both the de novo and clear-error
standards—both of which, again, Thomas expressly
prescribes. By contrast, neither of my dissenting
colleagues has any viable explanation of what role de
novo review should play in Eighth Amendment
deliberate-indifference cases. As between the courts of
appeals and the district courts, who decides what the
Eighth Amendment ultimately means and requires in
a given case? On their theories, the district courts do—
at which point the appellate courts’ hands are pretty
much tied. What an odd state of affairs. In what other
circumstance do the courts of appeals effectively cede
to district courts the job of determining the meaning
and proper application of the Constitution? 3
2
Second, “meaningful appellate review of a
district court’s ultimate constitutional holding follows
straightaway from Supreme Court precedent
prescribing de novo review of other application-of-lawto-fact questions—including those arising under the
Eighth Amendment.” Keohane, 952 F.3d at 1273 n.8.
In United States v. Bajakajian, 524 U.S. 321 (1998),
for instance, the Supreme Court rejected the
contention that an appellate court should defer to a
I note that while a holding that clear-error review applies to the
entirety of the deliberate-indifference analysis—and effectively
binds us to the district courts’ determinations—might serve
Keohane well in this particular case, it would be cold comfort to
the multitude of prisoners who appeal from district court orders
rejecting deliberate-indifference claims. And of course, the vast
majority of deliberate-indifference cases that appellate courts see
arise on appeal by inmates who have lost below.
3

100a

district court’s determination whether a fine is
excessive for Eighth Amendment purposes. As the
Supreme Court explained there, while the district
court’s factual findings in conducting the
excessiveness inquiry “must be accepted unless
clearly erroneous,” “whether a fine is constitutionally
excessive calls for the application of a constitutional
standard to the facts of a particular case”—and thus
calls for “de novo review.” Id. at 336–37 & n.10.
Similarly, in Ornelas v. United States, the
Supreme Court held “that as a general matter
determinations of reasonable suspicion and probable
cause should be reviewed de novo on appeal.” 517 U.S.
690, 699 (1996). The Court acknowledged—precisely
as our opinion did—“that a reviewing court should
take care both to review findings of historical fact only
for clear error and to give due weight to inferences
drawn from those facts by resident judges and local
law enforcement officers.” Id. (emphasis added); see
Keohane, 952 F.3d at 1273 n.8. But it insisted that the
ultimate determination—the application of the
constitutional standard to those facts—demands de
novo review. Significantly, the Court gave three
reasons to support its holding, all of which apply
equally here: (1) the constitutional standards at issue
involve “fluid concepts that take their substantive
content from the particular contexts in which the
standards are being assessed”; (2) the applicable
“legal rules . . . acquire content only through
application,” and “[i]ndependent review is therefore
necessary if appellate courts are to maintain control
of, and to clarify, the legal principles”; and (3) “de novo
review tends to unify precedent” and “stabilize the
law.” Ornelas, 517 U.S. at 696–98.
101a

Finally, applying Bajakajian and Ornelas—and
repeating the same considerations—the Supreme
Court held in Cooper Industries, Inc. v. Leatherman
Tool Group, Inc., “that courts of appeals should apply
a de novo standard of review when passing on district
courts’ determinations of the constitutionality of
punitive damages awards” under the Fourteenth
Amendment. 532 U.S. 424, 436 (2001).
Except to say that they aren’t deliberateindifference cases, neither of my dissenting colleagues
has offered any explanation why the rationale of
Bajakajian, Ornelas, and Cooper Industries doesn’t
apply here. District courts are undoubtedly better
situated than appellate courts to make findings of
what the panel (echoing the Supreme Court in
Ornelas) called “historical facts,” and their
determinations with respect to those facts are
accordingly entitled to deference. But what the Eighth
Amendment means—and requires in a given case—is,
as I have said, an issue squarely within the core
competency of appellate courts. And to be clear, it’s no
answer to say, as the panel dissent did—citing Justice
Scalia’s solo dissent in Ornelas—that some issues
underlying a deliberate-indifference claim may be
“fact-specific and not easy to generalize.” Keohane, 952
F.3d at 1291 n.13 (Wilson, J., dissenting). The
Supreme Court recognized as much regarding the
“mixed questions” in Bajakajian, Ornelas, and Cooper
Industries—and yet applied de novo review anyway.
Just so here.
3
Finally, the panel’s synthesis of Thomas’s
standard-of-review conundrum squares precisely with
the First Circuit’s en banc decision in the factually
102a

similar Kosilek v. Spencer, 774 F.3d 63 (1st Cir. 2014).
The court there rejected the very arguments that my
dissenting colleagues have made and held that de
novo, rather than clear-error, review governed a
district court’s determination that the Eighth
Amendment
required
prison
authorities
to
accommodate a transgender inmate’s medicaltreatment requests. In Kosilek, an inmate alleged that
the Massachusetts Department of Correction’s refusal
to provide sex-reassignment surgery to treat the
inmate’s
gender-identity
disorder
constituted
deliberate indifference. Id. at 68–69.
Sitting en banc, the First Circuit explained that
“[t]he test for establishing an Eighth Amendment
claim of inadequate medical care encompasses a
multitude of questions that present elements both
factual and legal”—and, therefore, that “[r]eview of
such ‘mixed questions’ is of a variable exactitude,”
such that “the more law-based a question, the less
deferentially we assess the district court’s conclusion.”
Id. at 84. Citing our opinion in Thomas, the Kosilek
court held that “[t]he ultimate legal conclusion of
whether prison administrators have violated the
Eighth Amendment is reviewed de novo.” Id. In so
holding, the court rejected the dissenting judges’
argument that “the ultimate constitutional question is
inextricably tied up with the factual details that
emerged at trial,” which, according to them, “counsels
against pure de novo review.” Id. at 99 (Thompson, J.,
dissenting). While acknowledging—again, just as the
panel did here—that appellate courts “award[]
deference to the district court’s resolution of questions
of pure fact and issues of credibility,” the Kosilek
majority stood by its conclusion that the ultimate
Eighth Amendment question is reviewed de novo. Id.
103a

at 84–85. Notably, the court buttressed its holding
with citations to decisions from several other circuits
reaching the same conclusion. See, e.g., Hallett v.
Morgan, 296 F.3d 732, 744 (9th Cir. 2002) (“The
district court’s factual findings regarding conditions
at the Prison are reviewed for clear error. However, its
conclusion that the facts do not demonstrate an
Eighth Amendment violation is a question of law that
we review de novo.”); Hickey v. Reeder, 12 F.3d 754,
756 (8th Cir. 1993) (“Whether conduct, if done with
the required culpability, is sufficiently harmful to
establish an Eighth Amendment violation is an
objective or legal determination which we decide de
novo.”); Alberti v. Klevenhagen, 790 F.2d 1220, 1225
(5th Cir. 1986) (“[O]nce the facts are established, the
issue of whether these facts constitute aviolation of
constitutional rights is a question of law that may be
assayed anew upon appeal.”).
***
So in short, the panel here didn’t “reimagine”
this Court’s earlier decision in Thomas but, rather,
synthesized Thomas’s mixed messages in accordance
with Supreme Court and other circuits’ precedents.
IV
I’ll conclude where I began. For all its rhetorical
flourish, today’s dissent from denial simply doesn’t
make a compelling argument that this case warranted
en banc reconsideration. The panel was faced with the
vexing question of how the de novo and clear-error
standards of review map onto the various elements
and sub-elements of an Eighth Amendment
deliberate-indifference claim—a question made all the
more vexing by Thomas’s (let’s just say) imprecise
discussion of that issue. Faced with all that
104a

ambiguity, the panel did its level best—both to apply
Thomas and to faithfully and correctly decide the case
before it. I, for one, think the panel got it exactly right.
But even if I’m wrong about that—and reasonable
minds can disagree—the worst that can be said of the
panel opinion is that it “misappli[ed the] correct
precedent to the facts of the case.” 11th Cir. R. 35-3.
In this Circuit, that is not a ground for en banc
rehearing. Id.
While the dissental’s spicy rhetoric doesn’t
enhance its argument—but rather pretty severely
diminishes it, to my mind—it does, I fear, corrode the
collegiality that has historically characterized this
great Court. Here’s hoping for better—and more
charitable—days ahead.
ROSENBAUM, Circuit Judge, joined by WILSON,
MARTIN, and JILL PRYOR, Circuit Judges,
dissenting from the denial of rehearing en banc:
This is not an easy dissent to write—not
because the legal issue involved in the merits of this
case is complex or difficult (it’s not), but because our
denial of rehearing en banc here is not—or at least
should not be—normal. We are denying en banc
rehearing in a case that objectively qualifies for it
under the Federal Rules of Appellate Procedure and
that indeed demands it to preserve the sanctity of the
prior-precedent rule and the important policies of
stability and predictability that that rule serves.
Our failure to hold en banc review in a case
where the panel opinion contradicts our holdings in
opinions earlier panels issued yet claims nonetheless
to comply with the prior-precedent rule introduces
uncertainty and confusion into the law of our Circuit.
And worse, it undermines the prior-precedent rule,
105a

“the foundation of our federal judicial system.” Smith
v. GTE Corp., 236 F.3d 1292 (11th Cir. 2001) (quoting
Jaffree v. Wallace, 705 F.2d 1526, 1533 (11th Cir.
1983)). We as a Court must reckon with these
potentially devastating consequences of our actions if
we continue to allow opinions that flout the priorprecedent rule while claiming they comply with it to
issue unchecked.
A case like this one, where the opinion distorts
beyond recognition the prior-precedent rule—a
fundamental mechanism by which this Court ensures
the predictability and stability of the law—is exactly
the kind of case for which the en banc tool was
designed. For that reason, whether any individual
judge agrees or disagrees with the ultimate outcome
of Keohane should be irrelevant to the question of
whether this case warrants en banc review. Too much
is at stake.
I am sure each of us believes that we are
applying the appropriate standards in determining
whether to vote for en banc rehearing. 1 But an
I am truly sorry that Chief Judge Pryor and Judge Newsom
seem to have taken my concerns personally. I do not believe this
dissent to be personal. I have great respect for all my colleagues,
and I value this Court’s collegiality. But I also have great respect
for the rule of law and the need for our Court to maintain its
legitimacy. And I don’t agree that defending these things or
pointing out what I think is wrong with Keohane and explaining
why I view it as such a big problem makes me “[un]collegial[]”
and “[un]charitable,” see Newsom Op. at 22, or is an “attack[ on]
. . . the integrity of judges or their commitment to the rule of law
. . . [or] the legitimacy of this Court,” W. Pryor Op. at 5. Nor do
the labels and characterizations the W. Pryor and Newsom
Opinions feel a need to impose provide a good enough reason to
remain silent in the face of the threat Keohane represents to our
judicial norms. I am aware of no other way to oppose what I see

1

106a

objective analysis suggests we are not. So we need to
recalibrate. I urge our Court—and each of us
individually—to carefully and objectively reexamine
this vote and to truly reflect on the dangers of
condoning panel opinions that contradict our prior
precedent while nonetheless claiming to follow the
prior-precedent rule.
I divide my discussion into three substantive
sections. In Section I, I review the law governing the
limited circumstances in which en banc review is
appropriate. In Section II, I show that this case
warrants en banc rehearing. And in Section III, I
explain why we must insist on strict adherence to the
prior-precedent rule by every panel.
But first, a word of caution: this dissent is not
about what the substantive law that governs
Keohane’s case should or should not be. And to avoid
any possible misunderstanding on that, I begin by
stating expressly that I take no position on that in this
dissent. Even assuming without deciding that
Keohane arrived at the objectively legally correct rule
for the appropriate standard of review in Eighth
Amendment deliberate-indifference claims, the
problem here is that on the way to doing so, it issued
a new rule that is contrary to our binding precedent
while nonetheless attributing that new rule to that
same precedent. The proper procedure for overruling
binding precedent in this Circuit requires the Court
sitting en banc to set it aside; a panel is not free to
overrule binding precedent on its own. To be clear,
then, this dissent is solely about the importance to the
as the failure of our Court to require the Keohane panel to comply
with the prior-precedent rule, other than by writing a dissent
that candidly discusses that problem and its significance.

107a

stability and predictability of the law of ensuring
every panel strictly follows our prior-precedent rule.
I.
Rule 35, Fed. R. App. P., anticipates that en
banc rehearing will be ordered only when it is
“necessary to secure or maintain uniformity of the
court’s decisions” or the case “involves a question of
exceptional importance.” Fed. R. App. P. 35(a). This is
one of those cases. 2 First, this case objectively
warrants en banc review under Rule 35(a) because the
panel majority opinion here, Keohane v. Florida
Department of Corrections, 952 F.3d 1257 (11th Cir.
2020), creates confusion and inconsistency in our
Eighth Amendment Circuit jurisprudence. But second
and more urgent is what the Keohane panel’s
interpretation and application of the prior-precedent
rule and our refusal to take this case en banc do to
that rule. In trying unsuccessfully to avoid running
afoul of our prior-precedent rule and raising a conflict
with our earlier precedent known as Thomas v.
Bryant, 614 F.3d 1288, 1312 (11th Cir. 2010), the
Keohane majority opinion remolds the prior-precedent
Chief Judge Pryor notes that “[t]he grant of en banc review is
and should be rare.” W. Pryor Op. at 4. Of course, as I recognize
above, that’s true, when we consider the total number of cases we
review every year. But that’s also an oversimplification of what
happened here. By my count, in the most recent nearly two-year
period (since January 1, 2019), we have voted for en banc
rehearing in twelve cases. During that same period, we have
voted against en banc review only seven times when a member
in active service on this Court has requested an en banc poll. So
once a member of this Court in active service has sought an en
banc poll, we have granted en banc rehearing at a rate of 63%—
a majority of the time. Presumably, that is because we exercise
extreme discretion in requesting an en banc poll in the first place.
2

108a

rule into an unrecognizable and dangerous form: it
gives itself permission to reimagine what Thomas
held because it concludes that what Thomas expressly
said “cannot possibly be what we’ve meant,” Keohane,
952 F.3d at 1272.
Our “firmly established” prior-precedent rule
strictly requires later panels to follow the precedent of
earlier panels unless and until the prior precedent is
overruled or undermined to the point of abrogation by
the Supreme Court or this Court sitting en banc.
United States v. Steele, 147 F.3d 1316, 1318 (11th Cir.
1998) (en banc); see also Smith, 236 F.3d at 1303 n.11.
We have described ourselves as “emphatic” in our
strict adherence to this rule, see Steele, 147 F.3d at
1318 (quoting Cargill v. Turpin, 120 F.3d 1366, 1386
(11th Cir. 1997)), and have said that this Court
“take[s] [the prior-precedent] rule seriously,” Atl.
Sounding Co., Inc. v. Townsend, 496 F.3d 1282, 1286
(11th Cir. 2007) (Ed Carnes, J., concurring).
We have gone so far as to hold that under that
rule, a later panel cannot overrule a prior one’s
holding “even though convinced it is wrong.” Steele,
147 F.3d at 1317-18. Indeed, we have held that the
prior-precedent rule binds later panels even when the
prior panel’s decision failed to mention controlling
Supreme Court precedent and reached a holding in
conflict with that precedent. Smith, 236 F.3d at 130203. So strong is the prior-precedent rule that under it,
a later panel is bound by the earlier panel’s “reasoning
and result,” even when the prior panel does not
explicitly state its rule. See id. at 1304.
No exceptions to the prior-precedent rule exist.
See id. at 1302. That is so, we have explained, because
if an exception applied, “it could end up nullifying the
109a

well-established prior panel precedent rule that is an
essential part of the governing law of this Circuit.” Id.
(emphasis added). Not only that but the priorprecedent rule “helps keep the precedential peace
among the judges of this Court, and it allows us to
move on once an issue has been decided.” Townsend,
496 F.3d at 1286 (Ed Carnes, J., concurring). Without
it, as Judge Ed Carnes has cautioned, “every sitting of
this court would be a series of do-overs, the judicial
equivalent of the movie ‘Groundhog Day.’” Id.
The Newsom Opinion takes issue with my
discussion, describing it as full of “hyperbole and
invective” because of my concerns that continued
disregard of our prior-precedent rule jeopardizes the
rule of law. See Newsom Op. at 6. But those concerns
are not overblown. Indeed, our own Court has
emphasized that the prior-precedent rule “serves as
the foundation of our federal judicial system[, as]
[a]dherence to it results in stability and
predictability.” Smith, 236 F.3d at 1303 (quoting
Jaffree v. Wallace, 705 F.2d 1526, 1533 (11th Cir.
1983)). For these reasons, if we continue to allow
panels to skirt the prior-precedent rule, we certainly
ask for trouble.
Under our prior-precedent rule, if a panel
vehemently disagrees with a prior precedent, its only
option is to apply it, anyway, and call for en banc
rehearing. It may not, under any circumstances,
create its own conflicting rule and inaccurately
purport to apply the governing prior precedent. And if
it does, en banc review is in order—either to correct
the panel opinion and make it comply with binding
precedent, or to overrule the prior precedent. But in
any case, changing prior precedent is not something
that a panel may do.
110a

II.
Yet that’s precisely what the Keohane panel
did: while insisting it was following Thomas, it instead
created a new rule diametrically opposed to Thomas’s
holding. To show that this is necessarily the case, I
must first briefly review the relevant facts of
Keohane’s case (Section A) and the law governing
claims of deliberate indifference to prisoners’ medical
claims (Section B). Then in Section C I point out how
the Keohane panel opinion is at war with Thomas, the
precedent it purports to follow.
A.
Reiyn Keohane was assigned male at birth, but
she has identified as female since she was about eight
years old. ECF No. 171 at 1. She was formally
diagnosed with gender dysphoria when she was
sixteen. Id. at 2. At that time, Keohane began a
hormone-therapy regimen. Id.
After her arrest, she was cut off from her
treatment, including hormone therapy and the ability
to dress and groom as a woman. Id. at 2. She
complained, but the prison did not respond. Id.
Keohane’s untreated dysphoria caused her such
extreme anxiety that she attempted to kill herself and
castrate herself while in custody. Id.
These facts and others led Keohane to sue the
Florida Department of Corrections (the “FDC”) under
42 U.S.C. § 1983, alleging violations of her Eighth
Amendment rights and seeking declaratory and
injunctive relief. As the panel opinion explained, after
a bench trial, the district court entered a 61-page
order awarding Keohane relief. As relevant to the

111a

concerns I raise in this dissent, 3 the district court
directed the FDC to permit Keohane “to socially
transition by allowing her access to female clothing
and grooming standards.” 952 F.3d at 1262 (quoting
district court order).
The panel opinion reversed. Claiming to follow
Thomas, the Keohane panel applied the de novo
standard of review to certain components of the
district court’s findings for which the Thomas Court
had instructed a clear-error standard governs. In so
doing, the panel simultaneously injected conflict into
our Eighth Amendment deliberate-indifference
jurisprudence and stretched interpretation of our
prior-precedent rule beyond recognition.
B.
The Eighth Amendment prohibits the
government from inflicting “cruel and unusual
punishments” on inmates. Wilson v. Seiter, 501 U.S.
294, 296–97 (1991). That prohibition encompasses
“deprivations . . . not specifically part of [a] sentence
but . . . suffered during imprisonment.” Id. at 297. An
inmate who suffers “deliberate indifference” to her
“serious medical needs” may state a claim for a
violation of the Eighth Amendment. Estelle v. Gamble,
429 U.S. 97, 104 (1976); Brown v. Johnson, 387 F.3d
1344, 1351 (11th Cir. 2004). Under our precedent, a
deliberate-indifference claim has two components: an
objectively serious medical need and subjective

Appellant’s motion for rehearing also seeks rehearing on
whether the Majority Opinion correctly applied our mootness
exception for voluntary cessation. For purposes of this dissent
from the denial of rehearing en banc, I express no views about
the propriety of that holding.

3

112a

deliberate indifference by the official to that need.
Brown, 387 F.3d at 1351.
Thomas holds that the objective inquiry
(whether a serious medical need exists) includes both
questions of fact subject to clear-error review and a
question of law subject to de novo review. Thomas, 614
F.3d at 1307, 1308. I am not concerned with that
aspect of Keohane because the panel opinion had no
occasion to comment on or apply the Thomas standard
of review to the objective inquiry, since “all agree[d]
that Keohane’s gender dysphoria” satisfies that
requirement. 952 F.3d at 1273. Instead, I focus on the
subjective component of Keohane’s deliberateindifference claim.
Before Keohane, we had described the
subjective inquiry (whether the defendant was
subjectively deliberately indifferent to the plaintiff’s
serious medical need) to require the plaintiff “to prove
three facts: (1) subjective knowledge of a risk of
serious harm; (2) disregard of that risk; and (3) by
conduct that is more than mere negligence” (the
“subjective-inquiry components”). Brown, 387 F.3d at
1351 (emphasis added). Of course, in characterizing as
“facts” the three things that the plaintiff must prove
to satisfy the subjective inquiry, we suggested that the
district court’s resolutions of the three subjectiveinquiry components were findings of fact.
Then, as Judge Wilson plainly showed in his
dissent in Keohane, 952 F.3d at 1289-92 (Wilson, J.,
dissenting), we said precisely that a few years later in
Thomas. There, several inmates sued FDC employees,
alleging that their use of chemical agents on certain
mentally ill inmates violated the Eighth Amendment.
614 F.3d at 1293. After a five-day bench trial, the
113a

district court determined that the FDC’s nonspontaneous disciplinary use of chemical agents on
inmates who, at the time, were unable to conform
their behavior to prison standards because of their
mental illnesses, violated the Eighth Amendment. Id.
at 1294. The FDC employees appealed this conclusion
(among other district-court actions not relevant here).
Id.
In analyzing the appeal, we noted that we
review de novo the “legal conclusion—that there was
an Eighth Amendment violation[,]”—but that
“[s]ubsidiary issues of fact are reviewed for clear
error.” Id. at 1303. Had we stopped there and both
said nothing more about the standard of review and
not applied the standard of review in a way that
demonstrated what we meant by this division of the
standard of review, perhaps the Keohane panel would
have been free to construe those two propositions as it
pleased, without running afoul of the prior-precedent
rule. 4
But that was not the end of our discussion and
application of the standard of review. Rather, later in
Thomas, our statements concerning the appropriate
standard of review, as well as our application of that
standard of review, unmistakably show that the
phrase “legal conclusion . . . that there was an Eighth
Amendment violation” refers to “[t]he ultimate legal
conclusion” of whether the defendants violated the
Eighth Amendment, Kosilek v. Spencer, 774 F.3d 63
That, too, is questionable (though less so than Keohane’s
characterization of Thomas), in light of our prior description in
Brown, 387 F.3d at 1351, that a plaintiff had to prove three
“facts” to establish all three aspects of the subjective part of a
deliberate-indifference claim.

4

114a

(1st Cir. 2014). And the phrase “[s]ubsidiary issues of
fact” refers to the issues of fact that one of the
objective-inquiry components and all the subjectiveinquiry components of the deliberate-indifference
analysis constitute.
Contrary
to
the
Newsom
Opinion’s
characterization of Thomas, there is nothing
“conflicting” or “competing,” see Newsom Op. at 11, 12,
about Thomas’s direction. Nor does Thomas send
“mixed messages.” Id. at 12. Thomas’s precise
statements applying clear-error review to all
components of the subjective inquiry—outlined in
detail below—are entirely harmonious with Thomas’s
statement that de novo review applies to the
overarching question of deliberate-indifference. The
overarching standard of review is necessarily de novo
because it incorporates within it de novo review of the
objective inquiry of the deliberate-indifference
analysis. 5
The Newsom Opinion attempts to alter the focus from my
reason for seeking en banc review—Keohane’s failure to follow
Thomas and abide by the prior-precedent rule—by arguing that
daylight exists between Judge Wilson and me concerning
Thomas’s holding on the applicable standard of review. See
Newsom Op. at 13-15. It doesn’t. I fully agree with Judge Wilson
that Thomas applies the clear-error standard to all aspects of the
subjective-inquiry prong of the deliberate-indifference test. See
Keohane, 952 F.3d at 1287-90 (Wilson, J., dissenting). I likewise
understand Thomas’s statement that we review “the district
court’s . . . conclusion [] that there was an Eighth Amendment
violation warranting equitable relief [] . . . de novo,” Thomas, 614
F.3d at 1303, to refer in context to the notion that “[o]ur de novo
review extends only to questions of law (i.e., the objectivelyserious-need element) and to the district court’s ultimate
conclusion whether the objective and subjective elements of a
deliberate indifference claim state an Eighth Amendment
violation.” Keohane, 952 F.3d at 1287 (Wilson, J., dissenting). As
5

115a

And nothing in Thomas supports the Keohane
majority opinion’s suggestion that, by “[s]ubsidiary
issues of fact,” Thomas meant only what the Keohane
majority opinion deemed “historical facts.” See
Keohane, 952 F.3d at 1272 n.8. Tellingly, the Keohane
majority opinion cited nothing in Thomas for its
contention. Nor did Thomas ever use the term
“historical facts.” On the contrary, as Judge Wilson’s
Keohane dissent and this dissent demonstrate in
detail, see infra at 35-38, Thomas unambiguously
applied the clearly erroneous standard of review to
each of the three components of the subjective inquiry.
The Keohane majority opinion was not free to stray
from the clear-error standard of review that Thomas

I have noted, it extends to the ultimate conclusion because the
ultimate conclusion necessarily includes within it a
determination based on de novo review (the objective inquiry).
And we’re not the only ones to understand Thomas’s clear
analysis this way. Indeed, in Kosilek v. Spencer, 774 F.3d 63 (1st
Cir. 2014), the First Circuit cited Thomas for the proposition that
“[t]he ultimate legal conclusion of whether prison administrators
have violated the Eighth Amendment is reviewed de novo,” while
quoting from Thomas in the supporting parenthetical only the
following: “Whether the record demonstrates that [the prisoner]
was sprayed with chemical agents . . . and that he suffered
psychological injuries from such sprayings are questions of fact.
Whether these deprivations are objectively ‘sufficiently serious’
to satisfy the objective prong, is a question of law . . . .” Kosilek,
774 F.3d at 84 (quoting Thomas, 614 F.3d at 1307) (quotation
marks omitted) (alterations by the Kosilek Court) (emphasis
added). Tellingly, Kosilek never refers to the subjective inquiry
to provide an example of presenting any legal questions to show
why Thomas refers to the overarching question of deliberateindifference liability as subject to de novo review. Nor does
Kosilek cite Thomas for the proposition that any components of
the subjective inquiry are subject to de novo review.

116a

held governs the components of the subjective inquiry.
Yet that is what it did.
C.
I begin with what Thomas had to say about how
the standard of review applies to the evaluation of a
district court’s determination on the subjective
inquiry of an Eighth Amendment deliberateindifference claim—that is, whether the defendant (1)
subjectively knew of a risk of serious harm; (2)
nonetheless disregarded that risk; and (3) did so by
conduct that is more than mere negligence. Thomas,
614 F.3d at 1312. Thomas explained that this inquiry
requires us to determine whether “the evidence . . .
demonstrate[s] that with knowledge of the infirm
conditions, the official knowingly or recklessly
declined to take actions that would have improved the
conditions.” Id. (internal quotation marks and
alterations omitted). This summary of what the
subjective inquiry requires encompassed all three
prongs of the subjective inquiry: “knowledge of the
infirm conditions” means the defendant “subjectively
knew of a risk of serious harm”; “declined to take
actions that would have improved the conditions”
means the defendant “disregarded the risk”; and
“knowingly or recklessly” did so means the defendant
“did so by conduct that is more than mere negligence.”
Immediately after we summarized what the
three components of the subjective inquiry require, we
unambiguously stated that “[a] prison official’s
deliberate indifference is a question of fact which
we review for clear error.” Id. (emphasis added).
Based on the placement and content of the remark, it
is clear that with this statement, we were referring to
the entirety of the three-part subjective inquiry. Not
117a

only did this quotation appear immediately following
our summary of all the elements of the subjective
component of an Eighth Amendment violation, but
significantly, by definition, “[a] prison official” can
engage in “deliberate indifference” only if all three
subjective-inquiry components are satisfied.
We need not review Thomas any further than
this to know that we unambiguously held in Thomas
that the district court’s rulings on the entire subjective
inquiry—including its rulings on all three of the
subjective inquiry’s components—are subject to the
clearly erroneous standard of review.
But there’s more. In addressing each of the
three parts of the subjective inquiry in Thomas, we
again said and demonstrated that each component is
to be reviewed for clear error.
With respect to the first question—whether the
defendant subjectively knew of a risk of serious
harm—we relied in Thomas on Farmer v. Brennan,
511 U.S. 825, 842 (1994), citing to Farmer’s
proposition that “[w]hether a prison official had the
requisite knowledge of a substantial risk is a
question of fact subject to demonstration in the
usual ways . . . .” 6 See Thomas, 614 F.3d at 1313
(quoting Farmer, 511 U.S. at 842) (alteration omitted)
(emphasis added).

Though in Thomas we omitted the phrase “question of fact”
from the Farmer quotation, we did so only to avoid repetition of
the phrase “question of fact,” which appears in the sentence
immediately preceding the Farmer quotation. As I’ve noted
above, that sentence states that the entire subjective inquiry is a
question of fact we review for clear error. See Thomas, 614 F.3d
at 1312.
6

118a

As to the second and third parts of the test—
whether the defendant disregarded this risk by more
than mere negligence—we concluded that “[t]he
record . . . supports the district court’s finding that
the Secretary of the [FDC] and the Warden . . .
recklessly disregarded the risk of psychological harm
to inmates like [the Thomas plaintiff].” Id. at 1315
(emphasis added). We then described the evidence in
the record that underpinned the district court’s
finding. Id. For example, we opined that “the [FDC]’s
refusal to modify its non-spontaneous use-of-force
policy provides support for the district court’s
finding of more than mere or even gross negligence
on the part of the [FDC].” Id. (emphasis added). The
repeated references to evidence in the record and uses
of the words “support for the district court’s finding”
further unmistakably demonstrate that we viewed the
district court’s “findings” as factual findings, and we
reviewed them for clear error.
But you need not take my word for it. Thomas
says as much. Thomas began its analysis by invoking
the clear error-test and by summarizing its conclusion
that the defendant failed to meet that standard:
“[O]ur review of the district court’s voluminous
uncontested factual findings as they relate to the
defendants’ deliberate indifference does not leave us
with the definite and firm conviction that a
mistake has been committed. Accordingly, the
defendants have failed to satisfy their burden of
demonstrating the district court’s clear error.”
Thomas, 614 F.3d at 1313 (emphasis added).
That was no mistake. Thomas also ended its
discussion of the second and third components of the
subjective inquiry by summing up that it could not
“conclude that the district court was clearly
119a

erroneous in finding that the record demonstrates
that FDC officials turned a blind eye to [the plaintiff’s]
mental health needs and the obvious danger that the
use of chemical agents presented to his psychological
well-being.” Id. at 1316 (internal quotation marks
omitted and emphasis added). In our very next
sentence, we explained that “[t]urning a blind eye to
such obvious danger provides ample support for the
[district court’s] finding of the requisite
recklessness.” Id. (emphasis added). Finally, we held
that “an examination of [the] entire record
demonstrates that the district court did not commit
clear error in finding the defendants’ deliberate
indifference.” Id. at 1317 (emphasis added).
In short, our discussion in Thomas of the
subjective inquiry of the deliberate-indifference claim
repeatedly shows that we characterized and treated
each of the three components as factual ones,
governed by the clearly erroneous standard of review
on appeal.
Whether each of us personally agrees or
disagrees that a clear-error standard of review is a
good idea for each of the components of the subjective
inquiry, see Newsom Op. at 16 n.3, is irrelevant. It is
beyond dispute that Thomas held that clear-error
review governs.
In contrast, the Keohane majority opinion
reviewed de novo the district court’s findings on the
second and third parts of the subjective inquiry. 7 See
The Keohane majority opinion concluded that it did not need to
evaluate whether the district court correctly determined that the
prison officials had actual knowledge of a risk of serious harm
because, in any case, Keohane did not establish the second and
third parts of the subjective inquiry. 952 F.3d at 1274. For that

7

120a

Keohane, 952 F.3d at 1274-78. In fact, except in a
footnote dismissing the notion that clear-error review
applies to each of the three components of the district
court’s factual findings on the subjective inquiry, the
majority opinion never once employed the term “clear
error” in conducting its analysis. See id. And even in
that footnote, the Keohane panel opined only that even
assuming the clear-error standard of review governs
review of the district court’s findings on each of the
three subparts of the subjective inquiry, “we would
have little trouble formulating the required firm
conviction that a mistake had been committed.” Id. at
1272 n.8 (citation and internal quotation marks
omitted). The majority opinion said so, though,
without any corresponding analysis other than a
throwaway reference to its legal-error analysis in the
text. See id.
Perhaps most disturbingly, though, despite the
Keohane majority opinion’s use of the de novo
standard of review to review the second and third
subparts of the district court’s subjective inquiry on
Keohane’s deliberate-indifference claim, the Keohane
majority opinion asserted that it followed Thomas.
But in support of this proposition, the Keohane
majority opinion relied solely on Thomas’s statements
that we review de novo whether “there was an Eighth
Amendment violation” and that “[s]ubsidiary issues of
fact are reviewed for clear error.” See Keohane, 952
F.3d at 1265 n.2. Likewise, that is the sole
“breadcrumb[]” from Thomas that the Newsom
Opinion cites in justifying Keohane’s application of de
reason, the Keohane majority opinion did not expressly review
the first part of the district court’s ruling on the subjective
inquiry.

121a

novo review to all components of the subjective
inquiry. See Newsom Op. at 11-12.
But as I have already discussed, that one
“breadcrumb[]” is part of a trail that leads inescapably
to the conclusion that Thomas holds that the clearerror standard governs the subjective inquiry.
Yet that one statement deprived of its proper
context is the only thing that Keohane and the
Newsom Opinion point to from Thomas to justify
Keohane’s conclusion that Thomas required de novo
review of the subjective inquiry. Indeed, neither
Keohane nor the Newsom Opinion responds to any of
the numerous quotations Judge Wilson’s dissent and
I have cited from Thomas that show that Thomas held
that clear-error review governs the subjective inquiry.
Keohane and the Newsom Opinion just ignore them.
But ignoring Thomas’s words does not make Thomas’s
holding go away.
Rather than explaining how Keohane’s holding
can possibly be consistent with Thomas’s numerous
quotations, the Newsom Opinion takes a different
tack: it appears to attempt to distract the reader from
its inability to demonstrate that Keohane does not
violate Thomas. Indeed, careful readers can’t help but
notice that the Newsom Opinion spends nearly all its
pages trying to change the subject.
For example, it defends at length the
correctness of the outcome of Keohane and the new
rule that the Keohane panel imposed contrary to
Thomas’s rule. See, e.g., Newsom Op. at 8-9 (arguing
the facts of Keohane’s case—including defending the
FDC’s decision not to allow Keohane to dress and
groom herself as a woman—that have no bearing on
whether Keohane followed Thomas), 16 (opining that,
122a

as a matter of law, it makes better sense for appellate
courts to “decide[] what the Eighth Amendment
ultimately means and requires in a given case”
because anything else would be “an odd state of
affairs.” 8), 16-19 (contending that United States v.
Bajakajian, 524 U.S. 321 (1998), Ornelas v. United
States, 517 U.S. 690 (1996), Cooper Industries, Inc. v.
Leatherman Tool Group, Inc., 532 U.S. 424 (2001)—
none of which Thomas cites, by the way—support the
new Keohane rule), 19-21 (discussing Kosilek v.
Spencer, 774 F.3d 63 (1st Cir. 2014), to support the
notion that de novo review is the correct legal answer
to the standard of review that should govern the
components of the subjective inquiry 9).
The Newsom Opinion also tries to divert
attention from its failure to show how it is consistent
with Thomas by grading my writing and that of the
Thomas panel. See, e.g., Newsom Op. at 3, 4, 12, 21,
22.

Most respectfully, I disagree that district courts are somehow
not equipped to make capable rulings on the application of the
subjective-inquiry components of the Eighth Amendment
deliberate-indifference standard in any given case. And even if a
district court erred, it would not be the last word on the matter,
since a party could always appeal to the circuit court. Clearly
erroneous review does not mean no review.
8

Kosilek’s sole citation of Thomas for the proposition that “[t]he
ultimate legal conclusion of whether prison administrators have
violated the Eighth Amendment is reviewed de novo.” Kosilek,
774 F.3d at 84, also does not show that Thomas applied de novo
review to the components of the subjective inquiry. In fact, as I
have explained in note 5, supra, it demonstrates the opposite. So
to be clear, Kosilek did not purport to read Thomas to hold that
the components of the subjective inquiry are subject to de novo
review.
9

123a

These distraction tactics miss the point.
Whether de novo review of the components of the
subjective inquiry is or is not a better answer than
Thomas’s clear-error review is not the issue here. And
whether I use too many adverbs in my writing or
whether the Newsom Opinion likes how Thomas is
written is similarly irrelevant to the issue before the
Court.
The only question here is whether Keohane is
faithful to Thomas. The Newsom Opinion’s failure to
show how the numerous quoted statements from
Thomas can possibly be consistent with Keohane’s
new rule applying the de novo standard of review to
the subjective inquiry answers that question with a
resounding “no.” 10
The Keohane majority opinion reached another
conclusion only because it viewed Thomas’s plain
language to require a “mindless, mechanical boxchecking assessment.” Id. So the Keohane majority
opinion reasoned that what Thomas unambiguously
said “cannot possibly be what we’ve meant[.]” Id. That
language from Keohane, in and of itself, gives up the
game and implicitly concedes that the Keohane
majority opinion did not follow Thomas.
III.
Under our prior-precedent rule, it was not up to
the Keohane panel to reimagine the meaning of
The W. Pryor Opinion’s silence on this issue likewise speaks
volumes: the W. Pryor Opinion doesn’t even try to show that
Keohane is consistent with Thomas or that it didn’t violate the
prior-precedent rule. Nor does it defend Keohane’s interpretation
of the prior-precedent rule, which allows a later panel to reinvent
the holding of a prior panel.
10

124a

Thomas’s unmistakable language holding that the
clearly erroneous standard of review applies to the
second and third components of the subjective inquiry.
The Keohane panel was bound by Thomas, whether it
agreed with it or not and whether it found Thomas’s
standard of review to be consistent with “meaningful
appellate review” or not. Id. If the Keohane panel had
a problem with the standard of review that Thomas
requires, as Judge Wilson pointed out in his Keohane
dissent, 952 F.3d at 1292 (Wilson, J., dissenting), its
only option under the prior-precedent rule was to
apply the Thomas standards and call for en banc
review. There was no option to recast Thomas as
having held that de novo review applies when Thomas
in fact and unmistakably held that clearly erroneous
review governs.
Because the Keohane panel’s holding on the
applicable standards of review conflicts directly with
the Thomas panel’s, the Keohane panel introduced
conflict in our precedent. Under our earliest-precedent
rule, “[w]hen we have conflicting [precedents], we
follow our oldest precedent.” CSX Transp., Inc. v. Gen.
Mills, Inc., 846 F.3d 1333, 1338 (11th Cir. 2017)
(citation and internal quotation marks omitted). So
the earliest-precedent rule requires later panels and
district courts to follow Thomas. But because Keohane
claims to be consistent with Thomas, Keohane
purports to render the earliest-precedent rule
inapplicable. To do that, though, it violates the priorprecedent rule by failing to abide by Thomas’s true
holding imposing the clearly erroneous standard of
review and by instead pretending that Thomas
sanctioned the de novo standard of review when it
demonstrably did not.
125a

Ultimately, our refusal to hear Keohane en banc
creates a mess with respect to the current state of the
law concerning the correct standards of review
governing the components of the subjective inquiry on
an Eighth Amendment deliberate-indifference claim:
should district courts and later panels follow Thomas,
as our prior-precedent rule requires, or should they
follow Keohane, which holds the opposite of Thomas
while claiming to have followed it?
But the real problem is that our refusal to hear
Keohane en banc sows uncertainty as to the meaning
and strength of our prior-precedent rule. This may be
no big deal to the W. Pryor Opinion (though that
opinion never tells us why). But as I have noted, see
supra at Section I, for good reason, we as a Court have
historically viewed anything that erodes the priorprecedent rule as a critical threat to the stability and
predictability of the law. See Smith, 236 F.3d at 1303;
see also Steele, 147 F.3d at 1317-18. Keohane’s rogue
interpretation of the prior-precedent rule certainly
qualifies as such a threat.
If we are willing to accept Keohane as compliant
with our prior-precedent rule, then our prior
precedent means only what the last panel to have
reconstrued what the deciding panel held says it
means—no matter how inconsistent the most recent
panel’s interpretation may be with what the deciding
panel actually held. As a result, the practical effect is
that no later panel will be bound by anything an
earlier panel said.
For these reasons, regardless of what any
individual judge on this Court believes the correct
standard of review here to be, a bigger issue is at
stake: the rule of law imposes an obligation to rehear
126a

Keohane en banc and reaffirm our “emphatic[ally]”
strict adherence to the prior-precedent rule. See
Steele, 147 F.3d at 1318 (citation omitted). Then, if a
majority of judges on the Court thinks Thomas got it
wrong, the Court can say so and change our precedent.
But a panel cannot and should not be allowed to do
that. And a panel certainly should not be permitted to
do so by reinterpreting our prior-precedent rule to the
point where it allows precisely what it has always
prohibited: a later panel to issue a holding that
directly conflicts with an earlier panel’s precedent.
By any recognized measure, Keohane demands
en banc review. We must do better in the future.

127a

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14096
________________________
District Court Docket No.
4:16-cv-00511-MW-CAS
REIYN KEOHANE, Plaintiff-Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY, Defendant-Appellant,
TRUNG VAN LE,
In his official capacity as Chief Health Officer of the
Desoto Annex, et al., Defendants.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
[Date Issued: March 11, 2020;
Issued as Mandate December 11, 2020]
JUDGMENT
It is hereby ordered, adjudged, and decreed that
the opinion issued on this date in this appeal is
entered as the judgment of this Court.

128a

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14096-HH
________________________
REIYN KEOHANE,
Plaintiff - Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
[Date Filed: April 5, 2021]
BEFORE: WILSON and NEWSOM, Circuit Judges,
and COOGLER,* District Judge.
BY THE COURT:
Appellant’s “Motion to Recall Mandate and
Vacate Prior Opinion” is DENIED.

129a

APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
________________________
No. 18-14096
________________________
Case No.: 4:16-cv-511-MW/CAS
REIYN KEOHANE,
Plaintiff,
versus
JULIE JONES, in her official capacity as Secretary
of the Florida Department
of Corrections,
Defendant.
________________________
[Date Filed: December 17, 2020]
ORDER VACATING JUDGMENT
Pursuant to the Mandate issued in this case by
the United States Court of Appeals for the Eleventh
Circuit, ECF No. 192, the Clerk shall annotate the
docket to reflect that this Court’s Order on the Merits,
ECF No. 171, is VACATED, and the Clerk’s
Judgment, ECF No. 172, is VACATED in its
entirety. The Clerk shall enter a new judgment
stating, “Plaintiff’s claims against Defendant are

130a

dismissed with prejudice.” The Clerk shall close the
file. 1
SO ORDERED on December 17, 2020.
s/Mark E. Walker
Chief United States District
Judge

Pursuant to this Court’s order extending the deadline to file a
bill of costs and motion to determine entitlement to fees, ECF No.
178, this Court will entertain a motion for entitlement to fees, if
any, even though the file is closed.
1

131a

APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
Case No. 18-14096-H
________________________
D.C. Docket No. 4:16-cv-00511-MW-CAS
REIYN KEOHANE,
Plaintiff-Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
[Date Filed: March 9, 2021]
MOTION TO RECALL MANDATE AND
VACATE PRIOR OPINION
INTRODUCTION
Because the case has become moot as a result
of recent actions taken by the Florida Department of
Corrections (the “FDC”), Reiyn Keohane respectfully
moves this Court to recall the mandate and vacate its
previous decision, Keohane v. Fla. Dep’t of Corrections
Secretary, 952 F.3d 1257 (11th Cir. 2020), en banc
review denied, 981 F.3d 994 (11th Cir. 2020).
132a

This lawsuit involves an action under 42 U.S.C.
§ 1983 alleging violations of Ms. Keohane’s Eighth
Amendment rights. ECF 1. 1 Specifically, Ms. Keohane
challenged the FDC’s policies denying her access to
medically necessary treatment for gender dysphoria,
including a policy barring the initiation of hormone
therapy and a policy prohibiting prisoners from
socially transitioning by denying them access to
female clothing and grooming standards. Id. She
prevailed on her claims at the district court, which
issued an injunction directing the FDC to provide Ms.
Keohane with hormone therapy and access to female
clothing and grooming standards. ECF 171 at 61. A
panel of this Court reversed, vacating the district
court’s order, and Ms. Keohane’s request for en banc
review was denied. The FDC has voluntarily
continued to provide Ms. Keohane hormone therapy,
has permitted her to access female clothing and
grooming standards, and has assured her that she
would continue to receive such treatment, 2 thereby
rendering the present case moot. As a result of the
FDC’s unilateral actions, there is no longer a live
controversy between the parties, resulting in Ms.
Keohane being unable to pursue her right to seek
certiorari from the Supreme Court to review this
Court’s decision. Due to the actions of the FDC, and
through no action of Ms. Keohane, Ms. Keohane has
been left with an unreviewable adverse decision. For
this reason, the Court should vacate its opinion under
United States v. Munsingwear, Inc., 340 U.S. 36
(1950).
1

“ECF” is a reference to the trial-court docket.

See Declaration of Reiyn Keohane (“Keohane Decl.”), attached
hereto as Exhibit A.
2

133a

BACKGROUND
Ms. Keohane brought an action in the U.S.
District Court for the Northern District of Florida on
grounds that her Eighth Amendment rights were
violated by the FDC. ECF 1. The FDC implemented a
policy that banned all treatment for gender dysphoria
that inmates were not already receiving prior to
entering into custody (the “freeze-frame” policy),
including hormone therapy. Id. The FDC also
prohibited prisoners with gender dysphoria from
accessing female clothing and grooming standards,
preventing them from socially transitioning in
accordance with accepted standards of care for the
treatment of gender dysphoria. Id.
After being denied hormone therapy and access
to female clothing and grooming standards by the
FDC for two years, Ms. Keohane filed a complaint
challenging these policies and requesting that the
district court issue an injunction directing the FDC to
provide Ms. Keohane hormone therapy and access to
female clothing and grooming standards. Id. at 30.
After her complaint was filed, the FDC agreed to
provide hormone therapy to Ms. Keohane but
maintained its refusal to permit her to access female
clothing and grooming standards. See ECF 171. After
a bench trial, the district court issued the order in Ms.
Keohane’s favor. Id. The court held that the FDC’s
initial refusal to provide hormone therapy and its
continued refusal to permit social transition
constituted deliberate indifference to a serious
medical need in violation of the Eighth Amendment.
Id. 3 It issued an injunction directing the FDC to
3 The court held that the hormone-therapy issue was not moot
because the FDC voluntarily ceased application of the freeze-

134a

continue providing hormone therapy and to permit
Ms. Keohane to access female clothing and grooming
standards. Id. at 61.
The FDC appealed, and on March 11, 2020, this
Court reversed and vacated the district court’s order.
Keohane, 952 F.3d 1257. The Court found that Ms.
Keohane’s challenge to the FDC’s freeze-frame policy
and its initial failure to provide hormone therapy was
moot. The Court also rejected Ms. Keohane’s claim
that the FDC’s refusal to provide access to female
clothing and grooming standards, which prevented
her from socially transitioning, violated the Eighth
Amendment. Ms. Keohane petitioned for rehearing en
banc, which was denied on December 3, 2020.
Keohane, 981 F.3d 994. The mandate issued on
December 11, 2020. The district court vacated the
injunction on December 17, 2020. ECF 194. Ms.
Keohane’s deadline for filing a petition for certiorari
to the Supreme Court is May 3, 2021. 4
After this Court vacated the district court’s
order, the FDC continued to voluntarily provide Ms.
Keohane with hormone therapy and access to female
clothing and grooming standards and assured her that
such treatment would continue. See Keohane Decl. ¶¶
4-8. On June 23, 2020, she was provided a written
pass from the FDC indicating that she is allowed to
maintain long hair, wear female undergarments, and
frame policy to Ms. Keohane after she filed her complaint without
meeting its burden of showing that the challenged conduct could
not reasonably be expected to recur. Id. at 14-21.
See Supreme Court order dated March 19, 2020, extending the
deadline for cert petitions to 150 days due to the COVID-19
pandemic.
https://www.supremecourt.gov/orders/courtorders/
031920zr_d1o3.pdf.
4

135a

order female canteen items. Id. ¶ 5. She continues to
be provided hormones daily by nursing staff. Id. ¶ 8.
Additionally, as recently as February 18, 2021, a
prison doctor assured Ms. Keohane that her current
treatment would continue. Id. ¶ 7. 5
The FDC’s voluntary decision to provide Ms.
Keohane with her requested relief after it was no
longer under court-order to do so has rendered Ms.
Keohane’s case moot and, thus, prevents her from
asking the Supreme Court to grant certiorari to review
the adverse ruling of this Court. For this reason, Ms.
Keohane requests that this Court recall the mandate
and vacate its prior opinion.
ARGUMENT
Federal courts require that cases have a live
case or controversy throughout every stage of the
litigation process. IAL Aircraft Holding, Inc. v. FAA,
216 F.3d 1304, 1305 (11th Cir. 2000). As such, an
actual dispute must remain live at all stages of review,
not only at the time the complaint is filed. Id.; see also
United States v. Sanchez-Gomez, 138 S. Ct. 1532, 1537
(2018) (“[A] dispute must be extant at all stages of
review, not merely at the time the complaint is filed.
A case that becomes moot at any point during the
proceedings is “no longer a ‘Case’ or ‘Controversy’ for
In 2017, the FDC adopted new guidelines—most recently
updated, Ms. Keohane believes, in 2019—for the treatment of
gender dysphoria, which no longer included a freeze-frame
policy, and permitted prisoners to access female clothing and
grooming standards if recommended by the Gender Dysphoria
Review Team. See FDC Procedure Number 403.012, attached
hereto as Exhibit B. Ms. Keohane, however, had been told she
would not be evaluated under the new guidelines while her
litigation was pending. See Keohane Decl. ¶ 3.

5

136a

purposes of Article III . . . .”) (citations and internal
quotations omitted). If the case no longer has a “live”
controversy, it will be dismissed as moot. IAL Aircraft,
216 F.3d at 1305. When a case becomes moot after an
appellate court issues its decision, it is generally
appropriate for an appellate court to vacate the lower
court’s, or its own, decision under Munsingwear, 340
U.S. at 39-40.
In Munsingwear, the Supreme Court
recognized the “duty” of federal appellate courts to
vacate decisions when the issue has become moot
during its journey to the Supreme Court. Id. at 40. The
underlying reason is that this procedure “clears the
path for future relitigation of the issues between the
parties and eliminates a judgment, review of which
was prevented through happenstance.” Id. Following
this procedure ensures the rights of all parties are
preserved. Id.
Generally, it is appropriate for the court of
appeals to vacate its judgment when it learns of
events that mooted the case during the time available
to seek certiorari review. In re United States, 927 F.2d
626, 627 (D.C. Cir. 1991); see also Clarke v. United
States, 915 F.2d 699, 706 (D.C. Cir. 1990) (quoting
Wright, Miller & Cooper, Federal Practice and
Procedure § 3533.10 at 435 (1984)). Thus, vacatur is
appropriate when an appeal becomes moot after an
appellate panel has issued a published opinion, but
before the appeal can be litigated to completion. See
United States v. Schaffer, 240 F.3d 35, 38 (D.C. Cir.
2001) (en banc) (per curiam); Brewer v. Swinson, 837
F.2d 802, 806 (8th Cir. 1988) (Eighth Circuit recalled
the mandate and vacated its own judgment when the
case became moot after the court issued its mandate
but before the time available to seek certiorari review
137a

expired); see also IAL Aircraft, 216 F.3d at 1306 n.2
(“Even after a case becomes moot . . . , courts of
appeals always have jurisdiction to determine
mootness and recall their mandates.”).
Vacatur under Munsingwear is appropriate
when the party seeking vacatur is not responsible for
causing the mootness, and vacating the lower court
decision serves the doctrine’s equitable purposes. See,
e.g., U.S. Bancorp Mort’g Co. v. Bonner Mall P’ship,
513 U.S. 18, 24-25 (1994). The present matter easily
meets these requirements. The case became moot
through actions taken by the FDC and not by Ms.
Keohane. And principles of equity favor vacating the
Court’s prior opinions because this Court’s decision
has preclusive effects on Ms. Keohane, but Ms.
Keohane’s ability to seek Supreme Court review of
this adverse ruling has been taken away because the
case is now moot.
I.

The FDC rendered Ms. Keohane’s case
moot when, after this Court ruled in its
favor, it voluntarily made the decision to
allow her to continue receiving hormone
therapy and access female clothing and
grooming standards.

When the FDC filed its appeal in this Court, it
asked the Court to reverse the district court’s decision
directing it to continue providing hormone therapy
and to permit Ms. Keohane to access female clothing
and grooming standards. This Court ruled in the
FDC’s favor, vacating the district court’s order on
March 11, 2020.
Although no longer under court order to provide
Ms. Keohane with hormone therapy or access to
female clothing and grooming standards, the FDC has
138a

voluntarily continued to do so. Keohane was provided
a written pass indicating that she is permitted to
access female undergarments, grooming standards,
and canteen items in June 2020. Keohane Decl. ¶ 5.
After this Court denied Ms. Keohane’s petition for en
banc review and issued the mandate, and the district
court vacated its injunction (all of which occurred in
December 2020), the FDC has continued to provide
her with hormone therapy and access to female
clothing and grooming standards (including access to
female canteen items). Id. ¶¶ 6-8. The FDC assured
her as recently as February 18, 2021, that such
treatment would continue. Id. ¶ 7. As a result of this
action by the FDC, there is no longer any actual
dispute between the parties.
The FDC’s decision to provide Ms. Keohane
with the relief she seeks in this litigation after this
Court ruled that it was not required to do so was made
of its own volition. The FDC’s actions rendered the
case moot, preventing Ms. Keohane from seeking
review from the Supreme Court. Under these
circumstances, the appropriate course of action is to
vacate the Court’s decisions. See, e.g., Schaffer, 240
F.3d 35; Brewer, 837 F.2d 802.
II.

Vacating this Court’s opinion is consistent
with
the
equitable
principles
underpinning Munsingwear.

The Court should vacate its opinion because it
serves the equitable principles underpinning
Munsingwear. The equitable remedy of vacating prior
opinions in cases that become moot is driven by the
principle that a “party who seeks review of the merits
of an adverse ruling, but is frustrated by the vagaries
of circumstance, ought not in fairness be forced to
139a

acquiesce in the judgment.” Democratic Exec. Comm.
of Florida v. Nat.’l Republican Senatorial Comm., 950
F.3d 790, 793 (11th Cir. 2020) (citing U.S. Bancorp
Mort’g Co., 513 U.S. at 25).
This Court’s opinion was a final adjudication of
the merits of Ms. Keohane’s claims and, thus, has res
judicata effect on the parties. See Hand v. Desantis,
946 F.3d 1272, 1275 n.5 (11th Cir. 2020) (denying
motion to vacate prior stay order because it lacks “a
final adjudication of the merits of the appeal and
therefore it has no res judicata effect”) (quoting F.T.C.
v. Food Town Stores, Inc., 547 F.2d 247, 249 (4th Cir.
1977) (quotations omitted)). While Ms. Keohane has
been given no indication that the FDC will resume its
practice of denying her hormone therapy or access to
female clothing and grooming standards—indeed, the
FDC’s new guidelines permit such treatment if
approved by the Gender Dysphoria Review Team—in
the event the FDC’s policy should change in the
future, her ability to challenge it would be negatively
affected by this Court’s decision. It would be
inequitable to leave this Court’s decision in place—
with its res judicata effect on Ms. Keohane—when she
is unable to seek review by the Supreme Court
because the case is moot.
By vacating this Court’s opinion, the Court
would be comporting with the equitable principles of
Munsingwear.
CONCLUSION
The FDC’s voluntary actions in providing Ms.
Keohane with the relief she is seeking in this
litigation, even after this Court ruled that it is not
required to do so, moots Ms. Keohane’s claims and
deprives her of the chance to obtain further appellate
140a

review. Accordingly, Ms. Keohane respectfully
requests that this Court recall the mandate and
vacate its prior decision as moot.
Counsel for Ms. Keohane has conferred with
counsel for the FDC, which opposes the requested
relief.
[Counsel signature blocks and certificates of
service/compliance omitted]
EXHIBIT A
Declaration of Reiyn Keohane
1.

I, Reiyn Keohane, am the Plaintiff-Appellant in
this case. I am over the age of 18 and am
competent to testify regarding the contents of
this Declaration, which I make based upon my
personal knowledge.

2.

Just before my trial in July 2017, I was
informed by my counsel that the Florida
Department of Corrections had issued new
guidelines for the treatment of prisoners with
gender dysphoria and that they would permit
social transition for prisoners with gender
dysphoria if deemed appropriate by the Gender
Dysphoria Review Team (“GDRT”).

3.

When I was transferred to the Wakulla Annex
in 2018, I was told by psychologist Dr. Sean
Lloyd that the evaluation process for treatment
for gender dysphoria had been updated. He also
told me that I would not be reevaluated for
treatment for gender dysphoria because of the
ongoing litigation. He said my current care
related to social transition (being able to access
female clothing and grooming standards,
141a

specifically having long hair, wearing female
undergarments, and accessing female canteen
items) was ordered by the court, so I would not
be evaluated under the new policy that applied
to other inmates with gender dysphoria.
4.

In May 2020, shortly after I arrived at Florida
State Prison in Raiford, I was seen by the MultiDisciplinary Services Team to go over my
service plan. Dr. Emanuelidis, psychological
director and evaluator at Florida State Prison,
assured me that there would be no change in
my gender dysphoria treatment, which
continued to include hormone therapy and
access to female clothing and grooming
standards (including access to female canteen
items).

5.

In June 2020, the DOC, for the first time, gave
me something in writing indicating approval for
hair
growth
and
grooming,
women’s
undergarments, and female canteen items. 1Dr.
Emanuelidis gave me an accommodation pass
on or about June 23, 2020. The form is entitled
“Florida
Department
of
Corrections
Accommodation(s) Pass.” On the top right
corner, in handwriting, it says E-1301, which
was my cell number at the time I received the
pass. Under the title it says “INMATE
KEOHANE, REIYN DCY55036”. Underneath
that, it says “1. Hair length,” with two boxes
indicating “yes” or “no,” with “yes” checked, and

On a previous occasion, at Jefferson CI (I think around April or
May 2017), the DOC had given me a pass to wear a sports bra,
and the DOC made clear that it was for physical support and not
to treat my gender dysphoria.
1

142a

underneath that, “In accordance with female
hair standards as stated in 33-602.101.” Under
that, it says “2. Alternate canteen items,” with
two boxes indicating “yes” or “no,” with “yes”
checked. Under that, it says “3. Under
garments,” with two boxes marked “male” and
“female,” with “female” checked. Under that, it
bears the date “6/23/20.” Under that, it states
“INMATES
FOUND
ALTERING
OR
COPYING THIS PASS MAY BE SUBJECT
TO
DISCIPLINARY
ACTIONS
IN
ACCORDANCE WITH RULES 33-601.301.314, FAC.” Under that, it says “page 1 of 1”
and the footer of the document states, “This
form is not to be amended, revised or altered
without approval of the Chief of Health
Services Administration.” I dictated the content
of the form to my counsel by phone. I keep the
form in my personal property.
6.

When I arrived back at Wakulla Annex in
February 2021 I did not have any female
clothing with me because I was on suicide
watch, so Lieutenant Watkins (who represents
security on the Multi-Disciplinary Services
Team) and a female corrections officer (whose
name I believe is Huntley) called down to
laundry to ensure that I was able to obtain
female undergarments.

7.

On February 18, 2021, I met with the MultiDisciplinary Services Team at Wakulla. Dr.
Olroyd, who goes by Dr. O, said that my genderdysphoria treatment (including hormone
therapy and access to female clothing and
grooming standards, which includes access to
143a

female canteen items) would continue as I am
currently receiving it.
8.

I continue to be provided my hormone pills
every day by nursing staff.
EXHIBIT B
Florida Department of Corrections
Mark S. Inch, Secretary

PROCEDURE NUMBER:
403.012
PROCEDURE TITLE:
IDENTIFICATION AND MANAGEMENT OF
INMATES DIAGNOSED WITH GENDER
DYSPHORIA
RESPONSIBLE AUTHORITY:
OFFICE OF HEALTH SERVICES
EFFECTIVE DATE:
NOVEMBER 13, 2019
INITIAL ISSUE DATE:
JULY 13, 2017
SUPERSEDES:
NONE
RELEVANT DC FORMS:
DC4-643A, DC4-643E, DC4-643F, DC4-643G,
DC4-711L, DC4-711M, AND DC6-1009
ACA/CAC STANDARDS:
4-4281-5 AND 4-4371
STATE/FEDERAL STATUTES:
28 C.F.R §115.5-501; 42 U.S.C. §15601-15609
144a

FLORIDA ADMINISTRATIVE CODE:
CHAPTER 33-603.101
PURPOSE: To provide guidelines for a medical
appraisal, mental health screening, evaluation and
treatment of inmates meeting criteria for a diagnosis
of Gender Dysphoria.
DEFINITIONS:
(1)

Clinical Group Therapy, where used herein,
refers
to
a
cognitive
behavioral
or
psychodynamic process by which a group of
individuals is led by a Psychologist or
Behavioral Health Specialist to guide
interpersonal and intrapersonal growth
through an examination of the patients’
thoughts, feelings, experiences, and skills.

(2)

Gender Dysphoria, where used herein,
previously known as Gender Identify Disorder,
refers to discomfort or distress experienced by
an individual because of a perceived
discrepancy between the individual’s gender
identity and the inmate’s gender assigned at
birth.

(3)

Gender Dysphoria Review Team (GDRT),
where used herein, refers to a team composed
of the Chief of Medical Services, Chief of Mental
Health Services, Chief of Security Operations,
Chief of Classification Management, and the
Prison Rape Elimination Act (PREA)
Coordinator. The team members may designate
or send a representative when circumstances
exist, which, prevents their attendance.

(4)

Gender-Affirming Hormonal
where used herein, refers to
145a

Therapy,
prescribed

medication to facilitate biological change(s)
during transitioning
(5)

Individual Psychotherapy, where used
herein, refers to a collaborative treatment
based on the therapeutic relationship between
the patient and Mental Health Clinician,
including, but not limited to, cognitive
behavioral,
dialectical
behavioral,
psychodynamic, and interpersonal modalities.

(6)

Intersex, where used herein, refers to a person
whose
sexual/reproductive
anatomy
or
chromosomal pattern does not seem to fit the
typical biological definition of male or female.

(7)

Multidisciplinary Services Team (MDST),
where used herein, refers to staff representing
different professions and disciplines, which has
the responsibility for ensuring access to
necessary assessment, treatment, continuity of
care and services to inmates in accordance with
their identified mental health needs, and which
collaboratively develops, implements, reviews,
and revises an individualized service plan, as
needed.

(8)

Psychoeducational Group Intervention,
where used herein, refers to a didactic form of
group therapeutic services designed to teach
patients about their disorder and help them
learn how to manage the related symptoms,
behaviors and consequences. This may include
workbook and/or homework activity.

(9)

Transgender, where used herein, refers to a
general term used for inmate whose gender
identity does not conform to the typical
expectations associated with the gender they
146a

were assigned at birth. A male-to-female
transgender inmate refers to a biological male
who identifies as, or desires to be, a member of
the
female
gender;
a
female-to-male
transgender inmate refers to a biological female
who identifies as, or desires to be, a member of
the male gender. A transgender inmate may or
may not qualify for a diagnosis of Gender
Dysphoria depending on her/his level of distress
or impairment.
(10)

Transitioning, where used herein, refers to
the process during which transgender inmates
may change their physical, social, and legal
characteristics to the gender with which they
identify. Transition may also be regarded as an
ongoing process of physical change and
psychological adaptation.
________________________________________________
GENERAL GUIDELINES:
These standards and responsibilities apply to
both Department staff and Comprehensive
Health Care Contractor (CHCC) staff.
(1)

GENDER DYSPHORIA REVIEW TEAM
ROLE AND RESPONSIBILITY:
(a)

The GDRT has the authority and
responsibility
to
review
recommenddations for the treatment and
management of inmates diagnosed with
Gender
Dysphoria
to
ensure
individualization in the decision-making
process.

(b)

The GDRT will convene at least
quarterly to address issues in the
147a

treatment and management of inmates
diagnosed with Gender Dysphoria. The
GDRT may request any information it
determines necessary to assist in its
decision-making process.
(c)

The GDRT may consult with the warden
and any other staff at the facility where
an inmate diagnosed with Gender
Dysphoria
resides
when
making
decisions regarding their management
and plans of care.

(d)

The GDRT may access an outside
consultant to evaluate known or
potential Gender Dysphoria inmates and
provide recommendations for treatment
and transitioning. Recommendations
from an outside consultant may be
considered, but are not binding on the
GDRT.

(e)

Specific facilities will be identified by the
Department
to
provide
ongoing
treatment and accommodations for
Gender Dysphoria.

SPECIFIC PROCEDURES:
(1)

SCREENING AND IDENTIFICATION:
(a)

Mental health staff is responsible for the
diagnosis of Gender Dysphoria. All
initial diagnoses of Gender Dysphoria
will be provisional until a comprehensive
assessment can be completed by a
psychologist credentialed to diagnose
and treat Gender Dysphoria and the
results are reviewed by the GDRT. The
148a

provisional diagnosis must be a
consensus of the MDST or, if not
available, a clinician credentialed to
diagnose and treat Gender Dysphoria.

(2)

(b)

The MDST or, if not available, a clinician
credentialed to diagnose and treat
Gender Dysphoria will enter the
provisional diagnosis into the Offender
Based Information System (OBIS)
within three business days and will
notify the Regional Mental Health
Director by e-mail of the provisional
diagnosis, while initiating the transfer
process as outlined in “Mental Health
Transfers,” Procedure 404.003.

(c)

Within three business days of receipt of
the request for the Gender Dysphoria
evaluation, the Central Office Mental
Health Transfer Coordinator will review
and log the request into an excel
spreadsheet for tracking purposes. The
request will be forwarded by e-mail to
Population
Management
and
Reception/Youthful Offender Services,
which will notify the Central Office
Mental Health Transfer Coordinator of
its approval for transfer.

(d)

The inmate, along with the current
medical and mental health record, will
be transferred to an institution
designated by the GDRT for completion
of the “Psychological Evaluation for
Gender Dysphoria,” DC4-643E.

ASSESSMENT OF GENDER DYSPHORIA:
149a

(3)

(a)

Upon the inmate’s arrival at an
institution designated by the GDRT, the
Psychological Services Director will
place a mental health hold on the inmate
pending completion of the evaluation and
further disposition by the GDRT.

(b)

An appointment for the inmate will be
scheduled
by
the
evaluating
psychologist, who must be credentialed
in the diagnosis and treatment of Gender
Dysphoria. The psychologist will:
1.

explain
the
limits
of
confidentiality and the potential
consequences
of
a
Gender
Dysphoria diagnosis;

2.

explain the potential treatment
and permissible accommodations;
and

3.

obtain a new “Consent to Mental
Health Evaluation or Treatment,”
DC4-663.

(c)

The DC4-643E will be completed within
90 calendar days of an inmate’s arrival to
the designated site.

(d)

Upon Completion, form DC4-643E will
be sent to the CHCC Regional Mental
Health Director for review. Within seven
business days, the CHCC Regional
Mental Health Director will forward the
completed evaluation to the GDRT for
review and final disposition.

TREATMENT FOR GENDER
DYSPHORIA:
150a

(4)

(a)

Inmates
diagnosed
with
gender
dysphoria shall have access to necessary
mental health treatment at each of the
designated Gender Dysphoria facilities.
Treatment will include, but not be
limited to, clinical group therapy once
weekly,
psychoeducational
group
interventions
twice
weekly,
and
individual psychotherapy at least every
30 days.

(b)

Inmates with a provisional diagnosis of
Gender Dysphoria who refuse the
evaluation for Gender Dysphoria will be
assigned to a facility designated by the
GDRT and will be offered treatment that
will include, but not be limited to,
individual psychotherapy at least
weekly.

(c)

While receiving any treatments for
Gender Dysphoria inmates must remain
at a mental health designation of S-2 or
higher.

(d)

Treatment interventions will focus on
the ambivalence and/or dysphoria
regarding
gender
identity,
social
transitioning, assisting with adjustment
to incarceration, and community reentry.
Gender-affirming hormonal medication
will be prescribed as clinically indicated.

GENDER
THERAPY:
(a)

AFFIRMING

HORMONAL

All gender-affirming hormonal therapy
will be provided on a single dosage basis.
151a

(b)

(c)

An inmate who is receiving hormonal
medication at the time of intake will be
continued on hormonal medications
provided the following conditions are
met:
1.

the hormones represent an
established treatment that has
been
prescribed
under
the
supervision
of
a
qualified
clinician;

2.

the inmate cooperates with health
care staff in obtaining written
records or
other
necessary
confirmation of her/his previous
treatment; and

3.

health care staff determine the
hormones are medically necessary
and not contraindicated for any
reason.

An inmate who is not receiving hormonal
medication at the time of intake may be
started on hormonal medications while
incarcerated provided the following
conditions are met:
1.

the inmate cooperates with health
care staff in efforts to obtain
written records or other necessary
confirmation
of
previous
treatment, if present; and

2.

the GDRT determines that the
hormones are medically necessary
and not contraindicated for any
reason.
152a

(d)

Gender-affirming hormonal therapy
shall not be implemented unless the
appropriate
consent
form,
either
“Transgender Hormone Therapy –
Testosterone Informed Consent,” DC4711M, or “Transgender Hormone
Therapy – Estrogen and Antiandrogens
Informed Consent,” DC4-711L, is signed
by the inmate, the psychologist, and the
medical practitioner. The medical
practitioner and psychologist shall allow
the inmate to read the appropriate
consent form, as well as discuss the
content of the form with the inmate to
ensure that she/he understands this
content thoroughly. A signed copy of the
informed consent shall be given to the
inmate. The original shall be placed in
the health record on the left side under
the subdivider entitled Consents/
Refusals.

(e)

Gender-affirming hormonal treatment
shall be managed by a CHCC Physician
and/or
outside
consultant.
Any
Transgender or Gender Dysphoric
inmates on hormone therapy will be
placed in the Miscellaneous – Chronic
Illness Clinic (HSB 15.03.05 Appendix 3)
for treatment and monitoring by the
institutional CHO/Medical Director

(f)

The CHO/Medical Director shall write
and submit a consult for a follow-up
appointment as requested by the
consultant, but no longer than 180 days
from the last consult until the hormonal
153a

levels are within normal range for a
transgendered individual.
(g)

(5)

If an inmate chooses to discontinue
hormonal
medications
while
incarcerated and then wishes to restart
hormonal medications, the GDRT shall
evaluate the request and consider the
medical necessity of the treatment
option.

ACCOMMODATIONS
FOR
INMATES
WITH A DIAGNOSIS OF GENDER
DYSPHORIA:
(a)

To assist in transitioning, facilities
designated by the Department will:
1.

provide alternate canteen and
quarterly order menus in addition
to the menus available to other
inmates at the facility;

2.

allow inmates to wear make-up
inside the housing unit. Make-up
will be removed prior to departing
the housing unit;

3.

allow inmates to grow and style
their hair in accordance with the
female hair standards as stated in
Rule 33-602.101, F.A.C.; and

4.

issue opposite gender inmate
uniform and under garments.
Inmates will be issued the
approved type, but may purchase
other types of under garments
independently from either the
alternate canteen or quarterly
154a

menu. These items can be worn
outside of the housing unit.

(6)

(b)

The name of the inmate as it appears on
the on the indictment page of the
commitment package shall be used,
unless there is a subsequent court order
for a name change. If so, a new
indictment page of the commitment
package must be issued or the court
order must specifically state “change all
records.”

(c)

Inmates may use preferred titles of Ms.,
Miss, Mrs., or Mr. in correspondence;
however, the name at the time of
commitment and DC number must be
used.

(d)

Facilities shall encourage staff to use
gender-neutral forms of address (e.g.,
Inmate Smith or Smith) for gender
dysphoria inmates who request it.

(e)

All other requested accommodations
must be presented to the GDRT for
review and final determination.

GENDER DYSPHORIA REVIEW TEAM
DISPOSITIONS:
(a)

Following review of the completed DC4643E, the GDRT will document its
disposition on the “Gender Dysphoria
Review Team Dispositions,” DC4-643F
and the “Accommodation(s) Pass,” DC4643G. Property and apparel shall be
consistent with the inmate’s DC4-643F
155a

as approved by the GDRT. These forms
will be routed and filed as follows:

(b)

1.

the Mental Health Quality
Assurance Manager in Central
Office will e-mail the completed
DC4-643F and DC4-643G to the
CHCC State Mental Health
Director, CHCC Regional Mental
Health Director, Psychological
Services Director, and the Health
Services Administrator (HSA);

2.

the original forms will be mailed
to the HSA at the institution who
will be responsible for reviewing
with treating mental health and
medical staff;

3.

the HSA will ensure these forms
are filed in the Mental Health
Evaluation Reports section of the
health record next to the DC4643E; and

4.

a copy of the DC4-643G will be
provided to the inmate by the
Health Services Administrator at
the institution. A replacement
DC4-643G will be provided to an
inmate upon request due to loss or
excessive damage. Inmates found
to have altered their DC4-643G
may be subject to discipline in
accordance
with
Rules
33601.301-.314, F.A.C.

The PREA coordinator will notify the
Warden at the facility currently housing
156a

the inmate through e-mail advising
her/him of the final disposition(s). The
notice will include the DC4-643F and the
“Transgender/Intersex
Housing
Determination,” DC6-1009. The Warden
will be responsible for notifying the
appropriate staff/departments within
the facility regarding any applicable
dispositions for accommodations or
actions to be taken.
(c)

For
inmates
requiring
transfer
subsequent to the completion of the DC4643F, an automated e-mail notification
will be generated to the sending and
receiving facilities to notify the
Warden(s) of the upcoming transfer. The
sending facility will be responsible for
ensuring
all
applicable
forms/dispositions are included in the
inmate’s records. The receiving facility
will be responsible for ensuring any
accommodations/dispositions are met
upon the inmate’s arrival.

(d)

For those inmates receiving a formal
diagnosis of Gender Dysphoria, further
facility and housing assignments shall be
made on a case by case basis with
inmates being placed at one of the
designated treatment facilities for
Gender Dysphoria. The health and
safety of the inmate, as well as all
treatment, management, and security
concerns will be examined. The inmate’s
own views regarding safety shall be
given careful consideration.
157a

(e)

(6)

Issues relating to an inmate’s Gender
Dysphoria diagnosis that emerge after
completion of the DC4-643F will be
addressed through the institutional
MDST. At institutions where there is no
available MDST, issues will be
addressed by a mental health clinician
credentialed to provide a Gender
Dysphoria evaluation. If it is determined
additional review by the GDRT is
required, the MDST or the credentialed
mental health clinician may refer the
issue(s) to the GDRT for further
consideration.

RELEASE
PLANNING:
Pre-release
continuity of care planning for necessary
medical and mental health treatment and
services shall be provided in accordance with
“Pre-release Planning for Continuity of Health
Care,” HSB 15.03.29; and “Mental Health ReEntry Aftercare Planning Services,” HSB
15.05.21, respectively.

158a

APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
________________________
Appeal No. 18-14096-H
________________________
REIYN KEOHANE,
Plaintiff/Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS,
Defendant/Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Florida
No. 4:16-cv-511-MW-CAS
________________________
[Date Filed: March 26, 2021]
FLORIDA DEPARTMENT OF CORRECTIONS’
RESPONSE IN OPPOSITION TO MOTION TO
RECALL MANDATE
Appellant Florida Department of Corrections
(“FDC”) respectfully requests that the Court deny
appellee Reiyn Keohane’s motion to recall mandate
and vacate prior opinion (the “Motion”). Despite
Keohane’s assertions, this case is not moot and the
Court’s prior decision and subsequent denial of
Keohane’s petition for rehearing en banc determined
159a

far more than her “social transitioning” requests.
Accordingly, the Motion should be denied.
Keohane Fails to Satisfy the Standards for
Recalling the Mandate
Eleventh Circuit Rule 41-1(b) states, as follows:
“A mandate once issued shall not be recalled except to
prevent
injustice.”
(emphasis
added).
Not
surprisingly, this rule goes unmentioned in Keohane’s
Motion. This rule comports with the Supreme Court’s
decision in Calderon v. Thompson, 523 U.S. 538
(1998), which instructed that the power to recall the
mandate can be exercised “only in extraordinary
circumstances” and is a power “of last resort, to be
held in reserve against grave, unforeseen
contingencies.” Id. at 550.
Here, FDC fails to see the grave injustice being
suffered by Keohane that would require the mandate
to be recalled. As FDC told the Court at oral
argument, it was not rolling back the treatment
offered to Keohane and it was adopting a new policy
relating to the treatment of gender dysphoria. See
Exhibit B to Motion. This policy, Proc. No. 403.012,
makes plain that medical and mental health
treatment and services are individualized and
provided based on identified medical needs. These
individual needs can change over time, and FDC’s
Procedure allows the treating health care professional
to exercise his or her medical judgment in
accommodating these fluctuating needs.
That Keohane presently is being allowed access
to female canteen items, i.e., make-up (to be worn in
cell only), and female grooming standards is a
reflection of FDC’s own medical judgment and
security considerations. What is critical to FDC’s
160a

opposition to Keohane’s Motion is this: FDC has not
adopted the position that the Eighth Amendment
requires such treatment, as was the basis for the
district court’s Order. (doc. 171 at 61). As FDC
stressed in its arguments to this Court, the district
court’s Order established the WPATH Standards of
Care as the constitutional minimum in any deliberate
indifference analysis involving transgender issues.
This determination was rightly rejected by this Court.
And this determination should not be vacated, as
requested by Keohane, particularly after such
extensive litigation.
Because FDC is not taking, and never has
taken, the position that Keohane’s social transition
requests are constitutionally mandated, there is
nothing moot about this case and a “case or
controversy” still exists for certiorari purposes.
Keohane’s reliance on Munsingwear is therefore
misplaced. Indeed, Keohane seems to be attempting to
punish FDC for exercising its medical judgment in her
favor. But the ability to exercise its own medical
judgment, as opposed to that judgment being decreed
by WPATH, which has no referential authority in
state statutory practice act standards, or by the
district court’s Order, is precisely what FDC asked
this Court to uphold. If Keohane still wishes to
attempt to constitutionalize the WPATH Standards of
Care, she is free to seek review in the Supreme Court.
Again, no “injustice” has befallen Keohane to
justify the extreme remedy of recalling the mandate
and vacating the Court’s opinion. Further, her
reliance on IAL Aircraft Holding, Inc. v. FAA, 216 F.3d
1304 (11th Cir. 2000) misses the mark. There, this
Court recalled the mandate after issuance because the
Court lacked jurisdiction when the decision and
161a

mandate were issued. Id. at 1306-07. Such a lack of
jurisdiction does not exist here.
The Court’s Opinion Determined More than
“Social Transition” Requests
Though unmentioned in Keohane’s Motion, the
Court’s decision, Keohane v. Fla. Dep’t of Corrections
Secretary, 952 F.3d 1257 (11th Cir. 2020), and its
denial of Keohane’s petition for en banc review, 981
F.3d 994 (11th Cir. 2020), determined far more than
Keohane’s social transition requests. The Court made
important determinations on both the voluntary
cessation doctrine and the applicable standard of
review in Eighth Amendment deliberate indifference
cases.
Indeed, Keohane herself expressly sought en
banc review based on her contention that the panel got
the standard of review wrong. After the Court’s
lengthy discussion of Thomas v. Bryant, 614 F.3d 1288
(11th Cir. 2010) in both the original decision and in
the decision denying en banc review, it determined
that “what the Eighth Amendment means – and
requires in a given case – is an issue squarely within
the core competency of appellate courts.” Keohane, 952
F.3d at 1272-73 n.8. Thus, the Court held that de novo
review was the appropriate standard for such legal
determinations. FDC believes the Court got it right,
and does not wish to have this important
determination vacated based on Keohane’s mistaken
belief that this case is moot. The Court’s guidance is
critically important to future cases and should not be
vacated, particularly after Keohane herself invited the
Court’s detailed analysis and ultimate determination.

162a

The same holds true for the Court’s
determination that the voluntary cessation exception
to the mootness doctrine did not apply because there
was no evidence that FDC would roll back Keohane’s
treatment when the case resolved. Keohane, 952 F.3d
at 1267-70. Keohane’s present Motion underscores
that the Court got this determination right. More
importantly, FDC believes the Court’s guidance and
analysis of the voluntary cessation doctrine as applied
to governmental agencies is instructive and should not
be vacated based on Keohane’s belief that her case is
moot.
In short, the Court’s analysis of the applicable
standard of review in Eighth Amendment deliberate
indifference cases and its decision on the voluntary
cessation doctrine are hardly moot. Keohane did not
mention these aspects of the Court’s decision; rather,
her Motion seems to seek a partial recall of the
mandate. FDC submits that the Court should decline
this invitation and deny the Motion.
CONCLUSION
For at least the foregoing reasons, Keohane’s
Motion should be denied.
[Counsel signature blocks and certificates of
service/compliance omitted]

163a

APPENDIX H
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
Case No. 18-14096-H
________________________
D.C. Docket No. 4:16-cv-00511-MW-CAS
REIYN KEOHANE,
Plaintiff-Appellee,
versus
FLORIDA DEPARTMENT OF CORRECTIONS
SECRETARY,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Florida
________________________
[Date Filed: March 29, 2021]
PLAINTIFF-APPELLEE’S REPLY IN SUPPORT
OF HER MOTION TO RECALL MANDATE AND
VACATE PRIOR OPINION
In support of her Motion to Recall Mandate and
Vacate Prior Opinion (Mar. 9, 2021) (“Motion”),
Plaintiff-Appellee Reiyn Keohane files this reply to
the Florida Department of Corrections’ (“FDC”)
“Response in Opposition to Motion to Recall Mandate”
(Mar. 26, 2021) (“Response”). The FDC’s Response
164a

fails to refute the fact that the Court’s decision has
been rendered moot and that vacatur is appropriate
under Munsingwear. 1
I.

A party’s interest in doctrinal victory does
not save that party from mootness and
vacatur under Munsingswear.

In its Response, the FDC opposes vacatur on
the basis that it would like to leave in place doctrinal
determinations made by this Court that it believes wil
benefit it in future potential litigation. See Response
at 3 2 (the Court “made important determinations on
both the voluntary cessation doctrine and the
applicable standard of review in Eighth Amendment
deliberate indifference cases”); id. at 4 (the Court’s
guidance “is critically important to future cases”); id.
(this “guidance and analysis of the voluntary cessation
doctrine as applied to governmental agencies is
instructive and should not be vacated”); id. at 2 (FDC
“has not adopted the position that the Eighth
Amendment requires [Ms. Keohane’s sought]
treatment”) (emphasis in original). Ms. Keohane does
not doubt the FDC’s genuine institutional interest in
preserving an appellate opinion that it believes will
serve its interests in the future, but that has nothing
to do with the question whether the case is moot. If a
victorious party’s “belie[f] [that] the Court got it
right,” Response at 4—or that the opinion in the
party’s favor was “critically important” or
“instructive,” id.—was enough to save the case from
mootness and vacatur under Munsingwear, this would
swallow those doctrines because a victorious party
1

United States v. Munsingwear, Inc., 340 U.S. 36 (1950).

2

[footnote omitted]

165a

always has an interest in its view of the law being
reflected in a court’s written opinion. 3
“Granting Munsingwear-style relief always
requires appellate courts to consider whether vacatur
is appropriate when the requirements of Article III are
no longer met because one party is no longer able to
obtain relief on the merits.” Democratic Exec. Comm.
of Fla. v. Nat’l Republican Senatorial Comm., 950
F.3d 790, 794 (11th Cir. 2020). “The equitable remedy
of vacating prior opinions in cases that become moot
is driven by the principle that a ‘party who seeks
review of the merits of an adverse ruling, but is
frustrated by the vagaries of circumstance, ought not
in fairness be forced to acquiesce in the judgment.’” Id.
(citing U.S. Bancorp Mort’g Co. v. Bonner Mall P’ship,
513 U.S. 18, 25 (1994)). Here, Ms. Keohane is “no
longer able to obtain relief on the merits,” id., because
FDC voluntarily provided her with the relief she is
seeking in this litigation, see Motion at 9, even though
this Court said that the FDC did not need to provide
it. Ms. Keohane cannot appeal this Court’s decision to
the Supreme Court because there is nothing the
Supreme Court can provide her that was denied to her
by this Court. The FDC appears to point to a
purported interest Ms. Keohane has in the proper
interpretation of Thomas v. Bryant, 614 F.3d 1288
(11th Cir. 2010). Response at 3-4. But while the
implications of that opinion were addressed in Ms.
Keohane’s petition for rehearing en banc and have
been vigorously debated by members of this Court,
that debate is of no personal consequence to Ms.
Keohane except to any extent that the resolution of
Tellingly, Munsingwear is given only a fleeting single reference
in the FDC’s response.

3

166a

that debate in her favor would yield the continued
provision of care she sought in this litigation. That
specific medical care is now secure, thankfully, due to
the voluntary actions taken by the FDC. As a result,
Ms. Keohane has nothing to obtain from the Supreme
Court. Because she cannot obtain relief from the
Supreme Court, she is stuck with an adverse legal
ruling that would have res judicata effect in the event
the FDC’s policy should change in the future. Motion
at 13-14. Because the FDC’s doctrinal interest in
having a court decision say things that may help the
FDC in future legal disputes is insufficient to save a
case from mootness, the appellate decision is moot and
should be vacated under Munsingwear. 4
II.

The FDC misstates the relevance of the
WPATH standards to Plaintiff’s claim.

Although substantive issues should have no
role in this discussion given that the case is moot,
because the FDC appears to assert what amounts to a
substantial misunderstanding of the relevance of the
WPATH standards in this case, Ms. Keohane will
address the matter briefly.
The FDC appears to complain about its
purported inability “to exercise its own medical
judgment, as opposed to that judgment being decreed
by WPATH.” Response at 2. The WPATH standards
do not “decree[]” care for any person. See, e.g., Brief of
And, to respond to the FDC on the standard to recall mandates,
Response at 1-3 (citing Eleventh Circuit Rule 41-1(b) (“A
mandate once issued shall not be recalled except to prevent
injustice.”)), it would be an injustice to leave a decision in place
when a party is unable to appeal because of mootness. And
inherent in vacating the opinion is that the mandate must also
give way.
4

167a

Amici Curiae Medical, Mental Health, and Other
Health Care Organizations in Support of Appellee
[(including WPATH)] (11th Cir. Feb. 12, 2019) at 3
(“Treatment may include the following: [listing
examples]”) (emphasis added); id. at 12 (“The
recommended treatment for transgender adults with
gender dysphoria includes assessment, counseling,
and, as appropriate, [listing examples]. However, each
patient requires an individualized treatment plan
that accounts for the patient’s specific needs.”)
(emphasis added; footnote omitted). The WPATH
standards merely articulate what care may be
appropriate. When the Seventh Circuit held almost a
decade ago that a Wisconsin state law barring
hormone therapy and gender-affirming surgery as
possible treatments for prisoners with gender identity
disorder facially violated the Eighth Amendment,
Fields v. Smith, 653 F.3d 550, 559 (7th Cir. 2011), it
did not do so on the belief that such treatments were
required for all transgender inmates with clinically
significant distress. Rather, the question is one of
individual medical need. Nothing in the WPATH
standards prevents a qualified provider from making
their own judgment as to someone’s individual
medical needs. And, indeed, now that the FDC has
replaced its blanket ban on social transition with a
policy explicitly permitting it for certain transgender
inmates with gender dysphoria, see Motion Exhibit B,
it surely believes its providers are doing just that.
Red-herring arguments about “constitutionaliz[ing]”
the standards, Response at 3, have no meaning
because the standards themselves do not mandate
hormone therapy, social transition, or surgical care for
any person.

168a

CONCLUSION
For
these
reasons,
Plaintiff-Appellee
respectfully requests that this Court recall the
mandate and vacate its prior decision as moot.
[Counsel signature blocks and certificates of
service/compliance omitted]

169a

